<html>
<title> - THE NASA WORKFORCE: DOES NASA HAVE THE RIGHT STRATEGY AND POLICIES TO RETAIN AND BUILD THE WORKFORCE IT WILL NEED?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                   THE NASA WORKFORCE: DOES NASA HAVE
               THE RIGHT STRATEGY AND POLICIES TO RETAIN
                 AND BUILD THE WORKFORCE IT WILL NEED?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2006

                               __________

                           Serial No. 109-54

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
27-971                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

                 Subcommittee on Space and Aeronautics

                   KEN CALVERT, California, Chairman
RALPH M. HALL, Texas                 MARK UDALL, Colorado
LAMAR S. SMITH, Texas                DAVID WU, Oregon
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   JIM COSTA, California
TOM FEENEY, Florida                  AL GREEN, Texas
MICHAEL T. MCCAUL, Texas             CHARLIE MELANCON, Louisiana
MARIO DIAZ-BALART, Florida               
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
                  KEN MONROE Professional Staff Member
              TIND SHEPPER RYEN Professional Staff Member
               ROSELEE ROBERTS Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant


                            C O N T E N T S

                             June 13, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ken Calvert, Chairman, Subcommittee 
  on Space and Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    13

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    20
    Written Statement............................................    20

Statement by Representative Michael M. Honda, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    21

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................   100

                               Witnesses:

Ms. Toni Dawsey, Assistant Administrator, Human Capital 
  Management; Chief Human Capital Officer, National Aeronautics 
  and Space Administration (NASA)
    Oral Statement...............................................    14
    Written Statement............................................    15
    Biography....................................................    19

Dr. Lee Stone, Legislative Representative, International 
  Federation of Professional and Technical Engineers
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    78

Dr. David C. Black, President, Universities Space Research 
  Association
    Oral Statement...............................................    78
    Written Statement............................................    80
    Biography....................................................    85

Mr. John W. Douglass, President and CEO, Aerospace Industries 
  Association of America
    Oral Statement...............................................    86
    Written Statement............................................    88
    Biography....................................................    90

Discussion
  Uncovered Capacity.............................................    91
  NASA's Workforce Strategy......................................    92
  Role of In-house and Contracted Employment.....................    94
  Workforce Gap in Shuttle to CEV Policy.........................    96
  Workforce Transition Policies..................................    98
  Impact on the Scientific Community.............................    99
  More on Workforce Transition Policies..........................   102
  No Talk of Closing Space Centers...............................   104

             Appendix 1: Answers to Post-Hearing Questions

Ms. Toni Dawsey, Assistant Administrator, Human Capital 
  Management; Chief Human Capital Officer, National Aeronautics 
  and Space Administration (NASA)................................   108

Dr. Lee Stone, Legislative Representative, International 
  Federation of Professional and Technical Engineers.............   120

Dr. David C. Black, President, Universities Space Research 
  Association....................................................   127

             Appendix 2: Additional Material for the Record

Statement of the American Institute of Aeronautics and 
  Astronautics, Public Policy Committee..........................   130


 THE NASA WORKFORCE: DOES NASA HAVE THE RIGHT STRATEGY AND POLICIES TO 
              RETAIN AND BUILD THE WORKFORCE IT WILL NEED?

                              ----------                              


                         TUESDAY, JUNE 13, 2006

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Ken 
Calvert [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                   The NASA Workforce: Does NASA Have

               the Right Strategy and Policies to Retain

                 and Build the Workforce It Will Need?

                         tuesday, june 13, 2006
                         10:30 a.m.-12:30 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, June 13th the Subcommittee on Space and Aeronautics 
will hold a hearing on the National Aeronautics and Space 
Administration's (NASA) workforce strategy. The hearing will examine 
whether NASA is taking the steps necessary to ensure that it has the 
workforce to carry out its plans.
    NASA is facing a critical period in ensuring that it has a 
workforce of appropriate size and with appropriate skills. On the one 
hand, NASA has several major new undertakings related to the goal of 
returning to the Moon by 2020; on the other hand, to free up funds for 
that purpose (among other reasons), it is terminating the Space Shuttle 
program in 2010, reducing aspects of International Space Station 
research, and reducing the budget for aeronautics. In addition, NASA 
never fully reassigned its workforce after canceling earlier projects, 
such as the Orbital Space Plane. As a result of all these current and 
pending shifts, NASA estimates that it has about 1,000 employees 
without sufficient tasks, but at the same time the Agency faces a 
potential surge of retirements in the coming years. To handle its 
apparent short-term problem, NASA has been offering buyouts to 
employees, and may lay off employees in the future. The NASA 
Authorization Act of 2005 (P.L. 109-155) forbids layoffs (officially, 
Reductions in Force, or RIFs) before March 16, 2007.
    The Science Committee has taken steps in recent years both to help 
NASA put together an appropriate workforce and to review NASA's 
actions. Most significantly, the Committee passed, and the President 
signed, the NASA Flexibility Act of 2004 (P.L. 108-201), which gave the 
Agency additional authority to offer recruitment and retention bonuses. 
The law was based on language requested by NASA. Also, the NASA 
Authorization Act of 2005, required NASA to develop an overall 
workforce strategy through fiscal year 2011. This plan was released in 
April, and will be a focus of the hearing. The plan has been criticized 
by the International Federation of Professional and Technical Engineers 
(IFPTE), NASA's largest union. The Authorization Act also required NASA 
to submit a report describing its plans for the Space Shuttle 
workforce. Finally, the National Academy of Sciences in late April 
released an interim report on NASA's workforce. The report was 
completed before NASA's workforce strategy was released.

Witnesses

Ms. Toni Dawsey, NASA Assistant Administrator for Human Capital 
Management.

Dr. Lee Stone, Legislative Representative, International Federation of 
Professional and Technical Engineers (IFPTE), and an employee at NASA 
Ames Research Center.

Dr. David Black, Co-Chair, National Academy of Sciences Committee on 
Meeting the Workforce Needs for the National Vision for Space 
Exploration; and President and CEO, Universities Space Research 
Association.

Mr. John W. Douglass, President and CEO, Aerospace Industries 
Association.

Overarching Questions

        1)  Does the NASA workforce currently possess the critical 
        skills that will enable NASA to complete its goals in space and 
        Earth science, aeronautics, and exploration?

        2)  Does NASA have a sound knowledge base upon which to base 
        workforce decisions?

        3)  Has NASA succeeded in attracting and retaining skilled 
        employees?

Background

    NASA currently employs nearly 17,000 permanent Civil Service 
employees, and more than 40,000 contractors work closely with the 
Agency. By comparison, the aerospace industry as a whole employs 
600,000\1\ people within the United States.
---------------------------------------------------------------------------
    \1\ Aerospace Industries Association. Series 12. Updated 05/08/06. 
http://www.aia-aerospace.org/stats/aero<INF>-</INF>stats/stat12.pdf
---------------------------------------------------------------------------
    NASA has said its strategy involves keeping all 10 of its current 
centers around the country ``healthy.'' As part of this, NASA has 
sought to ensure that each of the centers contributes to major programs 
at the Agency. This strategy marks a departure from earlier trends that 
saw Centers specializing in specific areas. The change will require the 
distribution of key skills to all the Centers, which means some current 
centers have even more under-employed staff than before and some have 
fewer.

Issues

Does NASA currently have too many employees and, if so, what should it 
        do about it?
    NASA believes it has about 1,000 full-time equivalent (FTE) 
employees who are underemployed, many of them in aeronautics. NASA uses 
the term ``uncovered capacity'' to describe employees who do not have 
enough tasks for them to be considered fully employed. The three 
aeronautics centers--Ames in California, Glenn in Ohio, and Langley in 
Virginia--have the greatest percentage of their staffs considered 
``uncovered capacity;'' 15 to 30 percent of their staffs, as compared 
to five to 15 percent at other centers. What makes this tricky is that 
most employees do not work on a single project. Because individual 
employees may have only a portion of their time uncovered, 1,000 
uncovered FTEs does not equate with 1,000 employees with no assigned 
work. This distinction drives what solutions are available to the 
Agency. Issuing a buyout to an employee who is 90 percent ``covered'' 
may deprive the Agency of a needed individual while doing little to 
reduce ``uncovered capacity.'' Alternatively, finding additional work 
for an employee with few current assignments may not be possible. NASA 
is currently assessing how the total amount of ``uncovered capacity'' 
is distributed among individual employees. The IFPTE, the larger of the 
two unions representing NASA employees, questions whether the 
calculation of 1,000 FTEs is accurate and claims that NASA in recent 
years has changed its lists of which skills are no longer needed, 
raising questions about whether NASA has a clear sense of which 
employees should be encouraged to leave (or eventually be laid off).
    To reduce its workforce, NASA has instituted three buy-out and 
early retirement programs since 2004. About 950 employees have taken 
advantage of those offers to leave the Agency, and 1,138 employees have 
accepted buyouts since 2002. A key question is whether the ``right'' 
employees are accepting the buyouts. Is NASA targeting the buyouts to 
those areas in which it least needs employees, and is it ensuring that 
its buyouts are not disproportionately accepted by its most skilled 
employees since they may be most able to find other work?
What is the longer-term outlook for NASA's workforce?
    More than 30 percent of NASA's employees are currently eligible for 
regular or early out retirement. NASA estimates that by 2011, 28 
percent of its engineers and 45 percent of its scientists will be 
eligible to retire. Furthermore, less than 20 percent of NASA's overall 
workforce is under 40, and less than 10 percent of NASA's scientists 
are under 40.
    This ``retirement bulge'' comes as NASA will need to ramp up its 
workforce for its lunar programs. Some of the workforce for those 
programs will come from shifting employees who are currently working on 
the Space Shuttle program, which is scheduled to be terminated in 2010, 
especially since the new lunar vehicles will use elements of the Space 
Shuttle. But there are still questions of whether NASA will have the 
young, creative workforce it needs to carry out the new programs.

Does NASA have the data and information systems it needs to judge the 
        adequacy of its workforce?
    NASA has developed a Competency Management System (CMS) to track 
its workforce through two databases, one that tracks the skill 
requirements of all of the Agency's positions, and another that tracks 
the multiple skills of each employee. These databases, which NASA is 
still in the process of implementing, should allow NASA to match 
employees to positions that need their particular skills. The IFPTE 
argues that the CMS produces misleading results, in part because it 
only takes into account the primary competency required for an 
employee's position. Yet most employees work on more than one task and 
have more than one set of skills. NASA has said in response that 
eventually the system will be sophisticated enough to account for more 
than just primary position competencies.
    The union also argues that NASA's method of ``full-cost 
accounting'' exaggerates the cost of carrying employees and leads NASA 
to believe it has more ``uncovered capacity'' than is actually the 
case.

Has NASA made adequate and appropriate use of its special authorities 
        to attract and retain employees?
    The NASA Flexibility Act gave NASA additional authority, including 
the ability to offer larger recruitment and retention bonuses, beyond 
that of other federal agencies. NASA pressed Congress to get this 
authority, but so far the Agency has made very limited use of the 
authority. For example, it awarded only 35 recruitment bonuses under 
the Act in fiscal 2005, despite hiring 324 employees. The IFPTE 
complains that NASA has given disproportionate bonuses to its Senior 
Executive Service (SES) employees, as opposed to rank-and-file 
scientists and engineers, compared to other federal agencies. NASA says 
it will make greater use of the Flexibility Act in the future as it 
undertakes more hiring.

Should NASA begin to hire more employees for limited terms as opposed 
        to traditional Civil Service hiring?
    NASA has said that in the future it will hire more employees for 
limited terms rather than add them to the traditional Civil Service 
workforce. NASA argues that this will provide greater flexibility and 
will not saddle the Agency with excess employees once a project has 
ended. The IFPTE, on the other hand, worries that reliance on term 
employees will prevent NASA from developing deep, ongoing expertise in 
key areas. It also expresses concern that term employees, who will lack 
Civil Service protections, will be less willing to speak out or 
question management decisions, potentially allowing unsafe practices to 
develop without comment.

What mix of in-house and contractor employees should NASA use?
    NASA Administrator Michael Griffin has said that NASA has become 
too dependent on outside contractors, hollowing out some of the skills 
the Agency needs in-house to oversee and evaluate programs. The 
National Academy of Sciences' interim report also questions whether 
NASA currently has sufficient skills inside the Agency, and, not 
surprisingly, the IFPTE has raised similar concerns. How will NASA 
decide the extent to rely on contractor employees for its upcoming 
plans? Will NASA's workforce strategy enable the Agency to have 
sufficient expertise in-house?

Does NASA's workforce strategy provide Congress and the public with the 
        information it needs?
    The strategy document released in April describes in general the 
skills the Agency believes will be important for implementing NASA's 
new programs, but it does not detail how many employees will be needed 
overall or for specific programs or how NASA would go about achieving 
such numbers. The National Academy of Sciences interim report 
recommended that the Agency develop ``policies and procedures to 
anticipate'' changing skill requirements beyond the current problem of 
``uncovered capacity.''

Witness Questions

    The witnesses were asked to address the following questions in 
their testimony:
Ms. Toni Dawsey

        1)  Do the centers continue to have uncovered employees and 
        does the Agency expect further action to reduce the number of 
        employees? If so, how will those reductions be pursued?

        2)  How has NASA ensured that employees with critical skills 
        are not accepting buyouts? How has NASA identified those 
        critical skills?

        3)  What are the critical skills that are hiring priorities for 
        the Agency? How does NASA know which skills are most needed?

        4)  Why has NASA not made greater use of the hiring authority 
        granted by the NASA Flexibility Act?

Dr. Lee Stone

        1)  What are your concerns regarding NASA's released workforce 
        strategy?

        2)  How has NASA ensured that employees with critical skills 
        are not accepting buyouts? How has NASA identified those 
        critical skills?

        3)  What are the critical skills that are hiring priorities for 
        the Agency? Do you think NASA has a good sense of which skills 
        it most needs? What additional steps ought NASA be taking to 
        make such an assessment of its needs?

        4)  Has NASA been making sufficient use of the hiring authority 
        granted by the NASA Flexibility Act?

Dr. David Black

        1)  What are the critical skills that will enable NASA to 
        complete its goals in space and Earth science, aeronautics, and 
        exploration?

        2)  What decisions must NASA make now to prepare for its future 
        workforce needs?

        3)  Does NASA's current workforce strategy fulfill the needs 
        identified by the NRC interim report?

        4)  What are the tradeoffs associated with completing work in-
        house at NASA or contracting them out?

Mr. John W. Douglass

        1)  What are the critical skills that will enable NASA to 
        complete its goals in space and Earth science, aeronautics, and 
        exploration?

        2)  What are the tradeoffs associated with completing work in-
        house at NASA or contracting them out?

        3)  Does the industry have the capacity to successfully absorb 
        additional work from NASA?

        4)  What trends in the aerospace industry should affect NASA's 
        workforce planning?

Appendix A

    Excerpt from the NASA Authorization Act of 2005 (P.L. 109-155)

101 (f) Workforce.--

         (1) In general.--The Administrator shall develop a human 
        capital strategy to ensure that NASA has a workforce of the 
        appropriate size and with the appropriate skills to carry out 
        the programs of NASA, consistent with the policies and plans 
        developed pursuant to this section. Under the strategy, NASA 
        shall utilize current personnel, to the maximum extent 
        feasible, in implementing the Vision for Space Exploration and 
        NASA's other programs. The strategy shall cover the period 
        through fiscal year 2011.

         (2) Content.--The strategy developed under paragraph (1) shall 
        describe, at a minimum-

                 (A) any categories of employees NASA intends to 
                reduce, the expected size and timing of those 
                reductions, the methods NASA intends to use to make the 
                reductions, and the reasons NASA no longer needs those 
                employees;

                 (B) any categories of employees NASA intends to 
                increase, the expected size and timing of those 
                increases, the methods NASA intends to use to recruit 
                the additional employees, and the reasons NASA needs 
                those employees;

                 (C) the steps NASA will use to retain needed 
                employees; and

                 (D) the budget assumptions of the strategy, which for 
                fiscal years 2007 and 2008 shall be consistent with the 
                authorizations provided in title II of this Act, and 
                any expected additional costs or savings from the 
                strategy by fiscal year.

         (3) Schedule.--The Administrator shall transmit the strategy 
        developed under this subsection to the Committee on Science of 
        the House of Representatives and the Committee on Commerce, 
        Science, and Transportation of the Senate not later than 60 
        days after the date on which the President submits the proposed 
        budget for the Federal Government for fiscal year 2007 to the 
        Congress. At least 60 days before transmitting the strategy, 
        NASA shall provide a draft of the strategy to its federal 
        employee unions for a 30-day consultation period after which 
        NASA shall respond in writing to any written concerns provided 
        by the unions.

         (4) Limitation.--NASA may not implement any Reduction in Force 
        or other involuntary separations (except for cause) prior to 
        March 16, 2007.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Acronyms

ARC--Ames Research Center, CA

DFRC--Dryden Flight Research Center, CA

GRC--Glenn Research Center, OH

GSFC--Goddard Space Flight Center, MD

HQ--NASA Headquarters, DC

IG--Inspector General, DC

JSC--Johnson Space Center, TX

KSC--Kennedy Space Center, FL

LaRC--Langley Research Center, VA

MSFC--Marshall Space Flight Center, AL

NSSC--NASA Shared Services Center, AL

SSC--Stennis Space Center, MS
    Chairman Calvert. Good morning. In the interests of time, I 
am going to get this hearing going promptly. We have a series 
of votes starting at approximately 11:30, so we would like to 
move forward. So with that, good morning.
    I look forward to hearing from all our witnesses on the 
question that affects every aspect of the workforce that NASA 
has. Does NASA have the right strategy and policies to retain 
and build the workforce it will need? It is vital that NASA 
have the access to the critical skills necessary to lead 
America and the world in the areas of space, aeronautics, and 
science. There are hard fiscal realities facing NASA, as we 
know, but just as important and disconcerting are the hard 
technical realities of which the Agency will be reliant on its 
workforce to manage.
    To respond to these challenges and to the requirement in 
the NASA Authorization Bill of '05, NASA released its Workforce 
Strategy in April. In the report, NASA outlined those skills 
that will be needed to a greater or lesser degree over the next 
five years. It then outlined the strategies that NASA plans to 
use to meet these workforce demands. In addition, the National 
Research Council has released an interim report from its 
committee on the workforce requirements for the Vision for 
Space Exploration that urges NASA to expand the scope of its 
workforce planning.
    Although NASA's report has identified the obvious need for 
competencies in program management and systems integration, the 
report is far less specific on other skills needed, or 
potential retention of such skills, once identified. The 
National Academies, however, note that NASA does not currently 
have the expertise within its current workforce to support the 
many new developments planned. While many of these skills are 
readily available in the private sector, Dr. Griffin made the 
argument that NASA already contracts out too much of its 
development work, and needs greater in-house expertise to 
better manage its programs.
    NASA faces workforce challenges in a number of areas in the 
next few years: retirement of the Space Shuttle in 2010, 
development of the Crew Exploration Vehicle and the Crew Launch 
Vehicle, and the return to the Moon by 2020. Not only is the 
skill mix a critical issue, but the age distribution of the 
workforce is also troubling. Although the workforce mirrors the 
aerospace industry, it has a significantly smaller number of 
employees under 40 than the national workforce. It is these 
younger employees who will be needed to build and operate its 
major exploration missions.
    I have noticed that the NASA Civil Servant employment in 
the last 10 years has declined by more than 20 percent. Are we 
keeping the skills we need with this decline? How will NASA 
prepare for its future workforce needs? What are the tradeoffs 
associated with completing work in-house at NASA versus 
contracting them out? Has NASA been successful in recruiting 
and retaining those skills it has needed to date? What are the 
critical skills that NASA needs to complete its goals in 
exploration, aeronautics, space, and Earth science?
    Finally, is NASA prepared for the great projects it has 
downstream? This Workforce Strategy is just the first step in 
creating and nurturing a workforce to bring about the Vision 
for Space Exploration. Now, it is time to make sure that we 
have the policies and the strategies in place to ensure that we 
don't get held up midstream.
    [The prepared statement of Chairman Calvert follows:]

               Prepared Statement of Chairman Ken Calvert

    Good Morning. I look forward to hearing from our witnesses on this 
question that affects every aspect of the work that NASA wants to do--
does NASA have the right strategy and policies to retain and build the 
workforce it will need? It is vital that NASA have access to the 
critical skills necessary to lead America and the world in the areas of 
space, aeronautics and science. There are hard fiscal realities facing 
NASA, but just as important and disconcerting are the hard technical 
realities of which the Agency will be reliant on its workforce to 
manage.
    To respond to these challenges and to the requirement in the NASA 
Authorization of 2005, NASA released its Workforce Strategy in April. 
In the report NASA outlined those skills that will be needed to a 
greater or lesser degree over the next five years. It then outlined the 
strategies that NASA plans to use to meet these workforce demands. In 
addition, the National Research Council has also released an interim 
report from its committee on the workforce requirements for the Vision 
for Space Exploration that urges NASA to expand the scope of its 
workforce planning.
    Although NASA's report has identified the obvious need for 
competencies in program management and systems integration, the report 
is far less specific on other skills needed or potential retention of 
such skills once identified. The National Academies, however, note that 
NASA does not currently have the expertise within its current workforce 
to support the many new developments planned. While many of these 
skills are readily available in the private sector, Dr. Griffin has 
made the argument that NASA already contracts out too much of its 
development work and needs greater in-house expertise to better manage 
its programs.
    NASA faces workforce challenges in a number of areas in the next 
few years: retirement of the Space Shuttle in 2010; development of the 
Crew Exploration Vehicle (CEV) and the Crew Launch Vehicle (CLV); and 
the return to the Moon by 2020. Not only is the skill mix a critical 
issue, but the age distribution of the workforce is also troubling. 
Although the workforce mirrors the aerospace industry, it has a 
significantly smaller number of employees under 40 than the national 
workforce. It is these younger employees who will be needed to build 
and to operate its major exploration missions.
    I have noticed that the NASA Civil Servant employment in the last 
10 years has declined by more than 20 percent. Are we still keeping the 
skills we need with this decline? How will NASA prepare for its future 
workforce needs? What are the tradeoffs associated with completing work 
in-house at NASA vs. contracting them out? Has NASA been successful in 
recruiting and retaining those skills that it has needed to date? What 
are the critical skills that NASA needs to complete its goals in 
exploration, aeronautics, and space and Earth science?
    Finally, is NASA prepared for the great projects it has downstream? 
This workforce strategy is just a first step in creating and nurturing 
a workforce that bring about the Vision for Space Exploration. Now is 
the time to make sure that we have the policies and strategies in place 
to ensure we don't get held up mid-stream.
    Today's hearing will allow representatives from NASA management, 
the NASA unions, and academia to discuss NASA's workforce planning and 
to place it within the broader context of the aerospace sector. We will 
look forward to getting these answers from our witnesses today. Thank 
you for your time to come to our Subcommittee to guide us through these 
complex and important challenges.
    Mr. Udall, we look forward to hearing from you now.

    Chairman Calvert. With that, Mr. Udall will be here 
shortly. I am going to go ahead and start with the witnesses at 
hand, and then, when Mr. Udall comes in, we will ask for his 
opening statement.
    The first witness with us today is Ms. Toni Dawsey, is that 
how you pronounce it? Yeah, okay. The Assistant Administrator, 
Human Capital Management, National Aeronautics and Space 
Administration. With that, Ms. Dawsey, you are given five 
minutes for your testimony.
    Thank you. Mic.

   STATEMENT OF TONI DAWSEY, ASSISTANT ADMINISTRATOR, HUMAN 
   CAPITAL MANAGEMENT; CHIEF HUMAN CAPITAL OFFICER, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Ms. Dawsey. Chairman Calvert and Members of the 
Subcommittee, I am pleased to appear before the subcommittee 
today to discuss NASA's Workforce Strategy.
    Chairman Calvert. Toni, you might bring that mic just a 
little closer to you. There you go.
    Ms. Dawsey. The Vision for Space Exploration and NASA's 
mission of scientific discovery and aeronautics research offer 
unique and exciting opportunities for the Nation and for the 
Agency. They also offer significant challenges. NASA must 
retire the Space Shuttle, complete the International Space 
Station, develop new transportation and launch support systems, 
maintain a robust science portfolio, and refocus its 
aeronautics program in core disciplines and research areas 
appropriate to NASA's unique qualifications and capabilities. I 
would like to take a few minutes to talk about the Agency's 
workforce issues created by these challenges and opportunities, 
and how NASA is addressing them.
    NASA does have a Workforce Strategy. It was submitted to 
Congress in April. The strategy is based on three underlying 
principles: building and sustaining ten healthy Centers, 
maximizing the use of NASA's current human capital 
capabilities, and evolving to a more flexible workforce. The 
overall objective of the Workforce Strategy is to transform the 
composition of NASA's workforce so that it remains viable for 
the long-term goals of NASA's missions.
    The successful accomplishment of NASA's missions requires 
ten fully engaged and productive Centers which have clear, 
stable, and enduring roles and responsibilities, clear program 
project management leadership roles, major in-house, durable 
space flight responsibility, skilled and flexible blended 
workforce with sufficient depth and breadth, technically 
competent and values-centered leadership, capable and 
effectively utilized infrastructure, and strong stakeholder 
commitment.
    NASA also seeks to maximize the use of the Agency's current 
human capital capabilities. The current workforce represents a 
wealth of skills and valuable experience. Throughout the 
reshaping process, the Agency is committed to capitalizing on 
the potential of this workforce by using, expanding, 
rebalancing, and realigning existing skills as necessary. NASA 
must also have a more flexible workforce, with sufficient bench 
strength to respond effectively to mission, programmatic, and 
budget changes, as well as demographic and labor fluctuations.
    NASA's Workforce Strategy hinges on certain key actions and 
initiatives, implementing a new workforce planning process, 
assessing competency gaps with greater detail and accuracy, and 
making effective use of a broad array of human capital tools 
and options to address workforce issues.
    Our two most pressing workforce challenges are uncovered 
capacity and the retirement of the Space Shuttle program. 
NASA's approach to addressing these challenges reflects the 
Agency's commitment to the principles and approaches reflected 
in the Workforce Strategy.
    NASA has been addressing, through a number of means, the 
challenge of mitigating the number of Civil Service full-time 
equivalents not currently supporting NASA programs, the so-
called uncovered capacity. Initial efforts included retaining 
work in-house to protect and strengthen core capabilities, 
sponsoring job fairs to facilitate transferring employees to 
Centers needing their skills, implementing hiring controls, and 
encouraging voluntary attrition through buyouts and early-outs. 
Although these efforts have been helpful, they have not reduced 
the uncovered capacity to a manageable level.
    NASA is now focusing its efforts to solve our uncovered 
capacity problems through a number of other actions, including 
the assignment of new projects to research Centers that will 
maintain their base of in-house work, the movement of certain 
research and technology development projects from Centers 
without uncovered capacity to Centers who have the problem, 
retraining efforts at Centers so that the technical workforce 
can develop new skills, and the pursuit of reimbursable work 
for projects and research to support other government agencies 
and the private sector through Space Act Agreements.
    NASA is also addressing the unique challenges presented by 
retiring the Space Shuttle: retaining the skills necessary to 
safely execute the remaining Space Shuttle missions, and 
managing the transition of the Shuttle workforce in a way that 
balances both Agency and employee needs, capitalizing on the 
capabilities of that workforce to advance the Vision for Space 
Exploration. The magnitude and complexity of the Shuttle 
workforce issues require coordinated and integrated workforce 
planning at all levels across the Agency, and continuing 
analysis of competency gaps and surpluses. A Shuttle Human 
Capital Working Group has been established to oversee that 
work. NASA will continue to conduct active, timely, and open 
communications with Shuttle employees on the status of their 
work, future opportunities, and issues of concern.
    In conclusion, the Workforce Strategy that NASA has 
developed and will continue to refine allows NASA to deal 
effectively with the critical issues now facing the Agency. 
NASA realizes, however, that it is not sufficient to solve the 
immediate problems. Rather, the Agency's goal is to address 
these issues now on an integrated, Agency-wide basis, putting 
in place approaches that not only alleviate the Agency's 
current imbalances, but also provide a structure that allows 
such issues to be resolved in the future as part of a normal 
process. NASA does recognize that some future events, such as 
retirement of the Space Shuttle program, require long-term 
planning and Agency-level coordination. The foundation being 
built today, however, will greatly facilitate their resolution.
    Thank you for giving me the opportunity to share NASA's 
workforce planning efforts.
    [The prepared statement of Ms. Dawsey follows:]

                   Prepared Statement of Toni Dawsey

    Chairman Calvert and Members of the Subcommittee, I am pleased to 
appear before you today to discuss NASA's Workforce Strategy.
    The Vision for Space Exploration and NASA's mission of scientific 
discovery and aeronautics research offer unique and exciting 
opportunities for the Nation and for the Agency. They also offer 
significant challenges. NASA must retire the Space Shuttle, complete 
the International Space Station, develop new transportation and launch 
support systems, maintain a robust science portfolio, and refocus its 
aeronautics program in core disciplines and research areas appropriate 
to NASA's unique capabilities. I would like to take a few minutes to 
talk about the Agency's workforce issues that arise from these 
challenges and opportunities and how NASA is addressing them.

NASA Workforce Strategy

    NASA has always understood that a well-trained, highly skilled, and 
high-performing workforce is essential to mission success. The NASA 
Workforce Strategy, submitted to Congress in April, is designed to 
ensure that the Agency can maintain the knowledge base of the current 
workforce, as well as broaden, reinvigorate, and acquire new skills 
necessary to accomplish the Vision for Space Exploration and NASA's 
science and aeronautics mission. The document is based on three 
underlying principles: building and sustaining ten healthy Centers; 
maximizing the use of NASA's current human capital capabilities; and 
evolving to a more flexible, scalable workforce. The overall objective 
of the Workforce Strategy is to transform the composition of NASA's 
workforce so that it remains viable for the long-term goals of NASA's 
missions.

Key Principles

    Successful accomplishment of NASA's missions requires ten fully 
engaged and productive Centers. The ``healthy Centers'' approach fully 
utilizes all of NASA's resources and vastly increases the Agency's 
ability to manage the normal cycles of programs and projects in a 
comprehensive, reasoned, and cost-effective manner. As described in the 
2006 NASA Strategic Plan, strong, healthy Centers have: clear, stable, 
and enduring roles and responsibilities; clear program/project 
management leadership roles; major in-house, durable space flight 
responsibility; skilled and flexible, blended workforce with sufficient 
depth and breadth; technically competent and values-centered 
leadership; capable and effectively utilized infrastructure; and strong 
stakeholder commitment. A healthy Center must also have an 
appropriately-sized workforce and infrastructure to meet mission needs.
    NASA also seeks to maximize the use of the Agency's current human 
capital capabilities. The current workforce represents a wealth of 
skills and valuable experience. Throughout the reshaping process, the 
Agency is committed to capitalizing on the potential of this workforce 
by using, expanding, rebalancing, and realigning existing skills, as 
necessary.
    NASA's workforce must have the flexibility to respond effectively 
to mission, programmatic, and budget changes, as well as demographic 
and labor fluctuations. As these changes occur, the Agency must be able 
to adjust quickly to address staffing needs or skills imbalances, 
requiring a more appropriate blend of permanent and nonpermanent (term 
and temporary) civil servants.

Key Actions and Initiatives

    NASA's Workforce Strategy hinges on certain key actions and 
initiatives: implementing a new workforce planning process; assessing 
competency gaps with greater detail and accuracy; and making effective 
use of a broad array of human capital tools and options to address 
workforce issues.
    Past approaches to workforce planning were predominantly Center-
based, short-term, ad hoc, and loosely-connected. NASA's new approach 
reflects planning and integration among all levels of management, with 
workforce planning integrated with strategic, business, and resource 
planning activities in order to assess how best to use both internal 
and external workforce to meet work requirements. With an enhanced 
workforce planning capability, NASA will be better able to identify 
areas of potential risk in matching workforce to work, allowing more 
time to develop strategies to mitigate these risks.
    Agency-wide, integrated workforce planning also strengthens the 
Agency's competency assessment ability--the ability to assess the 
demand for, and supply of, workforce skills based on current and 
projected work requirements. The most recent analyses of competency 
gaps and surpluses, summarized in the Workforce Strategy, were 
conducted in January 2006 and cover the period FY 2006 through FY 2011. 
They were derived from NASA's Competency Management System and then 
reviewed and updated by the Centers and Mission Directorates. The 
Agency will continue to update and refine these analyses as the Agency 
completes plans for exploration systems programs and projects, defines 
the nature of the work content for the programs/projects, and 
determines the roles the various Centers will have in accomplishing 
this work. Further refinements are likely in the area of aeronautics as 
well, as NASA returns to long-term investment in cutting-edge 
fundamental research.
    NASA has, and will continue to, make use of available tools and 
flexibilities to recruit and retain a quality workforce, including 
financial and non-financial incentives, technology-based processes to 
facilitate recruitment, and a high-quality work environment.

Pressing Workforce Challenges

    NASA's approach to addressing its two most pressing workforce 
challenges--uncovered capacity, caused by program changes and 
cancellations and budget constraints, and retaining Space Shuttle 
employees through its retirement in 2010--reflects the Agency's 
commitment to the principles and approaches reflected in the Workforce 
Strategy.
    NASA has been addressing the challenge of mitigating the number of 
civil service full-time equivalents (FTEs) not currently supporting 
NASA programs (the so-called ``uncovered capacity'') through a number 
of means for many months. Initial efforts (since 2004) included: 
retaining sufficient work in-house to protect and strengthen core 
capabilities; sponsoring job fairs to facilitate transferring employees 
to Centers needing their skills; implementing hiring controls and 
establishing ceilings on Center complements to provide more 
opportunities for placing employees; and encouraging voluntary 
attrition through buyouts and early-outs. Although these efforts have 
been responsible for reducing the problem by two-thirds, NASA still has 
significant uncovered capacity problem.
    NASA is focusing efforts to deal with our remaining uncovered 
capacity through a number of other actions, including: assignment of 
new projects to research Centers to maintain the base of in-house work; 
movement of certain research and technology development projects from 
certain Centers without uncovered capacity problems to Centers that 
have them; retraining efforts at Centers so that the technical 
workforce can develop new skills; and the pursuit of reimbursable work 
for projects and research to support other government agencies and the 
private sector through Space Act Agreements. The first examples of the 
new assignments were provided in last week's announcement of the 
placement of some of the Constellation program's work. All Centers are 
now a part of the Constellation program, and major new assignments were 
made at several Centers that reduced their uncovered capacity 
significantly. We expect to continue to address the uncovered capacity 
through additional actions, as described above, throughout this fiscal 
year. As we have testified before, NASA will conduct a reduction in 
force of any of our civil servants only as an action of last resort 
consistent with our statutory constraints.
    The Subcommittee has asked how NASA has ensured that employees with 
critical skills have not accepted the buyouts I mentioned a moment ago. 
The answer is this--As required by the NASA Flexibility Act of 2004, 
NASA periodically conducts analyses of critical workforce needs and 
documents in a Workforce Plan the Agency's critical (as defined in that 
document) workforce competencies. The most recent Workforce Plan, 
Revision 1, dated June 6, 2005--provided to the Congress in accordance 
with the Act--lists the following among the critical workforce 
competencies: program/project management, systems engineering, 
integration engineering, mission assurance, quality engineering and 
assurance, safety engineering and assurance, propulsion systems and 
testing, habitability and environmental factors.
    In addition, since FY 2003, and consistent with Congressional 
direction from NASA's annual appropriation, the NASA Administrator has 
certified that any payments to separated individuals under approved 
buyout plans will not result in the loss of skills related to the 
safety of the Space Shuttle or the International Space Station or to 
the conduct of independent safety oversight in NASA.
    Buyout plans are developed by Centers, based on their in-depth 
analysis of the competencies needed to staff their continuing programs 
and the number of employees needed in each competency area. A Center's 
buyout plans must identify the competencies they intend to reduce. 
Buyout plans are then reviewed by Headquarters staff to ensure that 
NASA is not buying out critical competencies, and the plans must be 
approved by the Chief Human Capital Officer. As a general rule, the 
Agency would not permit Centers to include any critical workforce 
competencies in their buyout plans. However, it is possible that a 
particular Center might need fewer employees in a critical workforce 
competency than currently on board, while other Centers might have 
vacancies in that area. If this were to occur, NASA would attempt to 
place those individuals at other NASA locations where their skills were 
needed before offering buyouts. Only if this were not possible would 
the individuals be approved for a buyout. The Center's buyout plans 
must provide documentation that they are not buying out individuals 
associated with a critical competency that could be used at that 
employee's Center or another Center to which the employee is willing to 
relocate.
    NASA is also addressing unique challenges presented by retiring the 
Space Shuttle: retaining the skills necessary to safely execute the 
remaining Space Shuttle missions and managing the transition of the 
Space Shuttle workforce in a way that balances Agency and employee 
needs, capitalizing on the capabilities of that workforce to advance 
the Vision for Space Exploration, while recognizing that fewer people 
will be required to sustain exploration operations. The magnitude and 
complexity of the Space Shuttle workforce issues require coordinated 
workforce planning--involving Centers, Programs, Projects, Mission 
Directorates, and Mission Support Offices--and continuing analyses of 
competency gaps and surpluses. A Shuttle Human Capital Working Group 
has been established to coordinate the development, implementation, 
assessment, and updating of coordinated human capital plans and to 
ensure that Space Shuttle workforce issues and concerns are raised to 
all stakeholders so that solutions support both the current Space 
Operations Mission Directorate needs and future Exploration Systems 
Mission Directorate requirements. NASA will continue to conduct active, 
timely, and open communications with Space Shuttle employees on the 
status of their work, future opportunities, and other issues of 
concern. The Agency's approach to ensuring that critical skills are 
retained involves non-financial motivators as well as the more 
traditional incentives--providing challenging, exciting follow-on work 
in Constellation and other programs; maintaining NASA's quality 
workplace by providing a collaborative and creative environment and 
supporting career development and learning opportunities; and offering 
financial incentives (such as retention bonuses, qualifications pay, 
and temporary promotions) on a case-by-case basis, when appropriate.

Human Capital Tools and Flexibilities

    The tools provided by the NASA Flexibility Act of 2004, for 
example--in conjunction with our other human capital flexibilities, 
programs, and initiatives--are vitally important to the Agency in 
addressing current workforce issues and in strengthening and reshaping 
the workforce to support the Vision for Space Exploration. The value of 
the NASA Flexibility Act lies in the fact that it consists of several 
diverse authorities and flexibilities that provide targeted solutions 
to multiple challenges--the need to recruit new talent and the need to 
leverage the talent of the current workforce.
    When we choose to fill a position externally, we must make the most 
of the opportunity and hire the very best. The new hiring authorities 
and incentives help us attract the talent we need. Two incentives that 
have been particularly effective are the enhanced annual leave 
authority and the authority to pay full travel and transportation costs 
when a new appointee must relocate to accept the job. We must also 
leverage the talent of our current workforce as programs and 
technologies change. The qualifications pay and relocation bonus 
authorities are helpful when we must incentivize employees to take new 
positions in which their expertise is needed. Furthermore, the term 
appointment authority, the Senior Executive Service limited term 
appointment authority, and the extended Intergovernmental Personnel Act 
assignments are ideal hiring approaches to achieving the objective of 
an agile workforce suited to respond to program and project changes.
    In addition, while we have not been able to employ as many recent 
college graduates as we had hoped over the last few years due to 
current uncovered capacity in some areas, NASA Centers have made use of 
programs such as the Student Employment Program (``Co-op'' Program) and 
the Federal Career Intern Program (FCIP) to recruit new talent into the 
Agency. NASA Centers have cooperative education program agreements in 
place with multiple universities. Co-op students have an opportunity to 
demonstrate their abilities on the job to NASA managers, and the best 
of them are converted to entry level engineers, scientists and business 
professionals upon graduation. The FCIP has also allowed us to hire 
recent college graduates. The fact that these interns are brought in 
under term appointments, with the ability to convert them to permanent, 
provides additional flexibility in managing our FTEs. While the NASA 
Flexibility Act gives NASA the Distinguished Scholar Appointment 
Authority, the Agency has not made extensive use of this particular 
tool, since it does not provide the same flexibility as the FCIP to 
bring in entry level employees on term appointments. External hiring of 
individuals into permanent positions (as under the Distinguished 
Scholar Appointment Authority) is being more closely controlled until 
uncovered capacity numbers are reduced.
    Among other human capital tools and programs critical to retention 
of needed workforce capability are efforts to support employee career 
development and learning activities. NASA is strongly committed to the 
principle of life-long learning for its employees and recognizes that 
providing employees a clear vision of career development opportunities 
is a valuable tool in retaining needed skills. NASA actively promotes 
training programs to develop and maintain skills, including leadership 
skills. NASA's Strategy for Leadership and Career Development, for 
example, includes a framework for a consistent and integrated approach 
to leadership and management development. Elements include: core 
experiences and broadening opportunities, including intellectual and 
geographic mobility, as appropriate; core and optional courses relevant 
to both achieving mastery in the employee's current role as well as 
preparing for the next step; required role-specific courses on safety 
and diversity; assessments of feedback from subordinates, supervisors, 
customers, peers, and stakeholders; continuing education; individual 
development plans; and coaching and mentoring. NASA's leadership 
programs are benchmarked government-wide as a proven process to develop 
future leaders, as well as share mission-critical knowledge across an 
organization.
    In addition, NASA sponsors programs for the transfer of technical 
and organizational knowledge through its Masters Forum, ASK Magazine, 
and the Academy of Program/Project and Engineering Leadership learning 
programs. From these activities, program/project managers and engineers 
engage, share, and learn from fellow practitioners through stories and 
lessons learned.
    Beyond these Agency-wide programs, many Centers are taking steps to 
develop innovative programs for mentoring and building program and 
project leadership skills in the context of the Center's mission.
    NASA recognizes the importance of maintaining a reputation as a 
``good place to work'' and continues to support human capital practices 
that foster such an environment. For example, the Agency devotes 
significant attention to performance assessment and recognition, 
recognizing that these contribute to employee satisfaction and to 
resolution of problems that might otherwise impede mission success and 
morale.
    The most important retention factor for NASA is the mission itself. 
We have a very low attrition rate because of the nature of our mission. 
Talented and high-performing individuals are attracted to organizations 
that provide challenging work in a creative professional environment 
offering opportunities for growth. The Vision for Space Exploration, 
which gives the Agency a new long-term vision and clear, bold 
objectives is, as the Workforce Strategy points out, the archetypal 
creative professional opportunity.

Conclusion

    The Workforce Strategy that NASA has developed and will continue to 
refine allows NASA to deal effectively with the critical issues now 
facing the Agency. NASA realizes, however, that it is not sufficient to 
solve the immediate problems. Rather, the Agency's goal is to address 
these issues now on an integrated, Agency-wide basis, putting in place 
approaches that not only alleviate the Agency's current imbalances, but 
also provide a structure that allows such issues to be resolved in the 
future as part of a ``normal process.'' NASA does recognize that some 
future events, such as retirement of the Space Shuttle Program, require 
long-term planning and Agency-level coordination. The foundation being 
built today, however, will greatly facilitate their resolution.

                       Biography for Toni Dawsey

    As the AA and CHCO, Ms. Dawsey has stewardship responsibility for 
NASA's civil service workforce, much as the Chief Information Officer 
and Chief Financial Officer do for information and fiscal resources. 
She is responsible for setting the Agency's workforce development 
strategy; assessing workforce characteristics and future needs based on 
the Agency's mission and strategic plan; aligning the Agency's human 
resources policies and programs with organizational mission, strategic 
goals, and performance outcomes; developing and advocating a culture of 
continuous learning to attract and retain employees with superior 
abilities; identifying best practices and benchmarking studies; and 
serving as a member of the Office of Personnel Management-led Chief 
Human Capital Officers Council.
    Ms. Dawsey joined NASA in April 2004, returning to federal service 
from early retirement to serve as the Director of the Agency Human 
Resources Division within the Office of Human Capital Management. In 
her role as Director, she was responsible for establishing a broad 
range of Agency-wide human resources programs.
    During her previous federal career, Ms. Dawsey developed an 
extensive background in all aspects of human resources (HR) management 
while holding HR specialist and manager positions at the Department of 
Transportation, Office of the Secretary; Department of Agriculture; 
NASA's Goddard Space Flight Center; and the Federal Trade Commission. 
Her experience also included positions of increasing responsibility in 
the Office of the Inspector General, Department of Transportation. From 
1993 to 1995, she served as Deputy Assistant Inspector General for 
Inspections and Evaluations, Department of Transportation, where she 
directed a staff in providing independent and objective inspections and 
evaluations of the Department's programs and operations to detect 
fraud, waste, abuse and mismanagement.
    Ms. Dawsey received her B.A. from the University of Maryland. She 
has received many awards throughout her career, including the 
Department of Transportation's Silver Medal, and two Bronze Medals.

    Chairman Calvert. Thank you very much.
    With that, I would like to recognize my friend from 
Colorado, Mr. Udall.
    Mr. Udall. I thank the Chairman. I want to welcome the 
panel. I would ask unanimous consent that my entire statement 
could be included in the record.
    Chairman Calvert. Without objection, so ordered.
    Mr. Udall. And with an interest in moving to the further 
testimony, I just had a couple of remarks.
    I wanted to acknowledge that ensuring that we have the 
right sized workforce for NASA won't be a small task, and that 
is why we are glad you all are here today, and I think I join 
the Chairman in suggesting that I hope this isn't just one of--
this is one of a series of hearings that we will have on this 
topic, because it is very, very important.
    And in particular, I am looking forward to hearing from the 
NASA Professional Technical Engineers Union to get perspective 
on the employees' point of view. Also, we are not specifically 
having, as the prime focus today, the contractor workforce, but 
this has long been a debate in NASA, and I think this will be 
important to hear all your perspectives on that.
    And finally, it is, I think, worth noting that if we 
continue, I think, an Exploration Initiative that eliminates or 
cuts other core NASA missions, in the end, that Exploration 
Initiative may be difficult to sustain, and similarly, a 
workforce strategy for NASA that is only based on the 
Exploration Initiative may also prove difficult to sustain.
    So, again, I want to welcome the panel. I appreciate you 
taking time to come up here to the Hill, and I would yield 
back, Mr. Chairman.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good morning. I want to join the Chairman in welcoming the 
witnesses to today's hearing.
    Ensuring that NASA has the right workforce for the future is going 
to be no small task, so we look forward to hearing your perspectives. 
However, it's clear to me that it will take more than one hearing to 
adequately address the issues surrounding NASA's workforce strategy and 
planning.
    I hope that this hearing will just be one in a series of hearings 
on this topic--we owe it both to the highly talented NASA employees as 
well as to the broader aerospace community to make sure NASA and 
Congress ``get it right'' in attempting to shape NASA's future 
workforce.
    Now, it should be evident that NASA's civil service workforce 
consists of some of this nation's ``best and brightest.'' In most 
cases, they have made a long-term commitment to public service. I 
respect them for that commitment, and I think that whatever workforce 
strategy NASA develops should build on the strengths that those 
individuals bring to the Agency because if those skills are discarded, 
whether for short-term budgetary reasons or for some other reason, we 
could find out at a later date that it is difficult if not impossible 
to recapture skills that the Nation discovers it needs.
    In that regard, I look forward to hearing from the representative 
of NASA's professional and technical engineers union to get the 
perspective of the employees on what NASA needs to do to attract and 
retain the best workforce possible.
    This subcommittee needs to hear what the NASA employees think NASA 
is doing right--as well as what they think needs correcting. Yet NASA's 
civil service workforce is only part of the overall workforce equation.
    NASA has long depended on the private sector to help carry out a 
significant portion of the Agency's activities. While that contractor 
workforce is not the prime focus of today's hearing, the issue of how 
best to balance the roles of NASA's civil service and contractor 
workforces is one that the Agency has wrestled with for a long time--
with different Administrators often reaching different conclusions.
    Currently, the problem of attaining an appropriate balance is made 
even more difficult by the ill-advised cuts that have been made to 
NASA's aeronautics, microgravity life and physical sciences, and long-
term technology development programs, as well as to parts of NASA's 
space and Earth sciences activities.
    In fact, those cuts are hurting researchers across-the-board: at 
NASA Centers, at universities, and at companies and other organizations 
as well as diminishing the amount of productive research that can be 
undertaken at each of those places.
    Moreover, I fear that those cuts are going to wind up discouraging 
the emerging generation of scientists and engineers from pursuing 
careers in space and aeronautics at NASA--something that an agency with 
an aging workforce like NASA's can ill-afford.
    I have made no secret of my belief that an exploration initiative 
that can only be implemented by cutting or eliminating other core NASA 
missions is going to be difficult to sustain. Similarly, a workforce 
strategy for NASA that is based only on the needs of the President's 
exploration initiative may also prove difficult to sustain.
    Mr. Chairman, we have important issues to consider today. I again 
want to welcome our witnesses, and I look forward to their testimony.

    Chairman Calvert. I thank the gentleman, and I would ask 
unanimous consent for all Members to add supplemental material 
to the record.
    Without objection, so ordered, and with that, Mr. Honda, 
you have a special guest that you would like to introduce.
    Mr. Honda. Yes, thank you, Mr. Chairman. I appreciate that.
    I am about to introduce a nearer constituent, Dr. Lee 
Stone, of NASA's Ames Research Center. Dr. Stone is a human 
factors engineer and research psychologist in the Human Systems 
Integration Division at NASA Ames. That is a real important 
title there. He received his B.A. in biophysics from Johns 
Hopkins, his M.S. in engineering from the University of 
California-Berkeley, his Ph.D. in neuroscience from the 
University of California at San Francisco.
    Dr. Stone has more than 20 years of experience studying and 
modeling human perceptual and motor performance, with an 
emphasis on the signals that influence tracking, search and 
control performance, and interface design. Since 1995, he has 
been a principal investigator on numerous NASA grants and 
projects, and has run a human performance R&D laboratory at 
Ames in support of aeronautics and space human factors 
programs. He also served as project scientist for the Rhesus 
Project and as Acting Chief of the Human Information Processing 
Research Branch.
    Dr. Stone is the Vice President for Legislative Affairs of 
the International Federation of Professional and Technical 
Engineers Local 30 at Ames, and is the Legislative 
Representative of the NASA Council of the IFPTE Locals.
    Dr. Lee and I have met several times before, and I know 
that he will be able to substitute for Greg Junemann, who was 
unable to be here because his son is on a brief leave from 
Iraq.
    Thanks to Lee for being here, and thank you, Mr. Chairman. 
I will yield back the balance of my time.
    Chairman Calvert. Thank the gentleman, and with that, Dr. 
Stone, you are recognized for five minutes. Thank you.

    STATEMENT OF DR. LEE STONE, LEGISLATIVE REPRESENTATIVE, 
    INTERNATIONAL FEDERATION OF PROFESSIONAL AND TECHNICAL 
                           ENGINEERS

    Dr. Stone. Good morning. Thank you, Chairman Calvert and 
Ranking Member Udall, for providing the International 
Federation of Professional and Technical Engineers, NASA's 
largest union, this opportunity to present our perspective on 
the workforce challenges facing NASA today. It is an honor for 
me to represent IFPTE and to stand in for President Junemann, 
who could not make it here today, because as you heard, he is 
with his son, a Marine who has just returned from Iraq for just 
a few days.
    So you ask, does NASA have the right strategy and policies 
to retain and build the workforce it will need? Unfortunately, 
the current short answer is no. Last February, NASA human 
resources took a wrong turn in its workforce planning, and as 
yet, this has only been partially corrected. After 
consideration of the facts presented here today, we ask that 
the Subcommittee support a course correction.
    IFPTE's response to NASA's draft workforce plan identified 
three key issues at the core of NASA's HR problem, a faulty 
competency management system, improper reliance on term 
positions, and most importantly, the policy decision to seek 
full cost recovery of Civil Service salary. While NASA claimed 
to convert over to full cost accounting, in reality, it 
converted over to a full cost recovery system that allowed 
distant program managers to siphon salary and facilities money 
away from the Field Centers, and that precipitated two crises. 
First, key facilities went bankrupt, and second, uncovered 
capacity was born.
    In response to language in the Authorization Act, the 
Agency has recently taken care of the former problem by 
establishing the Shared Capability and Assets Program, or S-
CAP, to fund otherwise uncovered facilities. Unfortunately, the 
analogous threat to NASA's intellectual capabilities and 
institutional knowledge remains unaddressed.
    Furthermore, NASA's Civil Service workforce is showing some 
troubling trends. First, the ratio of science and engineers to 
non-clerical administrative positions has been steadily 
decreasing, and may soon fall below two. Any competitive, high 
tech, private sector institution would be looking to streamline 
its management structure long before it would seek to eliminate 
technical experts and R&D personnel.
    Second, NASA has reduced its Civil Service complement by 
nearly 30 percent since 1994, yet now, it has much more on its 
plate. Any further decrease in the Civil Service component 
would cut mission success, would put mission success at 
increased risk by leaving NASA less able to perform proper 
technical monitoring and oversight of its contractor and 
academic partners.
    NASA must begin to aggressively recruit what will become 
its vision generation, while also fostering carefully targeted, 
voluntary separations. Attrition needs to be anticipated, 
controlled, and intelligently compensated for, not blindly 
accelerated. To meet the increased demand for technical work 
associated with the vision, NASA's Workforce Strategy must 
focus on a hiring plan, not last year's harmful and divisive 
layoff plan.
    Administrator Griffin deserves considerable praise for 
realizing that all of NASA's Centers should share in the work 
opportunities provided by the Constellation program. This idea, 
however, has been difficult to implement fully. We urge Dr. 
Griffin to persevere in this critical effort to achieve the 
budgetary and programmatic balance needed to support 10 healthy 
Centers.
    The Constellation work assignments, however, cannot be the 
complete solution. The only sustainable, long-term solution is 
to reverse NASA's current trend of cuts to aeronautics, 
exploration research and technology, and science programs, and 
to resurrect and maintain a strong, crosscutting R&D effort 
that benefits all of NASA's missions, and contributes to 
America's economic competitiveness.
    Therefore, IFPTE would like to submit five recommendations 
for NASA management.
    First, pledge not to lay off any NASA employees in the 
foreseeable future. Young engineers and scientists need, once 
again, to see NASA as a great career move, and the harmful 
distraction caused by disruptive and wasteful RIF planning must 
stop.
    Two, request legislation to allow enhanced buyout 
authority. We need to provide a more appropriate compensation 
package, which would gracefully save the taxpayer a lot of 
money in only a couple of years.
    Three, reject the failed policy of full cost recovery of 
Civil Service salary. Set up a salary equivalent to the S-CAP 
account to cover 25 percent of technical employees' time, to 
preserve our intellectual assets and our institutional 
knowledge, which are as important to mission success as are our 
facilities.
    Five--I mean four. Embrace genuine and auditable full cost 
accounting, not full cost recovery. Require that all employees 
record their time accurately, and use the honest data acquired 
to perform valid financial and workforce planning.
    Five, re-embrace NASA's aeronautics, science, and 
technology missions. The current and proposed cuts to all of 
NASA's activities other than Shuttle, ISS, and Constellation 
are too severe, and should be moderated.
    In conclusion, IFPTE is greatly encouraged by Dr. Griffin's 
efforts to keep appropriate technical work in-house, and to 
distribute it more fairly and intelligently across the Centers. 
We ask that he reject last year's HR plan, and embrace a new 
approach focused on recruiting and retaining the world-class 
intellectual capital needed to meet the challenges of the 
Vision for Space Exploration.
    In closing, we would also like to take this occasion to 
thank Chairman Boehlert for his long and dedicated career of 
public service. On behalf of the many thousands of NASA 
employees that we represent, IFPTE thanks him, and wishes him 
well in the next phase of his life.
    Once again, Chairman Calvert, Ranking Member Udall, thank 
you very much for the opportunity to bring these important 
issues to your attention.
    [The prepared statement of Dr. Stone follows:]

                    Prepared Statement of Lee Stone
    Testimony of Gregory J. Junemann, President, International 
Federation of Professional & Technical Engineers, AFL-CIO & CLC

    Delivered by Dr. Lee Stone, Legislative Representative NASA Council 
of IPFTE locals

    Thank you, Chairman Calvert and Ranking Member Udall, for providing 
the International Federation of Professional and Technical Engineers, 
NASA's largest Union, this opportunity to present our perspective on 
the workforce challenges facing NASA today. It is an honor for me to 
represent IFPTE and to stand in for President Junemann, who could not 
make it because today he is with his son, a Marine who has returned 
from Iraq for just a few days.
    IFPTE's primary interest in testifying today is to provide forceful 
advocacy for maintaining the broad technical excellence and 
independence of NASA's civil service workforce that has served the 
Agency well for decades. Last January, we believe that NASA took a 
wrong turn in its workforce management and planning. We hope that, 
after careful consideration of the facts presented here today, the 
Subcommittee will support an urgently-needed course correction. Indeed, 
the new Administrator appears poised to steer HR in a better direction. 
We hope that this hearing will prove to be the turning point.
    IFPTE fully endorses the ``ten healthy Centers'' philosophy put 
forward by Dr. Griffin. This firm endorsement of Field Centers, 
together with appropriate re-invigoration of NASA's commitment to 
Aeronautics, Scientific Research, and cutting-edge Technology 
Development will make for a healthy agency. Since last February, NASA's 
Human Resources (HR) however has remained engaged in an ongoing 
downsizing effort, inconsistent with ongoing programmatic planning, 
with inadequate attention to the long-term mission needs of the Agency.

Recent history:

    In July of 2002, then-Administrator O'Keefe testified to the Full 
Committee that NASA was facing a looming workforce crisis because its 
core technical staff was rapidly nearing retirement and had not been 
properly replenished over the years. He asked for, and was granted, 
several changes to Title 5 that afforded him new authorities. These new 
powers were specifically designed to retain and postpone the retirement 
of NASA's technical staff so that they might serve as mentors while the 
Agency aggressively recruited the next generation of young scientists 
and engineers. This was a good plan, and IFPTE endorsed Chairman 
Boehlert's Flexibility Act to give NASA management the tools they 
requested to implement that plan.
    Rather than moving forward with hiring this urgently-needed next 
generation of scientists and engineers, NASA actually proceeded in the 
opposite direction:

        <bullet>  In February of 2005, NASA management testified before 
        this committee that there would be workforce stability and that 
        there would be no layoffs for two years. Meanwhile, senior 
        management had just approved and initiated a workforce 
        transformation plan designed to reduce NASA's civil service 
        complement by 2,673 employees (co-incidentally the number of 
        retirement eligible employees) through increasingly aggressive 
        tactics, culminating in a Reduction-In-Force (RIF) before the 
        end of FY 2006 (Appendix A). Rather than working to retain its 
        Apollo-era engineers and scientists, the plan targeted 
        retirement eligible staff for buyouts and pressured them to 
        retire.

        <bullet>  Frustrated by the legal requirement that 75 percent 
        of the Flexibility Act bonus money is reserved for technical 
        staff, management barely used the new flexibilities at all. 
        Meanwhile, on average, they provided larger bonuses to their 
        Senior Executive Service employees than any other federal 
        agency (Appendix B). They also made little effort to use their 
        new authorities to recruit new technical employees or to 
        convert term employees to permanent status.

        <bullet>  Since February of 2005, threats of RIFs and/or forced 
        relocation have been openly used to accelerate attrition with 
        little regard to the skills being lost. In the several rounds 
        of buyouts performed over the last two years, employees with 
        skills listed as ``critical needs'' were offered buyouts. Many 
        talented and experienced NASA employees left and the morale and 
        productivity of those who remained were seriously harmed.

        <bullet>  Further evidence of the lack of thought in this 
        process can be seen in the fact that the ``critical needs'' 
        list has changed dramatically since its inception (Appendix C). 
        Many skills deemed critical in 2004 are now listed as excess 
        capacity and vice versa (e.g., Human Factors was deemed 
        critical and slated for growth in 2004, yet in 2005 became 
        slated for reduction; Computational Fluid Dynamics and 
        Rotorcraft were slated for near-elimination in 2004, but are 
        now highlighted in NASA's new Aeronautics Program).

    In the NASA Authorization Act of 2005, Congress once again called 
on NASA management to provide a coherent and thoughtful ``Workforce 
Strategy'' that the Science Committees could use to guide their 
oversight of the Agency's realignment in support of the Vision for 
Space Exploration. The plan delivered to Congress was however seriously 
deficient. IFPTE provided two analyses of the draft submitted to us: 
one providing traditional ``consultation'' on policy weaknesses in the 
Strategy (Appendix D) and a second that addresses the failure of the 
document to meet the minimum standards set forth in the Authorization 
Act (Appendix E). Unfortunately, despite our input, NASA management did 
not modify their draft in any substantive way before delivering it to 
you. The bottom line is that while there are a number of legitimate 
ways of overseeing a workforce transformation that could be the focus 
of discussion here, NASA's Workforce Strategy simply does not have 
sufficient content to engender that discussion. Indeed, even last 
week's announcement of the Constellation ``Work Assignments,'' an 
essential component of the ten Healthy Centers philosophy, did not have 
any concrete manpower and budget estimates associated with them. Two 
months after Congress explicitly asked for delivery of these key 
workforce numbers, NASA management continues to work the issue and has 
not given an indication when those numbers will be provided.

NASA's Workforce Strategy--April 2006:

    IFPTE's response to the Draft Workforce Plan identified three key 
general issues at the core of the problem with their current HR 
activities.
    First and foremost, full-cost recovery of civil service salary is 
the key driver of the current crisis:

        <bullet>  When NASA claimed to convert over to ``full-cost 
        accounting'' in FY04, it actually converted over to a full-cost 
        recovery system that allowed distant program managers to siphon 
        salary and facilities money away from the Field Centers. By 
        giving so much power to program managers who have little 
        interest in preserving institutional capabilities, labor and 
        facility costs were low-balled to increase the manager's 
        discretionary spending. This precipitated two crises: 1) key 
        facilities went bankrupt and 2) uncovered capacity was born. 
        The Agency has recently taken care of the former problem by 
        establishing the Shared Capability Assets Program (S-CAP) to 
        fund otherwise ``uncovered'' facilities, in response to key 
        language in the Authorization Act. Unfortunately, the analogous 
        threat to NASA's intellectual capabilities and corporate 
        knowledge remains unaddressed.

        <bullet>  It is a fallacy that uncovered capacity (personnel 
        not funded directly by program funds or by ``good'' G&A) is 
        idle or unneeded capacity. Program managers are using what was 
        once civil service salary money to pay for procurement and 
        that, in turn, makes Center management divert money that once 
        was available to pay for programmatic activities to increase 
        the Center G&A needed to pay for the ``uncovered'' salaries. 
        The net effect of this circular juggling act is the creation of 
        the false perception that there is a mass of civil servants who 
        are not performing useful work and are not needed. Uncovered 
        capacity keeps increasing, despite all the recent downsizing 
        activities. Last November, HR told IPFTE that there were only 
        850 uncovered employees left. In December, about 350 took a 
        buyout or early-out. Yet, HR now claims that the uncovered 
        capacity is back up to 1,000. How can this be? Uncovered 
        capacity is a fiction, an arbitrary number created by 
        management's desire to convert people into money to pay for the 
        short-term financial needs created by unfunded programmatic 
        mandates (i.e., moving up the CEV delivery date to 2012 or 
        earlier).

        <bullet>  The conversion to ``full-cost accounting'' has 
        paradoxically provided no usable accounting data on actual 
        cost. Program management first almost arbitrarily assigns a 
        work group a list of charge numbers (Work Breakdown Structures 
        or WBSs) ostensibly representing the various programs (and/or 
        G&A) supporting the employees in that group. Employees are then 
        instructed by line management to log their fixed ration for 
        each pay period regardless of what work was actually performed. 
        This process is required by the Integrated Financial Management 
        System that creates hundreds of salary bins that need to be 
        precisely spent (or funds will run out or be left over). Thus, 
        the false accounting of work is simply a regurgitation of 
        management's fictitious workforce planning. This is closely 
        related to NASA's ongoing inability to cleanly pass a financial 
        audit.

        <bullet>  The assignment of work is then done completely 
        independently, such that some activities are performed yet 
        don't show up on the books (e.g., some employees tasked to work 
        on the Smart Buyer Project were not provided a charge number so 
        they charged time elsewhere) and some ``work'' is charged that 
        is not actually performed (e.g., upper-level line managers 
        routinely charge their time to programs although they generally 
        perform no programmatic work. This is used as a means to 
        artificially reduce Center G&A).

        <bullet>  The bottom line is that NASA's bizarre version of 
        ``full-cost accounting'' does not account for the work its 
        employees are actually performing. The false data generated can 
        neither be used to make NASA more efficient/effective, nor to 
        do any rational financial or workforce planning.

    Second, HR has is relying overwhelmingly on term positions.

        <bullet>  Of the 1,426 outside hires since the beginning of FY 
        2005, only 403 were full-time permanent employees, leaving 
        1,023 employees likely to be separated from the Agency in two 
        to six years.

        <bullet>  The decision to offer term or permanent status should 
        be based on a careful technical analysis of the job 
        requirements and of the long-term need for the relevant skills, 
        but no such analysis is happening. Employees are hired in as 
        terms simply to undermine the civil-service tenure process; 
        many are slated for long-term employment, but are simply not 
        hired as ``perms.''

        <bullet>  The extensive use of term positions is threatening 
        the quality of our technical staff. The best and brightest new 
        scientist and engineering graduates are being wooed by MIT, 
        Johns Hopkins, Stanford, Cal Tech, UC-Berkeley and many other 
        high caliber academic institutions. All premier academic 
        institutions offer tenure. In the past, NASA has been able to 
        get its fair share of these candidates because it offered a 
        similar package of benefits and a similarly excellent 
        intellectual environment. Term positions, together with full-
        cost accounting and the large-scale de-scoping of NASA's in-
        house Research & Technology programs, hinder NASA's ability to 
        recruit the best talent. If tenure were a bad idea, elite 
        academic institutions would have abandoned it years ago.

        <bullet>  Tenure is the foundation of intellectual freedom. 
        Permanent civil service employees are more likely to summon the 
        courage to speak truth to power and perhaps save the Agency 
        from another catastrophe. Term employees, or even uncovered 
        permanent employees under the threat of RIF and forced to plead 
        for a charge number, are much more vulnerable to the pressure 
        to go with the flow. They might remain silent at that crucial 
        moment, which is one of the major concerns brought to light by 
        the Columbia Accident Investigation Board.

        <bullet>  Tenure is the foundation of institutional memory. 
        Mission success, especially at an Agency that is embarking on a 
        30-year mission to get to Mars and back, will be put at 
        considerably increased risk if its technical staff is 
        constantly turning over. We need the same young engineers, who 
        design and test the Crew Exploration Vehicle, to be available 
        as older engineers when NASA is facing some as-yet-unforeseen 
        technical problem down the road.

    Third, NASA has based its plan on a poorly implemented, improperly 
interpreted, and ill-defined Competency Management System (CMS).

        <bullet>  HR CMS analysis does not distinguish between 100 
        employees who have five percent of their salary uncovered (a 
        healthy situation) from 95 fully covered and five fully 
        uncovered employees (a less healthy one). Given that people are 
        not easily sliced, the competency numbers are a priori not 
        particularly useful for determining or forecasting 
        ``uncovered'' capacity.

        <bullet>  The CMS dictionary vocabulary is vague, overlapping, 
        continuously under-revision, and at odds with the vocabulary 
        used for the Critical Needs List. Some competencies are so 
        vague as to be useless (e.g., ``Program Management''--program 
        success depends on having specific skills tailored to the 
        specific program, and not generic ones). What is the difference 
        between the ``Power and Propulsion'' competencies that we plan 
        on increasing and the ``Advanced In-Space Propulsion'' and 
        ``Power Systems'' competencies that we plan on decreasing (both 
        on p. 18 of the Workforce Strategy)?

        <bullet>  When the CMS was first presented to the Union in 
        April of 2003, we were told that there would be multiple, 
        multi-dimensional databases (that would include the primary and 
        a series of secondary competencies of current positions, 
        current employees, future demand, etc.) and that most of these 
        databases would be validated and certified by the end of FY03. 
        Three years later, HR is still only using the primary 
        competency of the least useful ``position'' database, which 
        contains very little information about the skills and 
        capabilities of the current workforce.

    In addition to these key flaws above, HR's Workforce Strategy 
simply does not provide the information about NASA's workforce sought 
by Congress under the Authorization Act (see Appendix E) nor does it 
provide an analysis of NASA's management structure.

Balancing NASA's workforce:

    NASA has experienced an accelerating increase in the proportion of 
non-clerical administrative positions, even excluding SES (see Appendix 
F). NASA now has only 2.1 scientists & engineers for every 
administrative position. This is clearly unbalanced. Any successful, 
competitive, private-sector institution would be looking to streamline 
its management structure long before it would look to eliminate 
technical experts and R&D employees. Current HR practices are however 
only making a bad situation worse (all of the numbers below come from 
NASA's Workforce website).

        <bullet>  Of the 403 full-time permanent employees hired since 
        the beginning of FY 2005, only 90 (22 percent) were scientists 
        or engineers while 299 (74 percent) were non-clerical 
        administrative.

        <bullet>  Of the 1,905 full-time permanent employees lost since 
        the beginning of 2005 (Note: >10 percent attrition over 20 
        months), 906 (48 percent) were scientists or engineers while 
        only 646 (34 percent) were non-clerical administrative. This is 
        reflective of a random attrition model, as opposed to a 
        properly controlled attrition model that encourages retention 
        of technical skills.

        <bullet>  NASA has given 981 buyouts since the beginning of FY 
        2005, 455 (46 percent) to scientists and engineers but only 272 
        (28 percent) to non-clerical administrative employees, again 
        reflective of a skills-blind downsizing effort.

        <bullet>  NASA management has been limiting the hiring of rank-
        and-file technical employees (i.e., many Centers have been 
        working under a near-total hiring freeze) while increasing the 
        hiring of administrative positions (e.g., up to 600 new 
        financial/business management positions are foreseen on p. 16 
        of their Workforce Strategy, independent of the hiring going on 
        at the NSSC).

    IFPTE fully believes that NASA benefits from the synergy generated 
by its combined federal and private-sector workforce. We believe that 
NASA has already achieved a reasonably healthy balance between its 
current full-time permanent civil-servant workforce of 16,664 and an 
``in-house'' contractor workforce of around 40,000. There has already 
been a nearly 30 percent decrease from the civil service compliment in 
FY94, which was 23,695, yet NASA now has much more on its plate. Any 
further decrease in the civil service component below the current ratio 
of more than 2.1 contractors for every civil servant puts mission 
success at risk, leaving NASA incapable of proper technical monitoring 
and overseeing its contractor efforts (see the Columbia Accident 
Investigation Board final report).
    The Agency needs to engage more scientists, engineers, and 
technicians, and fewer managers, deputy managers, associate managers, 
and assistant managers. NASA's dedicated technical workforce at all of 
its Centers, both civil servant and contractor, stands ready, willing, 
and able to support NASA's missions.

Attrition:

    Attrition needs to be controlled, not blindly accelerated. If NASA 
does absolutely nothing, its workforce will soon fall below the 16,000 
contemplated by the aggressive downsizers (Appendix D). Just to 
maintain the reduced workforce levels projected in the Workforce 
Strategy, NASA must perform an intelligent combination of aggressive 
recruitment and carefully targeted voluntary separations. The Workforce 
Strategy should focus on a hiring plan, not last year's layoff plan 
that is still working its way through its timelines, impeded only by 
the RIF-moratorium in the NASA Authorization Act of 2005.

Work transfers:

    Administrator Griffin deserves considerable praise for realizing 
that all of NASA Centers should share in the work opportunities 
provided by the Constellation program, according to their capabilities 
and facilities. This idea, however, has been difficult to implement 
fully, and is ultimately only a short-term solution.

        <bullet>  Two successive attempts to shift work from over-
        funded to under-funded Centers have not fully come to fruition. 
        We urge Administrator Griffin to persevere in this critical 
        effort to achieve the budgetary balance needed to support ten 
        healthy Centers. The Exploration Centers must forge greater 
        collaboration with the other Field Centers in order to progress 
        beyond the current crisis and ultimately to make NASA stronger.

        <bullet>  The Constellation work assignments are largely short-
        term technical oversight tasks for hardware development 
        programs, with the lion's share of the work ultimately being 
        handed over to the private sector. These assignments do not 
        cover many of the Agency's world-class scientists and 
        technology developers, whose innovative research is critical 
        for the long-term health of the Agency and the ultimate success 
        of the Vision for Space Exploration. Visible investment in such 
        self-initiated research and development (R&D) is also essential 
        for recruiting and retaining the best and brightest young 
        minds, interested in cutting-edge research. Even more 
        importantly, after the current flurry of spacecraft designing 
        is over, many employees could find themselves ``uncovered'' 
        once again. The only sustainable solution is for NASA to 
        reverse its current trend of severe cuts to its Aeronautics, 
        Exploration Research and Technology, and Science programs and 
        to resurrect and maintain a strong cross-cutting R&D effort 
        that benefits all missions.

Technical Independence:

    The reason that all premier Universities continue to embrace tenure 
as a key component of their workforce planning is that, not only does 
this allow them to compete successfully for the best new talent, but 
also because it is a proven path to academic freedom and credibility. 
In the federal sector, comparable civil-service protections translate 
into the ability to speak truth to power. Tenured NASA engineers and 
scientists continue to face the potential threat of reprisal for 
expressing technical views that are at odds with management. Recently, 
we have witnessed evidence that the Public Affairs Office has altered 
or suppressed scientific expression on the Big Bang, climate change, 
and astronaut survivability. While we applaud the new Administrator's 
repudiation of such behavior, it remains obvious to many that speaking 
out still has its price. NASA still needs to improve on this. Full-cost 
recovery of salary, RIF threats, and term hiring only serve to 
undermine the independence of NASA's technical experts. Successful 
policies and missions rest on a solid backbone of truthful, reliable, 
fearless data gathering and analysis by experts, who are shielded from 
political or financial pressure.

Recommendations:

    In order to move forward and better support all of NASA missions, 
IFPTE would like to submit the following recommendations for NASA 
management:

        1.  Pledge not to lay-off any NASA employees in the foreseeable 
        future.

                <bullet>  Civil Servant employees must once again feel 
                respected and valued.

                <bullet>  The best and brightest young engineering and 
                science graduates need once again to see NASA as a 
                great career move, comparable to accepting a job at a 
                premier academic or private-sector research institution 
                (e.g., MIT or Google).

        2.  Request legislation to allow limited, targeted, enhanced 
        buyout authority.

                <bullet>  Many non-critical employees would like to 
                retire immediately, but need to stay on a few more 
                years for financial reasons. A more reasonable 
                compensation package would greatly help NASA and would 
                save the tax payer a lot of money in only a couple of 
                years.

                <bullet>  The industry standard is one year's pay, 
                which is much more than NASA's $25,000.

        3.  Reject the failed policy of full-cost recovery of civil 
        service salary.

                <bullet>  Set up a salary equivalent to the S-CAP 
                account to cover 25 percent of all technical employees' 
                time. This would more honestly cover training, 
                outreach, proposal writing, center-supported high-risk 
                high-payoff pilot research, Space Act agreements that 
                don't involve salary, and other management assignments 
                that are currently falsely assigned to programs.

                <bullet>  This would not only eliminate the false 
                uncovered problem once and for all, but would also 
                empower line managers who currently feel 
                disenfranchised by ``full-cost.''

        4.  Embrace genuine and auditable full-cost accounting (not 
        full-cost recovery).

                <bullet>  Require that all employees log their time 
                accurately reflecting the work performed as assigned by 
                one's supervisor, instead of back-filling what center 
                or program management wants to see.

                <bullet>  Use the honest data acquired to perform valid 
                workforce planning (indeed by noting the deviation 
                between predicted and actual work hours performed in 
                each category, one can improve the financial and 
                workforce planning processes).

                <bullet>  Require all managers to charge their salary 
                to an appropriate G&A account, unless they actually 
                perform technical work for a program. This frees up 
                program dollars to support actual programmatic work and 
                properly logs increasing G&A costs so that they can be 
                properly identified and controlled.

                <bullet>  Require a clean audit of any full-cost 
                accounting before allowing NASA to make fundamental, 
                irreversible decisions based upon that accounting.

        5.  Re-embrace NASA's Aeronautics, Science, and Technology 
        missions.

                <bullet>  See IFPTE's letter to Dr. Marburger for our 
                analysis of the FY07 budget's adverse impacts on NASA 
                science and technology capabilities (Appendix G).

                <bullet>  See IPFTE's letter to Chairman Shelby and 
                Ranking Member Mikulski with our FY07 appropriations 
                recommendations (Appendix H). Since this letter, NASA 
                has effectively canceled the current Robotic Lunar 
                Exploration Program (RLEP) program and re-channeled the 
                funds into a new Lunar Precursor and Robotic Program, 
                which appears to be shifting its focus to the 
                development of the Lunar Surface Access Module 
                (Appendix I). This conversion of Science funds into 
                mostly hardware design, development, and validation 
                funds represents an additional cut of as much as $134.6 
                million to the FY07 Science budget.

    In conclusion, IFPTE is greatly encouraged by Dr. Griffin's recent 
effort to distribute Constellation work more fairly and intelligently 
across the Centers. We also praise his decision to reject many of the 
technical decisions of his predecessor and to keep more of NASA's 
technical work in-house. We now ask that he complete the healing 
process by rejecting his predecessor's ill-advised workforce plan and 
embrace a forward-thinking approach whereby all NASA's career employees 
can once again feel like full stakeholders in NASA's Vision. Let us 
work together to do the world-class Aeronautics, Science, and 
Exploration work that the American people deserve and expect of us. 
NASA employees all across the Agency are ready, willing, and more than 
able to do so, if simply given the chance.
    Finally, we would also like to thank Chairman Boehlert for his long 
and dedicated career of public service. He has done great things for 
the American people and for NASA. On behalf of the many thousands of 
NASA employees that we represent, IFPTE thanks him and wishes him well 
in the next phase of his life. The nation is losing one of its wisest 
lawmakers.
    Once again, Chairman Calvert and Ranking Member Udall, IFPTE thanks 
you very much for the opportunity to bring these important issues to 
your attention.

                               Appendices

Appendix A--NASA's February 14, 2006 Workforce Plan

Appendix B--FY 2004 SES bonuses

Appendix C--2004 versus 2005 Critical Needs List

Appendix D--IFPTE comments on Draft Workforce Strategy

Appendix E--IFPTE (local 30) letter to NASA General Counsel on 
        deficiencies in the draft Workforce Plan

Appendix F--Increasing management burden on the Agency

Appendix G--Mr. Junemann letter to Dr. Marburger on NASA cuts to 
        Science and Technology programs

Appendix H--Mr. Junemann letter to Chairman Shelby and Ranking Member 
        Mikulski on NASA's FY07 Appropriations

Appendix I--E-mail from Marshall Center Director to staff on the 
        conversion of RLEP to LPRP
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                        Biography for Lee Stone

    Lee Stone is a Human-Factors engineer and research psychologist in 
the Human-Systems Integration Division at NASA Ames Research Center. He 
received his B.A. in Biophysics in 1980 from the Johns Hopkins 
University, his M.S. in Engineering in 1983 from the University of 
California at Berkeley, and his Ph.D. in Neuroscience in 1987 from the 
University of California at San Francisco.
    He has more than 20 years of experience studying and modeling human 
perceptual and motor performance with an emphasis on the visual, 
vestibular, and oculomotor signals that influence tracking, search, and 
control performance and interface design. Since 1995, he has been a 
principal investigator on numerous NASA grants and projects, and has 
run a human performance R&D laboratory at Ames in support of 
Aeronautics and Space Human Factors. He has authored or co-authored 
more than 35 publications in scientific and engineering journals, as 
well as many invited book chapters and NASA technical memoranda. He 
also served as Project Scientist for the RHESUS project and as acting 
chief of the Human Information Processing Research branch. He is the 
Vice President for Legislative Affairs of IFPTE local 30 (the Ames 
Federal Employees Union) and the Legislative Representative of the NASA 
Council of IFPTE locals. IFPTE (the International Federal of 
Professional and Technical Engineers, AFL-CIO) represents federal 
employees at four NASA Field Centers and Headquarters.

    Chairman Calvert. Thank the gentleman. Next, Dr. David 
Black, Co-Chair of the National Academy of Sciences Committee 
on Meeting the Workforce Needs of the National Vision for Space 
Exploration, and President and CEO of Universities Space 
Research Association.
    Sir, you are recognized for five minutes.

STATEMENT OF DR. DAVID C. BLACK, PRESIDENT, UNIVERSITIES SPACE 
                      RESEARCH ASSOCIATION

    Dr. Black. Mr. Chairman, Ranking Member Udall, thank you 
very much. And other fellow Members of the Committee. I 
appreciate the opportunity to talk with you today.
    I appear today largely in my capacity as the Co-Chair of 
the National Research Council's Committee on Issues Affecting 
the Future of the U.S. Space and Engineering Workforce. The 
views expressed in my testimony will be those of the Committee. 
Occasionally, I will throw in my own, and I will try and make 
it clear where there is a difference. The latter views are 
fully supported by my co-chair of the study, Dr. Daniel 
Hastings, who is the Dean for Undergraduate Education and 
Professor of Aeronautics and Astronautics at MIT.
    Among the questions you asked, one of them is what are the 
critical skills that will enable NASA to complete its goals in 
space, Earth science, aeronautics, and exploration. The 
Committee is in the throes of completing its report. We should 
be through at the end of the year, so we haven't gone through 
an exhaustive look at the critical skill needs that NASA has 
set forward. We recognize this as a daunting task for the 
Agency as it starts with essentially a blank piece of paper.
    The NRCs, our committee's initial reaction to NASA's work 
done so far is that it is incomplete, and reflects a top-down 
view of what skill mixes are needed, and as such, is more 
theoretical than empirical. An essential aspect of any answer 
to this question has to do with the so-called make/buy ratio, 
which has already been discussed, that NASA decides to 
implement, that is, the division of responsibilities for work 
to be done by the Agency's Field Center employees, versus the 
work to be done by the outside contractors. I will comment more 
specifically on this ratio below, but let me just say here that 
clearly, the demands on NASA's in-house workforce will be 
lessened if this ratio is low, and some of the requisite skill 
base can then reside external to the Agency.
    One of the other questions is: what decision must NASA make 
now to prepare for its future workforce needs? We have 
identified, the committee has identified several key decisions 
that NASA faces, and there are sure to be others that will 
become as we complete our study.
    In the view of our committee, the most critical decision is 
the one I just mentioned, that is, the amount of work to be 
done in-house versus outside. That ratio is very fundamental in 
determining the load and the concerns that the Agency has.
    Furthermore, NASA needs to determine what means it will use 
to ensure that prospective employees entering jobs either 
inside the government or in the private sector, gain the 
requisite training and experience in those critical areas that 
are needed to fulfill the Agency's goals and objectives. NASA 
does have training and mentorship programs, and I should say 
parenthetically here that my organization has been working with 
NASA to expand those over the past years, but I would say that 
in general, these programs are modest in scope and impact.
    NASA will need to make more decisions--make decisions 
regarding how it can provide assurance, or perhaps more on 
point, a sense of hope and promise, to potential future members 
of the Agency's workforce. Twenty years ago, or even longer, 
when I was thinking about the space program, the mere mention 
of NASA was an attractor. It had vocational pizzazz. That is no 
longer the case. Considerable publicity is given to NASA 
projects that are delayed or canceled, and there are fewer 
opportunities for NASA staff to be engaged in meaningful 
science and engineering.
    I am concerned that many of the best and brightest young 
people are--who would be attracted to the science part of what 
NASA does, but the inability of the Administration and Congress 
to properly fund NASA's implementation of the Vision for Space 
Exploration means the support for science will erode. Research 
advisors in the academic disciplines associated with these 
science areas won't have the funding to support the best and 
brightest students, and those students will go elsewhere. The 
ability of NASA to develop ways to reinvent itself is--in the 
sense of attracting the best and brightest in science and 
engineering is very, very critical.
    Finally, NASA will need to decide how much critical mass of 
expertise should be sustained in key areas, such as 
microgravity life and physical sciences. It is easy to turn off 
communities with budget decisions, but it is not as easy to 
turn them on in a timely manner at some point in the future. 
The employment ecosystem extends from NASA and other similar 
technical employers through universities, and arguably, down to 
high schools.
    The life scientists needed to do cutting edge research in 
2015 are in high school today. How likely are they to choose 
career paths that would take them to NASA, in light of recent 
decisions to minimize that field of work? A related aspect is 
that the university community that is the source of NASA's 
future workforce is already showing signs of steering their 
best students to other career paths, because NASA's commitment 
appears to be uncertain or unstable.
    You have asked what are the tradeoffs associated with 
completing work in-house or contracting them out, and in the 
little time I have left, I would say that if the decision is to 
build, rather than buy, NASA will not need a large number of 
people with the requisite skills, but those on whom they rely 
must be exceptionally skilled and experienced. Choosing a path 
that emphasizes buying what is needed allows NASA to tap into a 
skilled workforce that is already largely in place, and which 
is unencumbered by Civil Service hiring and firing rules. This 
latter aspect makes it easier to adjust the workforces, 
budgets, and program schedules wax and wane. It also means that 
they will find support for the programs in a far broader base 
than was the case before.
    In closing my remarks, Mr. Chairman, I would note that the 
committee feels strongly that NASA needs to look outside of 
itself in assessing the nature, scope, and possible solutions 
for its skill mix. NASA has historically been a can-do agency, 
but also one afflicted, to some extent, with the not invented 
here syndrome. The issues NASA faces, in terms of workforce, 
are national in character. They reverberate through other 
government agencies involved in space-related work, as well as 
the private sector, including universities.
    NASA should not, in our committee's view, try to structure 
a solution in isolation from consultation with the broader set 
of communities noted above. While we have not formulated a 
recommendation in this area, I believe I can speak for most of 
the members of the committee in saying that the Nation's space 
program would benefit if the issue of workforce is addressed by 
involving representatives of the entire workforce ecosystem in 
the assessment of the problem and the range of possible 
solutions.
    The final thing I would say, sir, to the Committee, is that 
one of the things that is absolutely essential is to see more 
hands-on opportunities for students at the university level. I 
have a figure which I can show later time, but time is passing, 
so I will stop here.
    Thank you very much for the opportunity to testify today.
    [The prepared statement of Dr. Black follows:]

                  Prepared Statement of David C. Black

    Mr. Chairman, Ranking Minority Member, and Committee Members: I 
appreciate the opportunity to testify before you today. My name is 
David Black. I am the President and CEO of the Universities Space 
Research Association. The Universities Space Research Association was 
incorporated in 1969 in the District of Columbia as a private, 
nonprofit corporation under the auspices of the National Academy of 
Sciences (NAS). Institutional membership in the Association has grown 
from 49 colleges and universities when it was founded, to the current 
100 institutions. All member institutions have graduate programs in 
space sciences or technology. Besides the 92 member institutions in the 
United States, there are two member institutions in Canada, three in 
Europe, two in Israel, and one in Australia. USRA provides a mechanism 
through which universities can cooperate effectively with one another, 
with the government, and with other organizations to further space 
science and technology, and to promote education in these areas. I am 
also an Adjunct Professor in the Physics and Astronomy Department at 
Rice University.
    I appear today largely in my capacity as co-chair of the National 
Research Council (NRC)'s Committee on Issues Affecting the Future of 
the U.S. Space Science and Engineering Workforce. The NRC is the 
operating arm of the National Academy of Sciences, National Academy of 
Engineering, and the Institute of Medicine of the National Academies, 
chartered by Congress in 1863 to advise the government on matters of 
science and technology. The views expressed in my testimony today are 
in part those expressed by the NRC Committee in its Interim Report,\1\ 
as well as my own. I shall do my best to make clear which views are 
mine and which are those of the Committee. The latter views are fully 
supported by my co-chair of the NRC study, Dr. Daniel Hastings, who is 
Dean for Undergraduate Education and Professor of Aeronautics and 
Astronautics at MIT.
---------------------------------------------------------------------------
    \1\ Issues Affecting the Future of the U.S. Space Science and 
Engineering Workforce--Interim Report, The National Academies Press, 
Washington, D.C., 2006
---------------------------------------------------------------------------
    Prior to addressing the specific issues on which you have asked me 
to comment, allow me to provide some context for the NRC Committee's 
activity. I should note that the Committee has completed most of our 
fact-finding and will be preparing our final report near the end of the 
calendar year. As such we are not yet prepared to provide a complete 
set of recommendations but expect to do so in our final report.
    The NRC Committee's charge from NASA is to explore long-range 
science and technology workforce needs to achieve the Nation's long-
term space exploration vision, identify obstacles to filling those 
needs, and explore solutions for consideration by government, academia, 
and industry. The specific tasks that we have been requested to 
undertake are the following:

        1.  Assess current and projected demographics of the U.S. 
        aerospace engineering and space science workforce needed to 
        accomplish the exploration vision;

        2.  Identify factors that impact the demographics of the 
        affected workforces;

        3.  Assess NASA's list of the workforce skills that will be 
        needed to implement the Vision for Space Exploration, both 
        within the government and in industry;

        4.  Identify the skills needed to implement NASA's Vision for 
        Space Exploration within the academic community;

        5.  Assess the current workforce against projected needs;

        6.  Identify workforce gaps and analyze obstacles to responding 
        to the workforce needs, and in particular, analyze the proper 
        role of academia and the obstacles to achieving this proper 
        role; and

        7.  Develop recommendations for specific actions by the Federal 
        Government, industry, and academia to address those needs, 
        including considerations such as organizational changes, 
        recruiting and hiring practices, student programs, and existing 
        workforce training and improvement.

    The NRC Committee has drawn upon input from two workshops and 
documents provided by NASA to arrive at the following preliminary 
findings:

        1.  NASA has made a reasonable start on assessing its near- and 
        long-term skill needs, and the Committee shares the view 
        expressed by NASA representatives that there is still much more 
        work to be done. However, NASA's work has focused on initial 
        assessment of current workforce demographics and estimates of 
        future needs, and at the time of the NRC's interim report NASA 
        had not yet translated that analysis into a strategy and action 
        plan.

        2.  NASA needs a strategic workforce plan that deals with the 
        next five years and that lays the foundation for a longer-term 
        process. This will be a new and difficult process for NASA, but 
        it will nevertheless be vital for the Agency's success in 
        implementing the space exploration vision.

        3.  The Committee has not seen compelling evidence for a 
        looming, broadly based shortage in the supply of aerospace 
        science and engineering workforce employees to meet NASA's 
        needs. (This is not to say, however, that the committee 
        disagrees with the broader issues about the adequacy of the 
        U.S. science and engineering workforce.) However, the committee 
        believes that in order to continue to have an adequate supply 
        of these employees, it is important that NASA provide adequate 
        funding for university based research programs and flight 
        opportunities. This will help ensure that universities continue 
        to sustain curriculum, faculty, and student interest in the 
        aerospace sciences and technologies.

        4.  To address those skill areas where there are concerns (both 
        for the near-term and the longer-term), NASA needs to pay 
        particular attention to identifying and expanding ways to 
        promote exchanges of personnel between NASA and the private 
        sector (industry, academia, and non-government organizations).

        5.  The degree to which the Agency chooses to perform work in-
        house versus by a contractor will play a major role in the 
        number of personnel that the Agency will require.

        6.  The Committee concludes that the ability to recruit and 
        strategically retain the needed workforce will depend 
        fundamentally on the perception of long-term stability of the 
        Vision for Space Exploration and a sustainable national 
        consensus on NASA's mission.

    As a result of these findings the NRC Committee made the following 
recommendations:

        1.  NASA should develop and publicize a workforce strategy for 
        ensuring that it is able to target, attract, and retain the 
        skilled personnel necessary to implement the space exploration 
        vision and conduct its other missions in the next five to 15 
        years.

        2.  NASA should adopt innovative methods of attracting and 
        retaining its required personnel and should obtain the 
        necessary flexibility in hiring and reduction-in-force 
        procedures, as well as transfers and training, to enable it to 
        acquire the people it needs. Transfers within the Agency could 
        fill many needs if coupled with appropriate training. NASA 
        should work closely with the DOD to initiate training programs 
        similar to those that the DOD initiated, or otherwise 
        participate actively in the DOD programs.

        3.  NASA should expand and enhance agency-wide training and 
        mentorship programs, in order to develop or improve needed 
        skills within the existing workforce. For example, NASA could 
        provide some of its employees opportunities for gaining on-the-
        job experience for its most vital required skill sets such as 
        systems engineering.

    As you can see, the NRC Committee has made reasonable progress, but 
much work remains to address fully the charge that we have been given. 
That said, let me turn to the questions your committee has posed to me.

What are the critical skills that will enable NASA to complete its 
goals in space and Earth science, aeronautics, and exploration?

    Although the Committee has not reviewed NASA's critical skill needs 
on an item-by-item basis, it is likely that the Agency will need to 
maintain at least a small core of employees having skills in the 
majority of the same areas that the Agency has depended upon throughout 
its history. Individuals with skills and experience in project 
management and systems engineering will be particularly critical to 
successful realization of NASA's goals. The NRC Committee intends to 
examine this issue in more detail in our final report after we have had 
a chance to evaluate the material that NASA has provided to our 
Committee. We recognize that this is a daunting task for NASA as it 
starts with essentially a blank piece of paper. The NRC Committee's 
initial reaction to NASA's work done so far is that it is incomplete 
and reflects a top-down view of what skill mixes are needed and as such 
is more theoretical than empirical.
    An essential aspect of any answer to this question is the ``make/
buy ratio'' that NASA decides to implement, i.e., the division of 
responsibilities for work to be done by the Agency's field center 
employees vs. work to be done by outside contractors. I will comment 
more specifically on the role of this ratio below, but let me just say 
here that clearly the demands on NASA's in-house workforce will be 
lessened if this ratio is low, as some of the requisite skill base can 
then reside external to the Agency.

What decisions must NASA make now to prepare for its future workforce 
needs?

    The NRC Committee has identified several key decisions that NASA 
faces, and there are sure to be others that will become clear as we 
complete our study. In the view of our Committee, the most critical 
decision is the one just discussed, the amount of work done by NASA 
employees relative to that done in academia and industry. The extent to 
which NASA decides to develop and operate space systems in-house at its 
field centers or to contract such work out will have a substantial 
influence on the skills needed in-house. Moreover, such make/buy 
decisions also have a strong influence on recruitment of future NASA 
employees.
    Furthermore, NASA needs to determine what means it will use to 
ensure that prospective employees, entering jobs either inside the 
government or in the private sector, gain the requisite training and 
experience in those critical areas that are needed to fulfill the 
Agency's goals and objectives. NASA does have training and mentorship 
programs, and I should say parenthetically here that my organization 
has been working with NASA to expand these over the past years, but in 
general these programs are modest in scope and impact.
    NASA also will need to make decisions regarding how it can provide 
assurance, or perhaps more on point, a sense of ``hope and promise'' to 
potential future members of the Agency's workforce. Twenty years ago, 
the mere mention of NASA was an attractor. It had vocational pizzazz. 
That is no longer the case. Considerable publicity is given to NASA 
projects that are delayed or canceled, and there are fewer 
opportunities for NASA staff to be engaged in meaningful science and 
engineering. I am concerned that many of the best and brightest young 
people are attracted to the science part of what NASA does, but the 
inability of the Administration and Congress to properly fund NASA's 
implementation of the Vision for Space Exploration will mean that 
support for science will erode. The research advisors in the academic 
disciplines associated with these science areas won't have the funding 
to support the best and brightest graduate students, who may go 
elsewhere. The ability of NASA to develop ways to reinvent itself in 
the sense of attracting the best and brightest in its science and 
engineering competencies is very important.
    Finally, NASA will need to decide how much critical mass of 
expertise should be sustained in key areas such as microgravity life 
and physical sciences. It is easy to turn off communities with budget 
decisions, but it is not as easy to turn them on in a timely manner at 
some point in the future. The employment ecosystem extends from NASA 
and other similar technical employers through universities and arguably 
down to high schools. The life scientists needed to do cutting edge 
research in 2015 are in high school today. How likely are they to 
choose career paths that would take them to NASA in light of recent 
decisions to minimize that field of work? A related aspect is that the 
university community that is the source of NASA's future workforce is 
already showing signs of steering their best students to other career 
paths because NASA commitments appear to be uncertain or unstable.

Does NASA's workforce strategy fulfill the needs identified by the NRC 
interim report?

    Our Committee has not had a chance to review NASA's new workforce 
strategy, but will do so as the NRC study moves ahead during this year. 
The Committee's interim report does suggest a number of important 
elements that should be included in such a strategy. They include an 
analysis of future skill needs, both in terms of types of skills and 
numbers of employees, that is then linked to plans for recruitment and 
training to meet those needs, as well as plans for partnerships with 
industry, other government agencies, and academia to meet future 
training needs.

What are the tradeoffs associated with completing work in-house at NASA 
or contracting them out?

    Our Committee has not yet addressed this question thoroughly, so I 
will have to give you what is largely my personal view at this point. 
As remarked earlier, the Committee does feel that this tradeoff is one 
of the more critical, if not the most critical, decision that NASA must 
make. Whether or not there is strong reliance on external 
organizations, NASA must retain a cadre of expert engineers and 
scientists on its own staff. Administrator Griffin has made the point 
that NASA needs to be a smart buyer, and that requires skilled and 
knowledgeable employees who are involved with buying decisions and in 
program management. Recent experience in the DOD indicates that when 
the government expertise in national security space was allowed to 
wane, the government made major mistakes in what and how it contracted 
with industry.
    If the decision is to buy rather than build, NASA will not need a 
large number of people with the requisite skills, but those on whom 
they rely must be exceptionally skilled and experienced. Choosing a 
path that emphasizes buying what is needed allows NASA to tap into a 
skilled workforce that is already largely in place, and which is 
unencumbered by civil service hiring and firing rules. This latter 
aspect makes it easier to adjust the workforce as budgets, and program 
schedules, wax and wane. Selection of the buy path also expands the 
support base for NASA's programs in a political sense, as employees of 
companies and universities beyond the NASA field centers have a vested 
interest in the success of those programs. However, it is important to 
realize that NASA can never give up the core of talented people 
necessary to be ``smart'' buyers. NASA needs to retain enough in-house 
projects to develop and retain these smart buyers or facilitate 
exchange with industry to get smart buyers with current experience.
    Conversely, should NASA opt to place more emphasis on building what 
is needed using an in-house workforce, they will need to recognize that 
in next five years or so, they will have gaps in necessary expertise 
that cannot be rapidly filled by training current in-house people or by 
inexperienced new hires. The NRC Committee has examined this issue, and 
the Committee concludes that ways must be found for NASA to supplement 
its present workforce with members of industry, the retiree community, 
and academia who do currently possess the skills required.
    The situation for the longer-term will depend upon NASA's ability 
to train in-house staff and to establish an environment that encourages 
the brightest young students to seek employment with NASA. A key 
element of this will be to provide opportunities within universities 
for meaningful hands-on training and experience for students. Data on 
the trend of NASA-sponsored opportunities of this type show a clear 
decrease over the past three decades or more (see Figure 1), and a 
projection into the future given the proposed budgets suggests that 
this decrease is likely to continue. The knowledge needed to become a 
skilled project manager is not found in a textbook or classroom; it 
comes from doing the work and experiencing failures as well as 
successes. A ``build'' as contrasted to ``buy'' approach will allow 
NASA to offer its employees compelling challenges, which is an 
important ingredient in making employment with the Agency attractive to 
young people. However the most effective, and perhaps even essential, 
approach to meeting the needs of both the Federal Government and 
industry for people with hands-on experience will be to nurture and 
expand ways to begin to provide that experience while science and 
engineering students are still in universities. As a companion NRC 
study committee recently recommended,\2\ that will require reversing 
the trend of declining opportunities for programs that do provide the 
hands-on experiences.
---------------------------------------------------------------------------
    \2\ Assessment of Balance in NASA's Science Programs, The National 
Academies Press, Washington, D.C., 2006.
---------------------------------------------------------------------------
    In closing my prepared remarks Mr. Chairman, I would note that the 
NRC Committee feels strongly that NASA needs to look outside of itself 
in assessing the nature, scope, and possible solutions for its skill 
mix. NASA has historically been a ``can-do'' agency, but also one 
afflicted to some extent with the ``not invented here'' syndrome. The 
issues NASA faces in terms of workforce are national in character; they 
reverberate through other government agencies involved in space-related 
work, as well as the private sector including universities. NASA should 
not, in our Committee's view, try to structure a solution in isolation 
from consultation with the broader set of communities noted above. 
While we have not formulated a recommendation in this area, I believe I 
can speak for many people in saying that the Nation's space programs 
would benefit if the issue of workforce is addressed by involving the 
representatives of the workforce ecosystem in both the assessment of 
the problem and the range of possible solutions.
    I would be happy to expand on my remarks or address additional 
questions should you wish.
    Thank you again for the opportunity to share with your committee 
the perspectives on this important issue that the NRC Committee has 
developed in this early stage of our work.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for David C. Black

    David C. Black is the president and CEO of the Universities Space 
Research Association (USRA), a consortium of 97 different colleges and 
universities having graduate programs in space science or engineering. 
He is also Adjunct Professor of space physics and astronomy at Rice 
University. Between 1970 and 1975 Dr. Black served in various 
capacities at NASA's Ames Research Center, including Chief of the 
Theoretical Studies Branch, Deputy Chief of the Space Science Division, 
and he was the first Chair of the Ames Basic Research Council. Dr. 
Black was selected as the first chief scientist for the space station 
program at NASA Headquarters in 1985. He returned to NASA Ames in 1987 
as the chief scientist for space research. He spent an academic year as 
a Visiting Professor at the University of London (1974-1975). Dr. Black 
is an internationally-recognized researcher in theoretical astrophysics 
and planetary science, specializing in studies of star and planetary 
system formation. He has also done pioneering experimental research 
involving the isotopic composition of noble gases in meteorites, he was 
the first to discover and correctly identify evidence for non-solar 
material in solar system matter, and was the first to show that the 
isotopic composition of solar flare noble gases differs from that of 
solar wind noble gases. He is a leader in the current effort to search 
for and study other planetary systems. He is Past Chair of the Solar 
System Exploration Subcommittee and the Origins Subcommittee of NASA's 
Space Science Advisory Committee. Dr. Black is Co-Chair of the NRC 
Committee on Issues Affecting the Future of the U.S. Space Science and 
Engineering Workforce, and he also served as a member of the Planetary 
and Lunar Exploration Task Group (1984-1988) and the Working Group on 
Search for Extraterrestrial Intelligence (1979-1983).

    Chairman Calvert. Thank the gentleman. Mr. John Douglass, 
President and CEO of the Aerospace Industries Association. 
Welcome, Mr. Douglass, you are recognized for five minutes.

  STATEMENT OF JOHN W. DOUGLASS, PRESIDENT AND CEO, AEROSPACE 
               INDUSTRIES ASSOCIATION OF AMERICA

    Mr. Douglass. Thank you, Mr. Chairman, and I want to thank 
you and Congressman Udall for your leadership in holding this 
hearing. This is an important issue, and it is one that 
industry has been concerned about for the last four or five 
years, because the trends that are affecting NASA are affecting 
our entire workforce across the board.
    You asked me four questions in your letter of invitation. I 
will answer those four questions. I am on the NRC Committee 
with Dr. Black, but the answers that I am going to be giving 
this morning are largely my own views, informed by the fact 
that I represent about 300 aerospace companies.
    The first question was what are the trends that affect the 
NASA workforce planning, and the most important ones are as 
follows. The current workforce across our country is aging. 
When I was on the President's Commission on the Future of the 
Aerospace Industry in 2003, we estimated that the average age 
of our manufacturing workforce was 51 years old, and the 
average age of our engineering workforce was 54 years old.
    The second point is that the workforce is globalizing, 
which makes it more complex. In the past, it was easier to rely 
on a workforce that was largely American citizens, and that is 
no longer true today. And the third point is that industry is 
in the process of rebuilding its workforce. By 2008, something 
approaching 30 percent of our workforce will be eligible to 
retire, and we are beginning to replace those people. In the 
last two years, for example, we have added about 50,000 workers 
to our industry, and we are going to be adding many more in the 
years in the future. What this means to NASA is that NASA is 
going to find that it is harder to compete for resources, as we 
get into the out years of the current vision.
    And one of the things that the Committee talked a lot about 
was that the design of the systems that NASA will be developing 
in the next few years is going to be done by the people that 
are in NASA today, but it is going to be the long-term 
maintenance and operations of those systems, where we will need 
new workers, and those workers are going to be taken from a 
workforce field that is going to be increasingly competitive 
over the next eight to ten years.
    What are some of the tradeoffs of in-house versus 
contracting out? Well, some factors favor industry and some 
favor NASA. The things that favor industry is that we have a 
lot of flexibility. We can expand and contract relatively 
easier than a government agency can. The second factor is that 
we have a very broad-based research and development 
programming. When you go to industry, you can pull in skills 
that are in the civil aviation area. You can pull in from civil 
space, military space, from other parts of our workforce that 
support the Department of Transportation across a broad level 
of skills. So there is a vast pool to pull from, and most 
economists agree that if you have a short-term need, something 
that is only going to last, say four or five or six years, it 
is probably more cost-effective to pull people from industry 
than it is to try to establish government positions.
    On the other side of the coin, anything that is going to 
take a long-term, and involves a lot of basic research, where 
industry is not likely to invest in expertise, is more likely 
done through the Civil Service process, especially when having 
access to those key facilities that are involved in basic 
research, is a critical factor. So, I would say there are a lot 
of areas where long-term specialists, especially those related 
to space science and Earth science, it would be better to have 
those as NASA employees.
    Finally, one quick comment on something Dr. Black raised, 
and that is that I think there is still a factor that, a 
segment of our population is motivated by service, and I still 
believe that NASA is a wonderful motivator for those young 
people in our population that want to serve their fellow 
citizens. Just as we have wonderful young people who are 
willing to serve in our armed forces, there are those who would 
like to serve in NASA, and that is a unique drawing power that 
NASA has.
    You asked me what are some of the critical skills. I listed 
some in my written report, which I will submit for the record, 
Mr. Chairman. There are two that I would like to dwell on 
specifically. The first one is systems engineering. If NASA is 
going to do the systems engineering in-house, which is--appears 
what the Administrator is intending to do, then they are going 
to have to beef up their systems engineering workforce. We are 
seeing this, not only at NASA, but in the Department of 
Defense, and in other places.
    As we get more and more complex technology, where what we 
used to call systems are really systems of systems, this 
systems engineering function is becoming increasingly 
important, and it is an area where the competition for 
resources is especially keen, between the government and 
industry, and in fact, between companies.
    The second area is an area where I think NASA is moving 
pretty much in the wrong direction, and that is in the area of 
prototype development. There is an institution over in the 
Department of Defense called DARPA, that has been a part of the 
Department of Defense for the last forty or fifty years, and 
almost all the breakthrough technologies that are employed by 
our military today have come out of DARPA. It is where high 
risk, basic technologies can be turned into prototypes. And 
things like the Internet and network-centric warfare, and 
precision-guided munitions, and lots of other things came out 
of DARPA, and you would have to, if you get up to the 50,000 
foot level, and you ask yourself if that is good for the 
defense side of our national workforce, why don't we have 
something like that for the civil side, for our transportation 
and energy and air traffic control problems, and things of that 
nature. So, I think there is a need for that kind of skillset 
over in NASA, and indeed, I think that part of their mission 
needs to be beefed up.
    Does industry have the capacity to absorb NASA work? And 
the answer to that is clearly yes. I apologize, because there 
was a chart I wanted to bring this morning, and I just couldn't 
find it. Dr. Black and I were talking before. Oh, we do have 
the chart. We were briefed about how many aerospace people are 
there in our country that are trained to do aerospace work, and 
it was an astonishingly large number, compared to the number 
that are actually working in the field. And so the answer, I 
think it is fairly well documented that industry could absorb 
more work. I would also point out that I think academia could 
absorb more work.
    So, I think in the long-term, the limiting factor is not 
going to be human capital. In the medium to near-term, it is 
going to be our monetary capital. How much can we afford to 
invest in NASA's resources?
    And--did you bring up the chart? Oh, there it is. Yeah. You 
can see the big red circle, are all the people that are trained 
in aerospace, and the blue part are those that are working in 
the industry. I found that to be an astonishing statistic.
    So, just to summarize my part of the testimony today, I 
think that NASA is going to design the new systems with the 
workforce that they have. I think in the future, maintaining 
the NASA's workforce is going to be a challenge, Mr. Chairman.
    I will be glad to answer any questions that you may have.
    [The prepared statement of Mr. Douglass follows:]

                 Prepared Statement of John W. Douglass

Introduction

    Chairman Calvert, on behalf of the Aerospace Industries Association 
of America, or AIA, I wish to thank you, Representative Udall, and the 
Space and Aeronautics Subcommittee for the opportunity to testify on 
the human capital challenges that confront NASA and the aerospace 
industrial base. I would also like to commend NASA for requesting the 
National Academies study on its workforce, and I am honored to serve on 
this panel. I will leave the panel findings to Dr. Black and focus my 
comments on industry perspectives.
    As you may know, AIA represents more than 100 regular member 
companies and 170 small business suppliers, and we operate as the 
largest trade association in the United States across three sectors: 
civil aviation, space systems, and national defense. The cyclical 
nature of our industry also provides us with a long history of 
workforce development initiatives.
    The sections of my testimony, Mr. Chairman, correspond with the 
four questions that you posed in the witness letter of invitation.

What trends in the aerospace industry should affect NASA's workforce 
planning?

    In workforce planning, NASA must remain aware that a healthy 
aerospace workforce holds the key to America's economic 
competitiveness.
    Civil aviation workers foster the movement of people, resources, 
and ideas that anchor jobs at home while expanding our trade and 
investment opportunities abroad. Cable and wireless technologies 
pioneered by military contractors planted the seeds for the Internet 
and mobile telecommunications. Materials and optical transmission 
research performed by the space transportation industry has advanced 
life-saving diagnostic procedures, land management techniques, and our 
understanding of climate change. And in the realm of national defense, 
the producers of precision-guided weapons and real-time reconnaissance 
systems allow our dedicated forces to protect the United States from 
asymmetrical threats.
    Despite these successes, today's economic environment poses 
challenges to the U.S. aerospace workforce. Two recessions and 
subsidized foreign competition have caused the U.S. share of the global 
aerospace market to fall from 72 percent in 1985 to less than 52 
percent today. The aerospace manufacturing workforce, more than one 
million strong in 1990, now stands at approximately 627,000. Because of 
the cyclical nature of the industry, NASA must manage its human capital 
accordingly. The Agency, for example, may not need solid rocket fuel 
until 2010, but rather than close the production facility, the 
Administration should negotiate with industry to keep it open, thereby 
preserving highly specialized non-recoverable labor skills.
    Our industry also faces a significant shortage of younger, 
technically-skilled professionals. The average age of the American 
aerospace manufacturing employee is now 51; the average age for 
engineers rises to 54. In 2008, 27 percent of aerospace workers will 
become eligible for retirement. On the basis of briefings that I have 
received from NASA, the Agency's workforce is at least as senior, and 
perhaps more so, than the general population of aerospace workers.
    Previewing future generations, foreign nationals now represent more 
than 40 percent of the students who earn engineering and science 
doctoral degrees in the United States. These young people often cannot 
qualify for sensitive domestic defense and space-related jobs. In 
addition, the bipartisan Commission on the Future of the United States 
Aerospace Industry, on which I had the honor of serving, found that the 
math and science testing performance of American students relative to 
their European and Japanese counterparts gradually erodes to the 10th 
percentile or below by the end of high school.
    In summary, these trends mean that in order to maintain its skilled 
workforce, NASA must have a long-term plan for the renewal of its human 
capital and that competition for these skills will likely grow more 
intense.

What are the tradeoffs associated with completing work in-house at NASA 
or contracting them out?

    As the forthcoming National Academies panel report will note, 
industry has the flexibility to move engineers and managers among 
programs depending on customer needs, a key advantage for NASA in a 
constrained budget environment. Work contracted to the private sector 
also offers the Agency the benefit of civil-military integration since 
so many aerospace companies maintain research and production lines in 
both sectors. Access to the people and technology in the companies that 
support the Department of Defense and Transportation will deliver 
significant benefits to NASA. We can summarize the third benefit of 
NASA contractor work in one word: relevance. Private sector work in the 
realm of aeronautics will ensure that federal research has relevance to 
engines and aircraft planned for public use. Research with product and 
application potential subsequently increases the Nation's return-on-
investment at several levels, such as job creation, increased tax 
revenue, new services, and technology spin-offs.
    NASA, however, must preserve its traditional mission of conducting 
basic, laboratory-focused research in areas such as aerodynamics or 
propulsion that yield broad public benefits. In the view of AIA, Agency 
centers, wind tunnels, and other core facilities will always ensure a 
role for government research programs that improve operational safety 
and protect the environment.
    In the area of exploration, NASA obligates more than 80 percent of 
its budget to the space industrial base, giving industry an extensive 
record of systems development and testing that can support every stage 
of the Vision for Space Exploration (VSE). Since the retirement of the 
Shuttle and the early phases of the VSE will demand a shift by NASA 
from operational to broader RDT&E disciplines, it should remain open to 
alternatives for expanded contractor participation in the latter. The 
Aldridge Commission, for example, recommended that NASA designate 
industry as the main service provider for low-Earth orbit payloads.

What are the critical skills that will enable NASA to complete its 
goals in space and Earth science, aeronautics, and exploration?

    NASA's Systems Engineering and Institutional Transition Team, Mr. 
Chairman, informs us that while 50 percent of the Agency's critical 
skills have applicability to only one mission directorate, more than 40 
percent are needed in multiple directorates, and 80 percent fall under 
the category of exploration.
    Bearing in mind this extensive overlap of disciplines and the 
centrality of exploration, I would identify the following as among the 
skills needed by NASA to successfully execute its full range of NASA 
missions:

        <bullet>  Systems engineering;

        <bullet>  Project management;

        <bullet>  Manufacturing technology for human space flight;

        <bullet>  Human space flight operations;

        <bullet>  Fuel technology;

        <bullet>  Aerodynamics;

        <bullet>  Experimental methods;

        <bullet>  Materials technology;

        <bullet>  Advanced space propulsion; and

        <bullet>  Small nuclear reactor skills.

    I would just close this segment, Mr. Chairman, by noting that from 
its inception, NASA has served as an inspirational workforce 
organization for engineers and scientists. The half-century old X-1 
project, for example, defined the post-war synergy among between U.S. 
military forces, industrial capabilities, and research facilities. This 
platform exemplifies the vision that the Agency must sustain to attract 
America's best and brightest.

Does industry have the capacity to successfully absorb additional work 
from NASA?

    This question also serves as an appropriate point for the 
conclusion of my testimony. Without a doubt, industry has the 
personnel, facilities, and flexibility to absorb additional work form 
NASA. The cyclical nature of the aerospace business also means that 
extended partnerships with NASA and other federal agencies will support 
the industrial base in preserving core research and manufacturing 
competencies. This absorption can occur primarily through two of the 
Agency's mission areas:

        <bullet>  aeronautics programs that combines basic and 
        transitional research for the benefit of society; and

        <bullet>  contractor R&D capabilities for executing the Vision 
        for Space Exploration as NASA changes its operational and 
        workforce and requirements with the retirement of the Shuttle.

    Thank you once again, Mr. Chairman, for this opportunity to share 
the perspectives of AIA on the workforce challenges faced by NASA and 
industry. I am optimistic that the two parties can find creative and 
efficient ways to manage their human capital since space systems make 
such a vital contribution to the military and technological power of 
the United States.

                     Biography for John W. Douglass

    John W. Douglass is President and Chief Executive Officer of the 
Aerospace Industries Association, which represents the Nation's 
manufacturers and suppliers of civil, military, and business aircraft, 
helicopters, UAVs, space systems, aircraft engines, material, and 
related components, equipment services, and information technology.
    Mr. Douglass became the seventh full-time chief executive of the 
association in 1998. Before that he served for nearly three years as 
assistant secretary of the Navy for research, development and 
acquisition of defense systems for the U.S. Navy and U.S. Marine Corps.
    A nationally recognized expert in systems acquisition, Mr. Douglass 
has extensive acquisition experience in Congress, the Defense 
Department, and the executive branch as a policy authority, contracting 
officer, engineering officer, test and evaluation officer, program 
control officer, and research director.
    Before being named Assistant Secretary of the Navy, Mr. Douglass 
was with the Senate Armed Services Committee where he was foreign 
policy and science and technology advisor to Senator Sam Nunn and 
served as lead minority staff member for defense conversion and 
technology reinvestment programs.
    Earlier Mr. Douglass completed 28 years of U.S. Air Force service 
and retired as a Brigadier General in 1992. His numerous Air Force 
assignments included service as the Deputy U.S. Military Representative 
to NATO as well as Director of Plans and Policy and Director of Science 
and Technology in the Office of the Secretary of the Air Force. He also 
served as Special Assistant to the Under Secretary of Defense for 
Acquisition.
    Within the Office of the President, Mr. Douglass was Director of 
National Security Programs for the White House, responsible for 
formulating policy on a broad range of national security issues. He 
served as President Reagan's personal representative to the Blue Ribbon 
Commission on Defense Management chaired by David Packard.
    A native of Miami, Florida, he earned a Bachelor of Science degree 
in industrial engineering from the University of Florida, a Master of 
Science degree in industrial engineering from Texas Tech University and 
a Master of Science degree in management science from Fairleigh 
Dickinson University. Mr. Douglass has done postgraduate work at the 
Cornell University Center for International Studies where he was an Air 
Force Research Fellow with the Peace Studies Program.
    Mr. Douglass is a member of the Board of Governors of the Aerospace 
Industries Association and Chairman of the Board of Trustees of the 
National Center for Advanced Technologies. He served on the Commission 
on the Future of the United States Aerospace Industry, which issued its 
final report in November 2002. Mr. Douglass is Chairman of the 
International Coordinating Council of Aerospace Industries 
Associations.

AIA Positions

Member, AIA Board of Governors

Chairman, Board of Trustees, National Center for Advanced Technologies

Chairman, National Institute for Aerospace Studies and Standards

Member:

American Astronautical Society Board of Directors

Council of Manufacturing Associations Board of Directors, National 
        Association of Manufacturers

International Coordinating Council of Aerospace Industries Associations

FAA Research, Engineering and Development Advisory Committee

Industry Management Council, Next Generation Air Transportation System 
        Institute

National Contract Management Association

University of Tennessee Aerospace Advisory Council

                               Discussion

                           Uncovered Capacity

    Chairman Calvert. I thank the gentleman.
    We have a number of questions and we appreciate your 
testimony. Ms. Dawsey, I am going to start with you. You 
brought up the issue of uncovered capacity, and you also 
mentioned NASA is carrying about 1,000 FTEs, or full-time 
equivalents. How many actual employees does that actually 
represent?
    Ms. Dawsey. Currently, it represents 828 employees.
    Chairman Calvert. Given that each employee generally has 
more than just one set of skills, and carries out more than one 
set of tasks, how do you know that eliminating those employees 
won't create new gaps for the Agency?
    Ms. Dawsey. Employees do have, as I said in my oral 
statement, we realize that there are a lot of valuable skills 
in the workforce. What we are doing is we are looking at our 
unfunded, uncovered employees, and focusing the training that 
they need, to develop skills that are useful, and that can be, 
make them viable for other work in the Agency.
    Chairman Calvert. So, are you saying you may not be laying 
off the 800 and some employees, that you are trying to retrain 
those individuals to other jobs?
    Ms. Dawsey. Hopefully not. We are--it is too early in the 
process. We are reassigning new project work to the Centers 
that have uncovered capacity. We are moving new work from the 
Centers that don't have an uncovered capacity issue to those 
that do. We have retraining efforts going on at all of the 
Research Centers. Some of them are four to six month training 
assignments, for the current technical staff to develop new 
skills for the new work. We have training planned for our 
engineering technicians. That is another--probably another four 
to six month training effort to convert them to engineering 
technologists, which will allow them to do more sophisticated 
research work.
    Chairman Calvert. Well, given all that, assuming that 
program is successful, do you have any idea how many employees 
could still face the reduction in force?
    Ms. Dawsey. It is really too early to tell, because the 
work was just announced last week, the new projects and 
programs were just announced by the Administrator last week, so 
the Centers are looking at the requirements, and trying to 
estimate how many of the uncovered capacity will be assigned to 
this new work. We are hoping not to have to do a reduction in 
force. It has always been, and continues to be a tool of last 
resort.

                       NASA's Workforce Strategy

    Chairman Calvert. Dr. Stone, in your testimony, you 
described the NASA Workforce Strategy as, as I understood it, 
seriously deficient. What specific areas are deficient, and 
what specific policies or data do you believe should be 
included in a Workforce Strategy?
    Dr. Stone. Well, first and foremost, I think the thing to 
talk about is the competency management system, that management 
is touting as the method by which it is doing its skills 
calculations and its gap calculations. And I was fortunate to 
find this in my notes.
    In April of 2003, Booz Allen gave a presentation to the 
Union on the competency management system, so that was quite 
some time ago, and what they described was actually a very 
interesting thought of how one could do these things in a 
systematic and quantitative way, and it involved a system of 
five databases that would catalog the various different kinds 
of skills, and it would do it multi-dimensionally, so that each 
one of these databases had a primary skill associated with it, 
and then secondary skills, so they would deepen that dimension.
    But they would also be different kinds of datasets, so 
first of all, there was the current position capabilities, 
which are a list of all the capabilities needed to fill the 
current positions. Then, there was a second database that was 
supposed to be manufactured, which was the actual skills of the 
workforce, and what this reflected was the fact that a 
particular engineer assigned a particular position today might 
actually have a lot of other skills that weren't being used by 
that specific position, and that second database was critical 
to establish what skills are actually available in the 
population of employees.
    Then, there was going to be a demand database of future 
demand for the various different programs, what they would 
need, and there were two others. So, I am not going to go 
through all of them, but the point is they were going to 
establish these five datasets. They were going to then have to 
validate and certify these datasets, and then, once they did 
that, they could actually calculate gaps, by saying okay, if 
the demand database for fiscal year 2009 has this set of 
skills, and our current skills in our database have that, then 
this is our gap. We can calculate it, and figure out what is 
going on.
    And actually, the timeline of this was, by the end of the 
fiscal year 2003, they were going to have validated databases 
for this entire system of software that was being proposed to 
be used by Booz Allen, by--for the Agency. Well, here we are in 
2006, and as far as I know, perhaps someone can clarify this, 
only one database is in operation, and that is the current 
position database, which is the least useful database, and the 
entire strategy calculations that you see were calculated using 
only the primary competency of that database, which is the 
database of skills for the current positions. So, it doesn't 
actually include the skills that the workforce has, or the 
demand skills, and the proper calculations. Now, I know that 
this is a complicated and evolving this, but that is a 
fundamental problem with how they calculated their uncovered 
capacity.
    The second and fundamental problem is that uncovered 
capacity is largely an arbitrary number for the following 
reason. It really hinges on a subjective estimate or judgment 
of good versus bad G&A costs. So, for example, let us say 
hypothetically a Center Director wants to hire a colleague or 
friend to support them in their travel, and carry their things 
for them, and do things like that, they can hire them pretty 
quickly, and get them onboard, and pay them with G&A, and this 
person is on good G&A and is covered.
    Meanwhile, if you have an engineer who is working on a 
project, but the project is short on cash, and needs to buy a 
new computer because a computer broke, they can put that person 
on 75 percent time on that project. That person is then 
partially paid or even fully paid by G&A, and that person is on 
bad G&A, and that person is uncovered and considered actually a 
problem, when they may very well be working on the program that 
we are claiming they are not working on.
    So, the problem is that that number is really fictitious, 
because the Centers have been forced, because of financial 
reasons, to put people on G&A to free up procurement money, and 
this is because fundamentally, the program managers who are 
setting the budgets are too far away from the ground, and don't 
make good estimates, cost estimates for labor costs, and for 
procurement costs, and so, their distant management is not 
allowing the Centers to do their jobs, which is what triggered 
a lot of the financial problems, and then, the uncovered 
capacity. So----
    Chairman Calvert. All right. I appreciate that, Mr. Stone.
    We are going to recess for about 20 minutes. I apologize. 
You heard all those bells and whistles. That means we have two 
votes. So, we have a suspension, and then, we have the passage 
of the supplemental, and right after that, we will come--right 
after the last vote, we will come right back into session.
    So, with our apologies, we will be back in about 20 
minutes.
    Mr. Feeney. Mr. Chairman. Mr. Chairman--on your left here.
    Chairman Calvert. Oh, excuse me.
    Mr. Feeney. It may be a little longer. As I understand, we 
have a swearing in after the first vote, so it might be more 
like 30.
    Chairman Calvert. Oh. And it is a colleague, I think, from 
San Diego, I suspect. Let us give it one half-hour. We will 
come back in right at 11:45. Thank you very much.
    [Recess.]

               Role of In-house and Contracted Employment

    Chairman Calvert.--to reconvene this hearing. I will 
recognize Mr. Udall for his questions.
    Mr. Udall. Thank you, Mr. Chairman.
    I am going to start with Dr. Black. Dr. Black, you noted in 
your testimony that: ``The degree to which the Agency chooses 
to perform work in-house versus by contract will play a major 
role in the number of personnel that the Agency will require.''
    Ms. Dawsey, does NASA have a target for the percentage or 
work it intends to perform in-house, and if so, what is it, and 
if there isn't an approach here, could you talk about the 
metric NASA would use to determine whether there is an 
imbalance between the amount of work done in-house versus that 
done by contractors?
    Ms. Dawsey. Yes, and----
    Mr. Udall. And Dr. Black, I apologize for a little 
misdirection there.
    Ms. Dawsey. So, it is my question, right?
    Mr. Udall. Yes.
    Ms. Dawsey. Okay. The--we don't have a target number. We 
have asked the National Academy of Public Administration to 
actually take a look at the blend of Civil Service versus 
contractor work for us, and what are the guidelines we should 
be using in making those determinations. Right now, we do know 
that any work that is inherently governmental is done in-house. 
We spend about 80 percent of our budget on contracting work 
out.
    Mr. Udall. Do you think the current balance is about right, 
between the in-house and contractor percentages, and if not, do 
you have any sense of how it might be modified?
    Ms. Dawsey. As I said, I have asked NAPA to look at that 
for us.
    Mr. Udall. Anybody else on the panel care to comment? Mr. 
Douglass.
    Mr. Douglass. One comment that I would make, Mr. Udall, is 
that whichever way they decide to go, they need to maintain 
some stability. In other words, if you decide to do certain 
things in-house, you need to commit yourself to that, and stick 
to it. If you are going to do it out-house, you need to do it 
the other way. And there has been, in the past, a phenomenon 
when we have seen administrator to administrator to 
administrator, different views on this, and it is the in-out 
in-out that is--it causes, on both sides of the equation, 
difficulty.
    Mr. Udall. The lack of predictability and the changes 
create that difficulty. Dr. Black or Dr. Stone, would you care 
to----
    Dr. Black. It is like a game show. Who is the quickest to 
the button to talk here? Yeah, I think the issue, at least as 
we look at it on the committee, is that you need to look at the 
full ecosystem, if you will, of the employment base. And if you 
look just at NASA alone, you will get one answer, but if you 
include the broader community, you might get a different 
answer.
    And so, I think you want to optimize those, so you get the 
best program for the Nation out of that. I think also it is not 
just numbers of people, but making sure you have people with 
the right skills, the right experience, so if you have a 
smaller number, but if they are really the good people, you can 
pull it off, as opposed to having a large number.
    So, I would urge as we go forward and look at this, you are 
not just look at the number of people, but the experience base 
and the quality of those people.
    Mr. Udall. Makes sense. Dr. Stone.
    Dr. Stone. Well, according to NASA's website, they have 
16,644 full-time civil servants, and approximately 40,000 
contractors. So, the ratio is about 2.4 contractors per in-
house person, and I think the budget, we were just told, is 80 
percent of the budget goes out of house already. And I think 
one of the things that would--is very important to remember 
when you decide on how to create this balance is something that 
happened not too long ago, but we already seem to be forgetting 
this, which is the Columbia disaster.
    And let me just read something from the CAIB report, which 
is: ``Experienced engineers changed jobs. NASA grew dependent 
on contractors for technical support. Contract monitoring 
requirements increased, and positions were subsequently staffed 
by less experienced engineers who were placed in management 
roles. Collectively, this eroded NASA's in-house engineering 
and technical capabilities.'' And this was deemed to be one of 
the primary factors in the Columbia disasters, so we need to 
keep that in mind, that as NASA grows, and it will clearly need 
to have a growing participation of academia and the private 
sector, it needs people in-house to be monitoring and 
overseeing these activities, and that needs to be a credible, 
technically proficient workforce in-house, and so, I would say 
that that is the key factor to remember when you tweak that.
    Mr. Udall. Dr. Black, coming back to you, you said that 
this question is one of the more critical, if not the most 
critical decision that NASA must make. How would you suggest 
NASA and the Congress go about making that decision?
    Dr. Black. Well, I think the view of the committee, and 
certainly, my own personal view, would be, as I say, to look at 
this in the broadest sense. This isn't just a NASA problem that 
must be viewed in that context. So, I would, and this is 
myself, the committee hasn't yet reached a recommendation on 
this point. I want to be clear on that.
    I would suggest that--have NASA sit down with other 
elements of the government that are engaged in space-related 
research, DoD and others, sit down with the industry people, 
sit down with the academic people, recognize that this is a 
joint national problem, and therefore, come together and see if 
we can't have a solution that recognizes this. If you--I worry 
a little bit that if you try and optimize this just inside of 
NASA, that you may, in fact, not end up with the best solution.
    Mr. Udall. Thank you. Ms. Dawsey.
    Ms. Dawsey. I would like to add that I agree with Dr. 
Stone. We do realize that we need to retain program and project 
management skills and decision-making, and in making sure that 
we are responsible stewards of the taxpayers' money, and we are 
making smart buying practices, decisions, and we are looking at 
the work that we retain with that in mind. And as our 
Administrator has recently said, we are undertaking a 
multigenerational program of sustained exploration, and we must 
ask where our intellectual capital should reside.
    Should it be outside the government, in the hands of a 
prime contractor, whose interests may change over the years, or 
should it remain in-house, where we can sustain the program's 
momentum, and retain an institutional memory of the system and 
cost trades that are made, and a strong understanding of why 
the architecture is the way it is. And we don't believe that it 
is wise to contract out these vital functions. Thank you.
    Chairman Calvert. Thank you. Mr. Honda.

                 Workforce Gap in Shuttle to CEV Policy

    Mr. Honda. Thank you, Mr. Chairman. I am going to ask a 
question that doesn't really deal with the current situation, 
but acknowledges it by asking another question, and this is for 
both Ms. Dawsey and to Dr. Stone.
    And the question reads this way. NASA has identified 
approximately 1,000 full-time equivalent employees worth of the 
uncovered capacity that was discussed earlier in the NASA 
workforce. NASA's Workforce Strategy report states that the 
bulk of the current uncovered capacity has come about because 
of, and I will quote the report: ``cancellation of the Space 
Launch Initiative, redirection of funding for exploration 
research and technology developments to the CEV, reduction of 
funding for biological and physical research for the CEV, 
reduction in funding for the aeronautics program, and 
restructuring of the science program, subsequent redirections 
of funds to higher priority missions than science.''
    In other words, it would seem that the uncovered capacity 
at NASA is not because the skills of those employees are no 
longer needed. Rather, it appears to be the direct result of 
the Administration's unwillingness to propose a NASA budget 
level sufficient to fund the additional demands imposed by the 
President's Exploration Initiative on NASA. As a result, 
something had to give, and that something was the workforce.
    The question is, do you agree or disagree, and that would 
be the question towards Ms. Dawsey and then, Dr. Stone. Then I 
have a followup quick question.
    Ms. Dawsey. Okay. The Vision for Space Exploration was the 
President's vision, and it was endorsed by Congress, and we 
developed the budget that we believe helps us implement the 
vision.
    And yes, when you refocus work, when you redirect programs, 
you will have a certain skillset that you don't need any 
longer, and NASA does have that issue. We are looking at the 
unfunded, the uncovered employees, though, in terms of re-
skilling them to move towards the exploration mission. That is 
what we have been working very hard on. We have retraining 
programs that include working with the colleges and 
universities to re-skill our employees. We have rotational 
experiences, on the job training planned, we have mentoring and 
coaching programs. We are developing new program project, or 
enhanced program project management training, and systems 
engineering training. We have memos of understanding with DoD 
to help re-skill our workforce to do the new work.
    Mr. Honda. Dr. Stone.
    Dr. Stone. I would fundamentally agree with your assessment 
that this is not a workforce crisis, but a budget crisis. So, I 
think you are absolutely correct, and I would like to make two 
quick followups to that, which is that what really is going on 
is NASA is being asked to do two jobs. It is being asked to 
continue Shuttle and IIS, which was the job it was working on, 
and now, it has a new job, which is develop the CEV, CLV, and 
an entire new generation of spacecraft, and they get one 
paycheck.
    There is new work here, and no money to do the new work, 
and that has driven the crisis. But the second thing I would 
like to point out is that headquarters seems to repeatedly say 
that Congress has endorsed the Vision for Space Exploration, 
and I agree they have, but what--my understanding of what the 
Science Committees, in both the House and Senate side did, is 
that they endorsed, with the Authorization Act, a funded Vision 
for Space Exploration, and they funded aeronautics, and they 
funded science, as well as CEV and Shuttle ISS. The funding 
levels put forward by the Administration don't meet the funding 
levels that the Authorization Act asked for, and so, it is 
unfair to say that the committee has somehow endorsed that 
version of the Vision for Space Exploration, because my 
understanding is that the endorsement, you know, came with some 
money in the Authorization bill.
    Mr. Honda. Thank you, and I would--the other two care to 
comment in terms of I hear the term short-term and long-term. 
How does that--the situation fit in terms of the long-term?
    Mr. Douglass. I can just add to something Dr. Black said a 
few minutes ago, and that is that back in 2003, I was on the 
President's Commission on the Future of the Aerospace Industry, 
and it is absolutely true that the whole ecosystem, as he 
called it here, DoD, NASA, FAA, Department of Transportation, 
NOAA, the military services within the Department of Defense, 
and industry are all facing the same problem, in that there is 
a limited workforce out there, and it is aging, and it has to 
be replaced. And in regards to the uncovered positions, it is 
more--it appears from the outside looking in to be more of a 
funding issue than a national requirements issue.
    Mr. Honda. Thank you.
    Dr. Black. The committee has looked at this, and at least 
in terms of the unfunded personnel issue, we have decided that 
is a short-term issue, and so, we are not going to really try 
and address that. We have divided our frame of reference up 
into two other windows. One is sort of the five year out, and 
then, beyond that, and it is the committee's sense that NASA 
currently does not have the expertise it needs in that five 
year window to do the task in front of it, if you look just at 
the NASA workforce. And so--and that is not likely to be 
remedied by hiring young people or training, in the timeframe 
that is involved.
    And this gets back to my remark earlier about you really 
have to have people who understand these issues, particularly 
in the systems engineering and other areas. So, that is why I 
think if you look at the workforce more broadly than just NASA, 
in the five year timeframe, that is where you are going to have 
to look to deal with that.
    In the longer timeframe, I think it is appropriate to think 
about the training and hiring and bringing people in. The fact 
is that if you look at the opportunities present in NASA today, 
to get real hands-on experience, they are very, very limited, 
and one of the things that has made, I think, the DoD very 
successful, and John can speak better to this than can I, is 
that there were always a lot of projects going on, so people 
could get experience cradle to grave on what is involved in 
running these big projects. That opportunity really isn't there 
in NASA today.
    Mr. Honda. Mr. Chair, just--I know my time has run out, but 
I just wanted to ask that question to refocus. For the purpose 
of understanding that, folks here are trying to do the best 
they can with what they have got. The good thing is that the 
redirection of the mission has changed, because we have a new 
Administrator who is a scientist, and we understand that that 
is positive. But for the general public, they are like 
teachers. They are asked to do some impossible task with 
decreasing resources or revenue, and I think that it is totally 
unfair for all members, in that, you know, if we really say we 
support NASA in its long-term and short-term projects, then we 
got to put our money where our mouth is, and fund it properly, 
so that all folks can feel as if they are moving forward in 
ways that they were meant to be.
    And so, I appreciate all four responses. Thank you, Mr. 
Chairman.

                     Workforce Transition Policies

    Chairman Calvert. I thank the gentleman. I've got to point 
out that, you know, we have a tradition around here of 
authorizing things, and sometimes, they don't get funded by the 
appropriators, so NASA is not alone in that distinction, 
unfortunately. But we are doing the best we can to lobby our 
friends in the Appropriations Committee to come up with some 
additional resources.
    Before I go to Ms. Lee, I just wanted to ask a quick 
question for the record on the Shuttle and the Shuttle to CEV 
gap. Obviously, that was one of the two things, Ms. Dawsey, 
that you brought up as a pressing issue for the NASA workforce. 
What are you doing, as far as actions, incentives, to make sure 
that we continue to keep the workforce that is necessary to 
safely fly the Shuttle's remaining flights, and at the same 
time, coordinate with the contractors that are working directly 
for that program, as we transition to the CEV, and attempt to 
minimize that gap? I mean, this is--it is going to take all of 
Mr. Griffin's five Master's degrees and Ph.D.s to figure this 
one out, because it is a difficult problem with the amount of 
resources that he has, and I think he is the right guy for the 
job, but it is going to be a tough one.
    So, what is your part of this, Ms. Dawsey, to keep the 
folks working and motivated, and making sure we keep that gap 
at a minimum?
    Ms. Dawsey. Okay, as I see it, I have four answers. The 
Shuttle, we have transition tools, we have retention tools, and 
we have staffing tools, and for the transition, we are doing 
workforce sharing between exploration systems and space 
operations, and we have people working on detail assignments 
and working in matrix situations, so there is on the job 
learning as we go, on the exploration systems.
    There are also retraining, as I have mentioned before. We 
take that very seriously, because we really do believe that 
with some of our employees, a reasonable amount of training 
will make them ready to take on the new exploration 
assignments. We are also making reassignments as people are no 
longer needed on Shuttle, so they can be reassigned to 
exploration. We are doing that.
    And we have what we call a CTAP, a Career Transition 
Assistance Program going, that help employees if they are 
concerned about working at other centers, that they get 
counseling, and they get help on looking at what life is at 
other Centers, what the opportunities are there, in terms of 
schools and communities, et cetera.
    In terms of retention, the--we are lucky, because the 
mission is exciting, both keeping Shuttle flying, and looking 
forward to the new exploration work. So, there is a lot of 
interest in our employees to stay with us. We have a very low--
I am sorry, attrition rate. And what makes the retention 
easier, too, is that a lot of the systems and a lot of the work 
is Shuttle-derived. A lot of the exploration work is Shuttle-
derived, so people see that they do have a place in where we 
are going.
    We also have retention incentives, and like we can pay 
relocation bonuses, qualifications pay. We can give temporary 
promotions, and then, in terms of if that doesn't work, we have 
staffing tools that we can use. We can hire people on flexible 
term appointments, and convince them to stay if they have 
skills that we do need, because we do, through the Flexibility 
Act, the ability to convert them noncompetitively to permanent 
positions.
    We also have emergency appointment authorities. We can hire 
and are hiring retired employees back into the workforce. And 
we are using experts. We can use experts and consultants, and 
we are able, because of the Flexibility Act, to offer 
attractive compensation packages.
    When it comes to the contractor workforce, we are working 
closely with our contractor partners. They have their own human 
capital transition plans. They vary from one contractor to 
another, but we are working with them to let them know where we 
are going with our planning. And we can't, we are restricted 
from a lot of what we can do with contracting, the contracting 
partners, but they are sitting there involved in our planning, 
and will continue to be.
    Chairman Calvert. Thank you. Ms. Lee.

                   Impact on the Scientific Community

    Ms. Jackson Lee. Thank you very much, Mr. Chairman, Mr. 
Calvert, and Mr. Udall.
    Let me offer my great appreciation for just taking a moment 
to hold such an important hearing. I will spend a good deal of 
my time, and let me thank the witnesses on offering, if you 
will, my deeply embedded outrage for where we are today.
    I would say that each of you are diligent witnesses, 
committed to your testimony, but frankly, we are in a heck of a 
predicament. I understand, in an anecdotal story, that one of 
our colleagues was visiting Google, and of course, the relation 
is extended, and was looking to meet the new recruits. A huge 
percentage of them were from foreign countries. Certainly, none 
were Hispanic and African-American.
    So, one would ask the correlation, and I would suggest that 
a NASA which I view as the action engine of science, it is 
where we act on our scientific findings and beliefs, whether we 
gather the brightest of the bright, reflecting the diversity of 
America, and we do good work. And that means that biological 
and physical research, aeronautics programs, science programs, 
higher priority missions in science, all these that are part of 
the mission of reduction, we are simply undermining the 
prominence of the United States in science and also, doing a 
Band-Aid approach to this employer-employee relationship.
    The idea of 1,000 FTEs, as I understand it, reduced, if I 
have that number, I heard 1,000 and 800, is not something that 
I can applaud, and frankly, I believe is unnecessary. And with 
due respect to my Chairman, who I know is a--just an 
outstanding resource for NASA, along with the Ranking Member, 
you are right that the authorizers have, in fact, heard the 
call, and recognized the importance of NASA.
    But I am not even going to blame the appropriators. There 
has to begin to be made choices, and the choices have to be 
made from the bully pulpit, which is the White House, and 
budget decisions have to be made as to whether we continue a 
war, which we will debate this week, whether we find a way to 
transition, which we will debate this week, in Iraq, whether we 
will pay for tax cuts, or whether we will invest in what I 
think has been one of the singular most engaging international, 
if you will, elements of what the United States has to offer. 
We have seen the International Space Station, for example, 
truly be that. And it still sends chills up many, many 
Americans' spine, as they watch the collaborative effort, and 
NASA Shuttle or NASA CEV launch into space.
    So, I would ask, Dr. Stone, for you to be as forthright as 
you possibly can be. We find ourselves talking about healthy 
Centers, and covered capacity. If we just did our jobs, if we 
just re-engaged science, aeronautics, if we just expanded our 
programs, so that we could be competitive, we would develop a 
pathway of new engineers and other disciplines, and be able to 
keep individuals who are productive. I am certainly well aware 
that every institution has to reform itself, so it is 
percolating at its peak, but give me a sense of what we can do 
if we were to be aggressive, if we were to turn the corner of 
funding, if we were to be serious about the pathway of training 
for young people who are not in the sciences, what, then, would 
we have out of NASA?
    [The prepared statement of Ms. Jackson Lee follows:]
        Prepared Statement of Representative Sheila Jackson Lee
    Mr. Chairman, I thank all of the individuals testifying today. Let 
me welcome Ms. Toni Dawsey, Dr. David Black, Mr. John Douglass, and Dr. 
Lee Stone.
    The Subcommittee hearing on the Issues Affecting the Future of the 
U.S. Space and Engineering Workforce discussed the effectiveness of the 
National Aeronautics and Space Administration and the structure of its 
workforce. We heard from the National Research Council, which informed 
us of a number of concerns that I hope to better understand today.
    It appears that there are some problems with the current structure 
of the NASA workforce, such that there are 1,000 full-time employees 
who are not assigned to any specific program and that much of NASA's 
tasks may be better suited for research in universities and companies 
in the country. This raises the potential issue of downsizing of the 
Agency.
    There is also a conflict within NASA on the issue of the status of 
Term employees versus Permanent employees. The number of Term employees 
is roughly five times the amount it was FY 2003. The NASA employee 
union testified that this is a result of NASA's disregard for the civil 
service tenure process and could lead to a decrease in the quality of 
its workforce. NASA, however, maintains that this number should not 
increase significantly in the future, and that Term employees have the 
advantage of being hired to work on specific projects only. I would 
appreciate it if our witnesses today could expand our knowledge on this 
topic.
    I am also particularly interested in hearing what our witnesses 
have to say regarding the responsiveness of NASA's Workforce Strategy 
to the reporting requirements in the NASA Authorization Act of 2005.
    While I am concerned about ensuring that all NASA employees receive 
the treatment that they need, I also seek to maintain a workforce 
strategy that is competent and cost-effective. I hope that our 
witnesses today will be able to shed some light on these issues.
    Thank you Mr. Chairman, and I yield the balance of my time.

    Dr. Stone. Wow, what a question.
    I am happy to say that I agree with your concern that for 
the last couple of years, we have been talking about 
contraction, while also talking about a vision, and the vision 
that you see of NASA not only accomplishing the Vision for 
Space Exploration, but accomplishing its role as an engine of--
that manufactures a new generation of scientists and engineers 
by inspiring kindergarteners and grade school kids, and then 
bringing them through the process of attracting them into 
graduate schools and universities, to learn to be engineers and 
scientists, and then attracts them onwards to be productive in 
these areas, is something that NASA traditionally did. I am a 
NASA employee because I watched Neil Armstrong step on the Moon 
when I was a kid, and it was amazing, okay?
    So, we know this, and I don't know why we are here talking 
about laying off 824 people. This is crazy. We have a vision 
that has been put forward by the President of the United 
States.
    Ms. Jackson Lee. Right.
    Dr. Stone. And that vision says let us go to Mars, okay? 
And then, they turn around and say well, we need to lay off the 
life scientists. We are not going to Mars without life science 
breakthroughs.
    Ms. Jackson Lee. Absolutely.
    Dr. Stone. Okay? And so, we need to be putting not only our 
money where our mouth is, but to really think about what it 
means to embrace the vision for what it means, which is that 
the use of the word vision means something. It means it is 
going to be a journey for the next 30 years, and it is my two 
year old, who is, you know, going to be the generation that 
watches the man land on, or the woman land on Mars, and we need 
to go back to the inspired vision that we had in the Sixties 
for Apollo, and that will take not only money, but consistency, 
and as I think my colleagues here have said, stability. We 
can't be programming and reprogramming and reprogramming the 
same things. We need to stick with it and do it.
    And the workforce is ready to do it, and we are here, and 
if anything, we need a much larger workforce within NASA and 
across academia and the private sector.
    Ms. Jackson Lee. And disrupting people's careers. If the 
Chairman would indulge me, I just want to make this point. This 
is a hearing about workforce. It is 1,000, and then, it is 
actually 800, but it also is wrapped very closely and keenly 
into safety. And the more disruption you have, not only in 
career, but stream of thought, continuity, history, I know 
where this is, as the person who knows where this is, or what 
happened, trains the incoming, bright eyed, college M.A., 
Ph.D., that comes into NASA, then, ultimately, in their later 
life, in some wonderful corporate situation, where they are 
again boosting the economy, then we also have, I think, a 
failed system.
    This requires funding. This requires telling authorizers, 
appropriators, that this is important for the United States, 
and I want a check written to build our scientific community, 
because we are losing it, and we are losing the international 
race.
    I yield back.
    Chairman Calvert. I thank the gentlelady, and in the 
interests of bipartisanship, I would point out, as I know the 
gentlelady knows, that the prior Administration flat-lined NASA 
also for the eight years that they were in, and so, we are 
trying to increase that, along with the mission that everybody 
in this audience knows. So, we are attempting to do exactly 
that.
    Ms. Jackson Lee. If the gentleman would yield just for one 
moment, I have claimed bipartisanship in this issue. We now are 
dealing with the cards that we have, and I would love for it to 
be bipartisan, where this Administration wakes up and provides 
the funding that is needed to build our scientific community in 
the Federal Government back again. We are obviously again, I 
repeat, losing the international war, if you will, on 
scientific competition. And I welcome the bipartisanship.
    Chairman Calvert. I just--I thank the gentlelady. I was 
just pointing out that we have had this problem a long time.
    Anyway, on to Mr.--my friend from Louisiana, who has joined 
us. The gentleman is recognized for five minutes.

                 More on Workforce Transition Policies

    Mr. Melancon. Thank you, Chairman Calvert. I appreciate it.
    Ms. Dawsey, as I am sure you know, the Michoud Assembly 
Facility is near my district, and I am very interested in 
making sure that the technical capabilities present at Michoud 
remain there, and remain sharp as we transition to this next 
exploration vehicle.
    In your testimony, you state that NASA is attempting to 
manage the transition to the Space Shuttle workforce in a way 
that balances agencies' and employees' needs, capitalizing on 
the capabilities of that workforce to advance the vision for 
space exploration, while recognizing that fewer people will be 
required to sustain exploration operations.
    One, how much of the existing Shuttle Civil Service and 
contractor workforce do you estimate will be needed for 
exploration operations? Two, what are the NASA plans for the 
rest of the Shuttle program workforce? And third, if there is 
anyone else that would like to comment on these questions, I 
would welcome that.
    Ms. Dawsey. I am sorry, the first part of your question.
    Mr. Melancon. How much of the existing Shuttle Civil 
Service and contractor workforce do you estimate will be needed 
for exploration operations?
    Ms. Dawsey. We don't have a precise number. As I said, we 
are working very hard to re-skill employees who are on Shuttle. 
Many of the employees, we won't even have to retrain, because 
exploration is--the Crew Exploration Vehicle and the Crew 
Launch Vehicle are Shuttle-derived. And so, we don't have an 
exact number. We are--as I said, we are continuing to follow 
the progress of Shuttle, and analyzing as we go, and hopefully, 
I just want to make sure that I was clear, I don't see that we 
have to lay off 800 or 1,000 employees. After the new work is 
assigned, we are hoping that there are a lot fewer people. We 
are optimistic that we will be able to transfer the----
    Mr. Melancon. People within.
    Ms. Dawsey. Pardon me?
    Mr. Melancon. People within--and retrain.
    Ms. Dawsey. Yes. Yes.
    Mr. Melancon. And the contractor portion.
    Ms. Dawsey. The contractor workforce, we are working with 
them. They--the contractor--our contractor partners are 
involved in the planning process. They have their own human 
capital transition plans.
    Mr. Melancon. And I wasn't looking to hold you to a number, 
but I was just wondering if you had a percentage or a ballpark 
number on either of those.
    Ms. Dawsey. No, we don't know yet. We really don't know 
yet.
    Mr. Melancon. So, it is still too early. The--and what's 
NASA's plans for the rest of the Shuttle program workforce? I 
mean--just do the retraining and----
    Ms. Dawsey. Yeah, we want to retrain and reassign. When 
they are not needed on Shuttle, we will move them to the new 
exploration projects. That is our plan, just to keep----
    Mr. Melancon. Is there any transferring between different 
worksites that--to accommodate the retraining and the new ones?
    Ms. Dawsey. Yes, we have--I am sorry, I--we have workforce 
sharing. We have matrix assignments. We have details, and we 
have reassignments, and I think that covers it. But we are 
working. Our head of our--William Gerstenmaier is head of our 
Space Operations Mission Directorate, is working with Scott 
Horowitz, the head of Exploration Systems, and to make sure 
that they are maximizing the use of employees in both of their 
projects. We consider it very, very important that we do have 
our employees who are currently working on Shuttle able to move 
on to the exploration mission.
    Mr. Melancon. Does anyone else--might have any comments 
on----
    Dr. Stone. I would just like to add one brief thing, which 
is that the fear of RIF and layoff is almost as bad as RIF and 
layoff, and this continued wavering, and inability to just 
stand behind the workforce, and say we are going to keep you is 
really harmful. We are losing our best and our brightest young 
people, who are saying I am not sticking around to get RIFed. I 
am going to go take an academic job, and they leave NASA. And 
we are bleeding to the private sector, too. People at Ames are 
going to Google. So, it would be very important, and this is 
the first recommendation, that HR here just stop the RIF 
threats, and just say listen, we are going to retrain you. We 
are going to put you to work, and a matter of fact, as I said 
with respect to the uncovered capacity, a large percentage of 
these people are already working, and it is a miscalculation of 
the numbers.
    Mr. Melancon. Is there anything on the part of Congress 
that we can do to help get that type of action taken quicker?
    Dr. Stone. Well, we--IFPTE has asked the appropriators to 
put language in the fiscal year 2007 appropriations bill that 
said that NASA shall not spend any money on preparing for or 
executing a RIF, but these are continuous--it is a continuation 
of language that is already in the Authorization bill, but that 
expires next March. We--that is good for the short-term, but 
what we really need is a statement by the Administrator, and 
perhaps, the best way that Congress could work this is to have 
a nice, private conversation with him about this, because if we 
would stand from the top of Mount Olympus, and say there will 
be no RIFs under my watch, and we are going to do it together, 
that would do wonders for keeping morale up, and for keeping 
people from leaving the Agency, and to enable us to recruit 
people who don't want to recruit themselves into something, 
last hired first fired kind of thing. They would say okay, 
there is a job for me at NASA.
    Mr. Melancon. Thank you, Dr. Stone. Thank you, Chairman 
Calvert. Maybe if we all heard that, we can look at doing 
something.
    Chairman Calvert. And by the way, I thank your workforce in 
your facility for saving that facility during the Katrina 
hurricane.
    Mr. Melancon. That was unbelievable.
    Chairman Calvert. They did a fantastic job. They should be 
thanked, and we need to do--we need to get down there, and I 
have talked to you about doing that, Charlie. We--get a trip 
together, and maybe get the committee, and head on over there, 
and----
    Mr. Melancon. I would be happy to welcome you down there, 
and take you down.
    Chairman Calvert.--thank you in person. Appreciate your----
    Mr. Melancon. Thank you.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman Calvert. Yes.
    Ms. Jackson Lee. If you would yield for a moment, I would 
just, if I might, have unanimous consent to just ask a quick 
question of Ms. Dawsey, in following up with Mr. Melancon, if I 
might.
    Chairman Calvert. Very quickly, because I know I am going 
to recognize Mr. Udall, and I am supposed to be someplace, so--
--
    Ms. Jackson Lee. And then, I will be quick, or I will yield 
to Mr. Udall, and go after Mr. Udall.
    Chairman Calvert. Go ahead, gentlelady.

                    No Talk of Closing Space Centers

    Ms. Jackson Lee. My understanding is that there are ten 
under the concept of healthy Centers, and we have mentioned one 
in Louisiana, and there are many. You are sort of talking to 
people across America who are in these Centers, working very 
hard, Johnson and certainly across America. In this RIF that we 
hope maybe we won't hear about, is there any intent to close 
Centers?
    Ms. Dawsey. No.
    Ms. Jackson Lee. So that is not on the radar screen----
    Ms. Dawsey. No.
    Ms. Jackson Lee.--or being discussed----
    Ms. Dawsey. No.
    Ms. Jackson Lee.--at this time?
    Ms. Dawsey. It is not.
    Ms. Jackson Lee. So, we just have the issue of employment. 
I appreciate it. Many are concerned about their Center being 
closed.
    Ms. Dawsey. No.
    Ms. Jackson Lee. I yield back.
    Chairman Calvert. Well, we are certainly not looking in 
Houston.
    Ms. Jackson Lee. I yield happily back. Thank you very much.
    Chairman Calvert. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. I know we want to 
conclude the hearing, but I did want to notify the panelists, 
if I might, that I would like to extend questions to you that 
you could respond to us, I think, within a week or ten days, 
dealing with the age distribution dynamic, and I think each one 
of you has an interest and has a point of view, but I wanted to 
ask the Chairman if we could do so, and we will get those 
questions to you about how we best work with the age 
distribution situation.
    Mr. Chairman, with that, I would yield back.
    Chairman Calvert. I thank the gentleman. I have a number of 
questions also. I wish I had more time to give them here in 
person. But I will submit them in writing, and hopefully, we 
will have a quick answer to those questions. So, with that, I 
thank all the witnesses for coming out, and I certainly thank 
the panel, and we are adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              
                   Answers to Post-Hearing Questions

Responses by Toni Dawsey, Assistant Administrator, Human Capital 
        Management; Chief Human Capital Officer, National Aeronautics 
        and Space Administration (NASA)

Questions submitted by Chairman Ken Calvert

Q1.  What is the schedule and budget for implementation of the 
Competency Management System?

A1. The Competency Management System is currently being utilized for 
the purpose of helping with workforce planning and identification of 
employee expertise. The application and associated business processes 
are being reviewed and enhanced to adapt to the changes in the Agency's 
business environment, including specific mission needs and current 
workforce issues. Final deployment of the application to all employees 
requesting identification of their competencies is scheduled for 
completion for fall 2006. Other implementation milestones include 
conducting a new workforce competency gap assessment during the fall 
2006 in conjunction with the Agency's FY 2008 proposed budget 
submittal, and integrating the workforce skills gap information with 
the Agency's employee development process. No additional funding has 
been identified or needed to implement these enhancements. The current 
budget for continued operations of this project is less than $90 
thousand and 1 civil servant Full-Time Equivalent (FTE).

Q2.  In the hearing, you testified that it is too early to know whether 
a Reduction-in-Force (RIF) will be needed. What are the criteria for 
determining whether a RIF will be necessary? When do you expect that 
you will know whether a RIF will be necessary? How far in advance of 
actually implementing a RIF, will you need to start the planning?

A2. Determining if or when a RIF might be necessary is contingent on a 
number of factors. Among these is a determination that there is a 
reasonable expectation that certain workforce skills are no longer 
needed, or no longer needed in the quantity they once were, to 
accomplish the mission and goals of the Agency. If the number of 
employees possessing the unnecessary skills is unmanageably large and 
cannot be reduced to a manageable level through other means, a RIF 
might be necessary. In addition to workforce skill changes, budget 
reductions or reprogramming may trigger the need for a RIF. However, 
before resorting to RIF other efforts to resolve the workforce 
imbalances through voluntary means would be pursued. These include 
encouraging voluntary attrition through a buyout and early out 
authority, internal reassignments, retraining, and other similar 
activities.
    With regard to when a RIF might be necessary, the Agency is 
continuing its efforts to assign work packages to Centers to reduce 
their level of uncovered capacity. This activity is critical to 
determining whether there is an unmanageably large number of employees 
whose skills are no longer needed. If there is a large number of 
employees whose skills are not needed then we would pursue voluntary 
attrition activities before considering a RIF. Since this work is still 
to be completed, it could be several months or longer before we will 
know if a RIF is necessary at a future date.
    The amount of time needed to plan and implement a RIF is dependent 
on the complexity of the RIF, to include the number of employees 
involved, the range of skills that are being reduced, the completeness 
and availability of RIF retention data, coordinating with external 
stakeholders, assigned resources, etc. Employees are entitled to a 
minimum 60 day advance notice of a RIF. However, due to the 
complexities involved in actually conducting a RIF, planning may take 
several months to over a year, depending on the complexities of the 
individual situation.

Q3.  You announced at the hearing that the uncovered capacity currently 
amounts to 828 Full-Time Equivalents (FTEs). How many individual 
employees does this correspond to? How many employees are 100 percent 
uncovered? How many are more than 50 percent uncovered? NASA briefed 
the Committee staff to expect the level of uncovered capacity to remain 
at approximately 1,000 FTEs for the next five years. What factors cause 
this estimate to remain constant despite normal attrition, work 
transfers, buyouts, and other activities taken by the Agency?

A3. The 828 uncovered FTEs--the amount as of the date of the hearing--
corresponded to 1,278 civil servants. There are 534 employees who were 
100 percent uncovered and 868 employees who were more than 50 percent 
uncovered. (The 868 figure includes the 534 that are 100 percent 
uncovered.)
    NASA's efforts over the past two years to reduce uncovered capacity 
have been successful in reducing the problem by two-thirds, so genuine 
progress has been made. We continue to work on actions that are 
reducing the current uncovered capacity to a lower, much more 
manageable level. Therefore, our latest estimates are such that we no 
longer believe that the level of uncovered capacity will remain at 
approximately 1,000 FTE for the next five years, but will be smaller by 
a still-to-be-determined amount.
    The key factor contributing to the continuance of the uncovered 
capacity problem is the significant change in program content of the 
Agency. This resulted in changes to work and workforce requirements, 
which in turn created a diminished need for skills in certain technical 
areas and an increased need for skills in other areas. Addressing the 
skills' mismatches takes considerable time since actions such as 
redistributing work to locations having uncovered employees requires 
careful analyses and planning to ensure that proposed work transfers 
would not sacrifice mission success. Even retraining efforts would not 
result in immediate, noticeable results since highly technical skills 
needed for the work cannot be quickly developed. Attrition alone cannot 
solve the overall problem of having the right number of employees with 
the right skills, since the individuals who choose to leave the Agency 
are not necessarily the employees who are uncovered or in areas of 
excess skills.

Q4.  The International Federation of Professional and Technical 
Engineers (IFPTE) testified that the uncovered capacity problem was 
created by a policy of ``full-cost recovery.'' They argue that:

         Program managers are using what was once civil service salary 
        money to pay for procurement and that, in turn, makes Center 
        management divert money that once was available to pay for 
        programmatic activities to increase the Center G&A needed to 
        pay for the ``uncovered'' salaries. The net effect. . .is the 
        creation of the false perception that there is a mass of civil 
        servants who are not performing useful work and are not needed.

     Do you agree or disagree with this claim? Please explain.

A4. We disagree with these statements. Full cost accounting did not 
create the uncovered capacity situation. The ``uncovered capacity''--
the segment of the workforce not currently charging their time to 
funded NASA programs or projects--was caused by program/project changes 
and cancellations and budgetary constraints. More specifically, the 
workforce misalignments came about because of cancellation of the Space 
Launch Initiative, redirection of funding for exploration research and 
technology development to the crew exploration vehicle, redirection of 
funding for biological and physical research to the crew exploration 
vehicle, reduction in funding for the aeronautics program, 
restructuring of the science program, and redirection of funding from 
multiple programs to the Space Shuttle to enable continued flights 
through program end. The civil servants supporting those programs who 
have not yet been assigned to new projects represent the ``uncovered'' 
workforce. Although full cost accounting did not create the uncovered 
capacity problem, it enables the Agency to identify that segment of the 
workforce since it allows understanding of the true costs of the 
Agency's activities. Because full cost accounting allows NASA to 
identify the scope and location of the uncovered workforce--something 
that could not be done before--there is a perception among some 
individuals that full cost has in some way contributed to the problem.
    In addition, the statement that Center management can divert money 
from programmatic activities to increase the Center G&A to pay for the 
uncovered salaries is incorrect. Under the full cost governance 
structure, Mission Directorates and Program Managers control the 
funding and the Center G&A rates are agreed to by the Mission 
Directorates during the budget formulation process. Center management 
cannot divert programmatic funding and cannot increase the Center G&A 
rates.

Q5.  Experience from the end of the Apollo and Titan IV programs 
suggests that personnel costs will increase as the program nears its 
retirement date. Does NASA expect its shuttle workforce costs will 
increase as the program nears retirement due to increased use of 
workforce incentives? If not, why not?

A5. Although it is reasonable to assume that the use of retention 
incentives may increase as the Shuttle program nears termination, the 
increases may not be significant. The results of a recent survey of the 
Space Shuttle civil service workforce indicate that monetary incentives 
will not be the most important factor in retaining Shuttle employees 
until program termination.
    As part of the Agency's effort to plan for Shuttle execution, 
transition, and termination, civil servants assigned to the Shuttle 
Program were asked to provide feedback on their intentions to stay with 
the program and the factors that would motivate them to stay or leave. 
The response rate was very good (44 percent), and overall the responses 
indicated substantial commitment to the program. When asked to rank the 
factors that would influence them to remain with the Space Shuttle 
Program through program termination, the top factors were: having 
meaningful work in the Shuttle Program; commitment to the program and/
or NASA; ability to make a difference in the program; and assurances of 
having interesting future work (e.g., Constellation Systems Program 
work). Monetary incentives were rated lower.
    NASA intends to build on this commitment to the program, strengthen 
communication with the Shuttle workforce, and respond to the factors 
that appear to be important to retaining employees to program end--
recognizing that there will be individual instances in which the use of 
monetary incentives will be necessary to retain critical skills.
    NASA will use all available workforce management tools to retain 
the required workforce, as identified by the analysis discussed above, 
through Space Shuttle fly out, assembly and operations of the ISS, and 
during the transition to the Constellation Systems program. Several of 
these tools were provided to the Agency through the NASA Flexibility 
Act of 2004.

Transition Tools--To facilitate this workforce transition, particularly 
during the early stages, the programs will, as appropriate, use 
workforce sharing, matrix, and detail arrangements as well as a level 
of employee retraining. For Shuttle employees who are not reassigned to 
Constellation Systems or other programs, NASA will make every effort to 
place them elsewhere in the Agency where their skills can be used or 
assist them in transitioning outside of the Agency if desired. The goal 
is to maintain ten healthy centers, and one way to do this is to focus 
more on in-house systems management and engineering.
    NASA has a contract in place to provide comprehensive career 
transition assistance and placement services to employees displaced by 
workforce actions. The assistance offered goes beyond the minimum 
requirements of federal regulations to provide a broad range of 
services, including job search support; assistance in preparing 
resumes, preparing for interviews, and negotiating salary and benefits; 
organizing job fairs; conducting workshops on financial planning; and 
providing federal specific information on a range of benefits and 
entitlements.

Retention Tools--One of NASA's most important retention tools is its 
mission--the exciting, challenging work provided by the Vision for 
Space Exploration. The Exploration architecture selected by NASA for 
the Constellation Systems program draws heavily on Space Shuttle 
heritage, facilitating a smoother transition of the workforce to 
follow-on programs that support Vision for Space Exploration. When 
necessary to retain critical skills in specific cases, NASA will use 
targeted tools such as retention incentives, qualifications pay, and 
temporary promotions to ensure it has the workforce necessary for 
safety and mission success.

Alternative Staffing Tools--Even with effective retention strategies, 
NASA recognizes that the loss of valued skills will remain a risk to 
the programs. NASA is prepared to address this risk through the use of 
alternative staffing tools that are available to recruit additional 
staff, when needed. These tools include the new flexible term 
appointment authority provided by the NASA Flexibility Act of 2004, 
emergency appointments, hiring retired employees, and other special 
hiring authorities. These flexible hiring authorities, combined with 
attractive compensation packages, will enable the Agency to address 
critical skills attrition as circumstances evolve.
    These tools--individually or in combination--will be the primary 
mechanisms for mitigating defined human capital risk to the Space 
Shuttle and ISS programs and for ensuring a smooth transfer of human 
capital to the Constellation Systems program in as many cases as 
possible.

Q6.  Your testimony states that NASA is now focusing on ``retraining 
efforts at Centers so the technical workforce can develop new skills'' 
yet Dr. Black mentioned that, in general, [NASA's training and 
mentorship programs] are modest in scope and impact.'' What is the 
budget for Agency training programs aimed at retaining employees with 
critical needs?

A6. NASA's total FY 2006 Training and Development budget is $63 
million. These funds are invested as follows: $30.1 million for skills 
training, $9.8 million for executive development, $18.9 million for 
management training, 2.6 million for supervisory training, and $2.1 
million for other technical training. Approximately $12.3 million of 
these funds are dedicated to program/project management and systems 
engineering management and technical courses. Many of NASA's critical 
competencies are in the engineering and program/project management 
disciplines and the Academy of Program/Project and Engineering 
Leadership (APPEL) supports these training needs. In many cases, 
employees in a new job area are ``learning on the job,'' i.e., not 
taking formal retraining, but working with and learning from a more 
experienced NASA colleague. In such cases, there is no additional 
budget that is needed.

Q6a.  How many employees have taken such training programs over the 
past year?

A6a. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To date, during FY 2006, 1,306 scientists, engineers and program/
project managers have participated in an APPEL training opportunity. 
This number represents 12 percent of NASA's scientists and engineers.

Q6b.  To what degree have NASA employees participated in training 
programs provided by the Department of Defense (DOD)?

A6b. NASA, in partnership with DOD, has developed a strategy for the 
development of a space cadre. This strategy includes developmental 
opportunities in three areas: Educational Institutions (faculty 
positions and curriculum) which includes identifying courses that will 
support both NASA and DOD developmental and training needs; Experience/
Exchange Opportunities; and Liaison Agreements.
    Through an Agency-wide call released May 5, 2005, space cadre 
educational opportunities were announced and applicants were 
competitively selected. Three NASA employees were selected for faculty 
positions in DOD: two employees were selected for the Naval Post 
Graduate School and one employee was selected for the National Security 
Space Institute. Additionally, six NASA employees were assigned to DOD 
through an Experience/Exchange opportunity.

Q7.  IFPTE claims that if NASA does no recruiting the workforce will 
fall below 16,000 due to attrition. Is this estimate accurate if NASA 
does no recruiting? If not, what is your estimate? Do you have specific 
targets for the number of new hires the Agency plans to make over the 
next several years? If so, what are those targets?

A7. We do not expect the NASA strength to fall below 16,000 over the 
next several years due to attrition as suggested by IFPTE, since the 
attrition rate for NASA is very low. The Agency does not have specific 
targets, per se, as we manage the workforce by its full-time equivalent 
ceiling (FTE). Centers are expected to hire based on the competencies 
and skills needed to support the NASA mission but must do so within 
their existing budget and FTE allocations.
    As stated in NASA's Workforce Strategy (submitted to Congress in 
April, 2006) the President's FY 2007 budget submission reflects an 
overall downward FTE trend from now through FY 2011. These FTE 
projections are based on mission requirements and anticipated funding. 
They will require adjustment as more details are developed on the 
exploration systems' work content and as the long-term needs and goals 
of the restructured programs in aeronautics research are more clearly 
defined.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q8.  IFPTE testified that NASA managers assign program specific charge 
codes to their employees to use regardless of the actual projects they 
work on, saying:

         Program management first almost arbitrarily assigns a work 
        group a list of charge numbers (Work Breakdown Structures or 
        WBSs) ostensibly representing the various programs (and/or G&A) 
        supporting the employees in that group. Employees are then 
        instructed by line management to log their fixed ration for 
        each pay period regardless of what work was actually performed.

     What is your response to the assertions made by IFPTE? What 
controls are in place to ensure that work performed is charged to the 
appropriate charge code? Can you explain what NASA's policies are 
regarding tracking of work? Is the situation described in the IFPTE 
testimony allowed or appropriate?

A8. We disagree with the IFPTE assertion and think that the NASA policy 
on charging Civil Service labor provides sufficient guidance for 
employees to properly record their time. That policy states:

         It is the responsibility of every NASA Civil Service employee 
        to record his or her time as accurately as possible against the 
        particular program, project, service pool, or G&A activity for 
        which the work was performed. The goal is to record to the 
        ``direct labor hour'' for work performed to the actual Project 
        WBS code assigned for that work. Labor Charge Codes for each 
        particular program, project, service pool overhead function, or 
        G&A function are managed in IFMP and provided the web-based 
        Time and Attendance Distribution System (WebTADS) for selection 
        by employees when recording time. If the proper labor charge 
        code does not exist, exceptions may be made. In some cases, 
        there are alternative charge codes such as Center or 
        Organization ``All Hands,'' awards ceremonies, education 
        outreach, and Public Affairs Office events. Use of these codes 
        should be rare and only represent a small fraction of an 
        employee's time. In cases where alternatives codes do not 
        exist, employees should charge their time to the activity upon 
        which they spent most of their time for that pay period.''

Questions submitted by Representative Mark Udall

Q1a.  The NRC's workforce report, in commenting on NASA's ability to 
recruit the needed future workforce, states ``Later recruitment will be 
especially challenging in areas where NASA curtails or terminates work 
in the near term, thereby handicapping or preventing later restoration 
of that workforce segment in, for instance, areas such as astrobiology, 
life sciences, and microgravity research.''

     As a Human Capital professional, do you agree with that 
assessment?

A1a. NASA certainly recognizes that the ability to encourage talented 
individuals to seek employment in particular areas of science depends 
not only on their interest in the field, but on their perception that 
they can have viable careers in that field. In that sense, curtailing 
work in programs that rely on specific technical skills carries a risk 
of making it more difficult to attract individuals with those same 
skills at a future date.
    Yet, NASA must face fiscal realities and make the difficult 
decisions on how to use available resources within the overall NASA 
portfolio, balancing current mission requirements and maintaining and 
developing future capabilities. We must set priorities, and do so 
wisely to ensure that we have, and will continue to have, the technical 
excellence in our workforce that we need to accomplish our mission.
    This requires focus, direction, and careful thought in workforce 
planning. Toward that end, NASA has initiated an effort to strengthen 
its institutional planning, with emphasis on a longer-range planning 
focus. The new planning process, under development now, will integrate 
workforce planning with the Agency's business planning in a manner that 
will enable NASA to engage in more precise and longer-range workforce 
planning and thereby take appropriate workforce actions sooner to 
ensure that the Agency has the right skills in place.

Q1b.  If so, why has NASA terminated work in those areas (e.g., life 
sciences and microgravity research), given that the Agency agrees that 
those skills will be needed for the exploration initiative?

A1b. NASA's Exploration Systems Mission Directorate underwent a 
realignment of its existing research portfolio to focus on work that 
represents the highest priority research in support of the newly 
defined exploration goals. As a result of this realignment, a 
significant share of the Agency's basic and applied research effort is 
being deferred. Research activities that are not closely aligned with 
the critical, near-term technology goals of the new exploration 
architecture have been subject to reduction or cancellation.
    The U.S. Congress recognized this necessity, and included the 
following language (Section 305) as a part of the NASA Authorization 
Act of 2005 which directs the NASA Administrator to:

        <bullet>  ensure the capacity to support ground-based research 
        leading to space-based basic and applied scientific research in 
        a variety of disciplines with potential direct national 
        benefits and applications that can be advanced significantly 
        from the uniqueness of microgravity and the space environment.

        <bullet>  carry out, to the maximum extent practicable, basic, 
        applied, and commercial ISS research in fields such as 
        molecular crystal growth, animal research, basic fluid physics, 
        combustion research, cellular biotechnology, low-temperature 
        physics, and cellular research at a level that will sustain the 
        existing United States scientific expertise and research 
        capability in microgravity research.

    NASA has responded to the congressional directives by resurrecting 
a research program that covers fundamental biological and physical 
sciences. Some of the research platforms and categories of 
investigations include:

        <bullet>  Research that was part of NASA's International Space 
        Station (ISS) microgravity research portfolio.

        <bullet>  Re-instatement of some of the ground-based research 
        that was to be terminated.

        <bullet>  Free Flyer research opportunities as secondary 
        payloads is also being pursued.

    NASA concurs to some extent with the NRC's workforce report finding 
concerning the difficulty in recruitment in life sciences and 
microgravity research. However, while NASA acknowledges the impact of 
reduced resource allocation in areas of life sciences and microgravity 
research, it remains committed to retaining a core of life and physical 
sciences research that will help maintain a level of continuity in 
these discipline areas for the future. Moreover, Agencies such as NIH, 
NSF and DOE do fund research in related areas and therefore offer the 
opportunity for scientists and engineers to remain engaged in their 
fields. NASA does plan to utilize the ISS throughout its lifetime and 
will re-engage the community after dealing with the current resource 
gaps.

Q2a.  The NASA Workforce Strategy states that authority to use term 
appointments and temporary hiring authorities ``is among the most 
important of the human resources strategies the Agency plans to use in 
addressing competency issues.. . .Nonpermanent appointments, especially 
term appointments, provide an excellent method of obtaining skills 
without the long-term commitments made to permanent employees.'' 
Consistent with that view, data provided to the Subcommittee indicate 
that the number of term employees at NASA has undergone a five-fold 
increase since FY 2003.

      Given the perceived benefits of term appointments and NASA's 
stated desire to move to a ``more flexible and scalable workforce,'' 
how much of NASA's workforce (as a percentage of the total) would you 
ideally like to see become term appointments?

A2a. NASA has not established a numerical or percentage goal for the 
term workforce. In the coming fiscal year, the Agency intends to 
address the issue of how best to achieve a more flexible workforce.

Q2b.  What activities, if any, do you think should be undertaken only 
by permanent employees?

A2b. It is appropriate to fill a position with a permanent appointment 
if the position clearly represents a continuing need and there is no 
known workforce action on the horizon to indicate that the position 
will be eliminated. Apart from that general guideline, there is some 
latitude in determining whether a position should be filled with a term 
or permanent employee in specific circumstances. Factors that are 
appropriate to consider are:

        <bullet>  Are the competencies needed for the particular 
        position likely to be required by the Agency long-term, even if 
        the need for the specific position under recruitment should 
        diminish later?

        <bullet>  Do attrition projections suggest that the position 
        should be considered as part of the organization's succession 
        management strategy?

        <bullet>  Is there sufficient uncertainty about the Agency's 
        future budget and program direction that adding to the 
        permanent workforce now could create a significant uncovered 
        capacity problem later?

        <bullet>  Is it necessary to offer a permanent position in 
        order to attract and retain a high quality candidate? Or will 
        an offer of a term position (with eligibility for conversion to 
        permanent as well as financial incentives) be adequate?

    A competitive service position that is not expected to last longer 
than one year must be filled with a temporary appointment. (A temporary 
appointment may be extended up to a maximum of one additional year for 
a total of 24 months of service). To ensure that this authority is used 
only when there is reason to expect that there will be no long-term 
need for the employee, federal agencies are prohibited from filling a 
position by a temporary appointment if that position (or one that is 
essentially similar) has been filled by temporary appointments for an 
aggregate of two years within the preceding three-year period.
    Term appointments are appropriate to use when filling positions 
that are expected to last for more than one year, but not more than six 
years. They are appropriate for project work; addressing an 
extraordinary workload expected to last more than a year's duration; or 
filling positions in an environment characterized by uncertainty of 
future funding, contracting out, or a pending reorganization. It is 
also appropriate to use a term appointment to fill a position that is 
scheduled to be abolished in the future or when permanent positions 
must be held for the placement of employees who would otherwise be 
displaced from their organization.
    Since many positions within NASA involve project work that is 
expected to last not more than six years, it would be appropriate for 
NASA to emphasize using term appointments to fill such positions. Doing 
so would result in a far greater percentage of non-permanent employees 
within the civil service workforce, thereby providing greater 
flexibility in responding to program and budget redirection.
    It is also appropriate and prudent to emphasize term (rather than 
permanent) hiring when the Agency has significant uncovered capacity. 
This approach will maximize opportunities for reassigning uncovered 
permanent employees into permanent positions elsewhere in the Agency.

Q2c.  What is the value of making term appointments for work on a 
particular project instead of simply contracting out the activity? How 
do you decide which is the better approach in any particular case?

A2c. The issue is not so much, whether to use a particular type of 
civil service appointment (term) versus contractors to accomplish a 
project, but whether to have the work done by civil servants or by 
contractors. This is an important issue, since decisions on whether to 
conduct work in-house or contract for the work also affect a Center's 
overall health, stakeholder support of the Agency, and institutional 
capability.
    NASA strives for a balanced approach to competition and 
institutional health, based on the principles outlined in the NASA 
Strategic Management and Governance Handbook and OMB Circular A-76. 
Competition should be used to promote best approaches and solutions and 
to encourage innovation and efficiency. It is a strategy to take 
advantage of state-of-the-art techniques, methodologies, and solutions 
available within NASA, industry, academia, other federal agencies, and 
international partners. NASA will continue its practice of conducting 
science competitions, where NASA scientists and engineers compete with 
academia and industry for basic research opportunities under NASA's 
Broad Agency Announcements. NASA fosters competition when it helps 
achieve the mission and where the costs of competition do not outweigh 
the benefits.
    NASA will not compete an activity if doing so would erode the 
required depth and breadth of intellectual capital of its civil service 
workforce. The Agency must maintain a critical mass of skills, with 
appropriate ``bench strength'' and an appropriate level of subject 
matter expertise to ensure it can meet mission and fiduciary 
requirements. For example, the Agency must maintain adequate expertise 
within the civil service workforce to independently and effectively 
evaluate contractor performance--being a ``smart buyer.'' In some 
cases, having the appropriate level of expertise means retaining civil 
servants in particular technical areas due to overall scarcity of that 
expertise in the general labor market.

Q3.  As you know, NASA asked for the provisions included in the NASA 
Flexibility Act of 2004. However, based on the data provided to the 
Subcommittee, NASA does not appear to have made much of those 
provisions in the time since its enactment.

     Why is that and what are your plans for future use of those 
provisions? Do you believe that NASA needs any additional statutory 
authorities? If so, why, what are they, and does NASA intend to request 
them from Congress within the next calendar year?

A3. The NASA Flexibility Act of 2004 provides the Agency with a suite 
of human capital tools that have been very instrumental in helping to 
attract and hire highly skilled employees. While some of the 
flexibilities have been used more extensively than others (e.g., the 
Term Appointment Authority), in all cases the focus has been on 
``quality use'' of the flexibility rather than quantity. Recruitment, 
relocation and retention incentives will continue to be important to 
the Agency to leverage its workforce effectively. In particular, they 
have been effective in the Agency's efforts to address skills 
imbalances and strengthen core competencies at Centers.
    Of particular note, NASA anticipates that both recruitment and 
relocation incentives will be necessary over the next several years to 
encourage NASA employees to accept positions at the newly-established 
NASA Shared Services Center (NSSC) located at Stennis Space Center. The 
surrounding area was devastated by Hurricane Katrina, resulting in 
limited housing availability. Attracting individuals to this area is a 
challenge.
    While we have no requests for additional statutory authorities 
pending at the current time, we are continually analyzing barriers that 
prevent us from hiring, retaining and managing the workforce, some of 
which may require statutory authority to overcome.

Q4.  In your testimony, you acknowledge the difficulty the Agency has 
had in being able to hire younger workers, but I did not see you 
describe any comprehensive Agency plan to address the problem. Does 
NASA have such a plan? If so, please provide it for the record.

A4. We think there may be a misunderstanding of the testimony language. 
The Agency has no difficulty in hiring younger workers. The problem, as 
indicated in the testimony, is that due to the uncovered capacity in 
some areas, we cannot hire as many recent college graduates as we would 
have hoped to hire.

Q5.  In your testimony to the Subcommittee, you stated that NASA has 
asked the National Academy of Public Administration (NAPA) ``to take a 
look at the blend of Civil Service versus contractor work for us, and 
what are the guidelines we should be using in making those 
determinations.'' When will that study be complete? Please provide the 
NAPA study's Statement of Task for the record.

A5. The study is scheduled to be completed January 2007. A copy of the 
Task Statement is attached.

Q6.  What are NASA's plans with respect to any future buyouts? What 
role do you see buyouts playing in your workforce strategy? What about 
potential Reductions-in-Force (RIFs)?

A6. NASA's current buyout (VERA/VSIP) authority expires on September 
30, 2006. As NASA works to reshape its workforce, we are assessing the 
need for additional VERA/VSIP authority to address skill misalignment 
and surplus competencies. Because these authorities are key tools 
necessary to both workforce reshaping and RIF avoidance, we anticipate 
requesting VERA/VSIP authority for FY 2007 and FY 2008. All buyout and 
early out programs will be targeted carefully to ensure that skills 
NASA needs are not eroded.

Questions submitted by Representative Michael M. Honda

Q1.  One of the NASA Human Resources (HR) websites says that NASA 
currently has only 16,644 civil service employees, which is already 
below all of the target numbers in the Table on p. 9 of NASA's 
Workforce Strategy going out to 2011. Why isn't the downsizing over 
yet?

A1. The number 16,644 refers only to the full-time permanent workforce, 
rather than full-time equivalents (FTEs) as reflected in the targets in 
the President's FY 2007 budget submission (and repeated in the NASA 
Workforce Strategy). The total number of civil service employees on-
board now (permanent, term, temporary, interns/fellows) add up to 
18,082 (as of June 24, 2006). This is the number that is most 
appropriate to compare with the FTE trend chart.

Q2.  Last year, NASA HR announced a plan to trim its Civil Servant 
workforce by 2673 before the beginning FY 2007. The target number for 
this downsizing appears to have been based on the number of employees 
eligible for retirement.

     How is this consistent with an HR strategy based on maintaining an 
appropriate skills mix, especially given the broad and untargeted 
nature of the buyouts (for example, at Ames fewer than 100 out of 1200 
employees were excluded from the last buyout)? What precautions were 
taken to prevent age discrimination?

A2. There may be some misunderstanding about this question. NASA did 
not announce that it planned to reduce the civil servant workforce by 
2,673 employees before the beginning of FY 2007. At the time of the FY 
2006 President's Budget submit there were 2,673 uncovered FTE. There is 
no correlation with this number and the number of employees that were 
eligible to retire at that time. Since that time, as a result of 
buyouts, job fairs, movement of work packages and normal attrition, 
that number as of June 1, 2006 was approximately 800.
    This misunderstanding may have evolved from the Center buyout pools 
announced for earlier buyout programs. The buyout pool does not 
represent the number of employees to be reduced, but only the pool of 
employees who may apply for a buyout. Centers have specific buyout 
targets based on future work projections and excess capacity. Approved 
buyouts are limited to the number of the specified targeted buyouts. 
There is a great deal of rigor applied to the buyout process to ensure 
that it supports, not hinders, the Agency workforce strategy.
    There are no age restrictions or considerations in requesting or 
receiving a buyout. All employees in the buyout pool, which are based 
on skill category, are eligible to apply. In all cases an employee's 
request for a buyout is voluntary.

Q3.  Why is NASA continuing to seek full-cost recovery of Civil Servant 
salaries while it is setting up a partial-cost recovery system for its 
key facilities after having acknowledged that full-cost recovery was 
harming its critical facilities?

A3. There is not an inconsistent management philosophy with respect to 
civil service workforce and facilities. Full cost accounting allows 
management to focus on the allocation of resources and their 
relationship to programmatic requirements. Where programmatic 
requirements identify facilities as critical, as referenced in the 
question, management may utilize a business model requiring less than 
full cost recovery during periods of underutilization in order to 
assure the continued viability of a facility. Where programmatic 
requirements do not identify the need for a facility, management 
pursues efficient disposition of the facility in order to redirect the 
resources to program needs.
    Our approach to managing workforce is very similar. Where 
programmatic requirements identify the future need for certain 
workforce capacity that is not currently fully utilized, Agency funding 
is provided to bridge the period of underutilization. Where 
programmatic requirements identify no future need for a segment of the 
workforce, management attempts to retrain or move the workforce to 
enable a match with programmatic requirements. If such solutions are 
not possible, NASA will move to shed the unneeded workforce in as non-
disruptive a manner as possible in order to redirect the resources to 
program needs.

Q4.  NASA claims that there are still approximately 1,000 uncovered 
employees. Please provide a breakdown of:

        <bullet>  where these employees are

        <bullet>  what their skills are

        <bullet>  why their skills are no longer needed

        <bullet>  what analysis was performed to determine they were 
        uncovered, and

        <bullet>  what were the assumptions of the analysis?

A4. The location of the uncovered capacity is provided below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    [NOTE: These numbers reflect the FY 2007 level of uncovered 
workforce projected as of the date of the hearing. We continue to work 
on actions that are reducing the uncovered to a lower, much more 
manageable level.]
    The number of employees (headcount) is greater than the number of 
FTEs since many employees are only ``partially'' uncovered. This is 
because employees often work on multiple projects, so when one project 
ends, only a portion of the employee's time becomes uncovered and the 
employee's remaining tasks continue to be funded by the other projects. 
For example, of the 1278 employees who are uncovered to some extent, 
410 of them are uncovered 50 percent or less.
    These employees were determined to be uncovered by center 
management, who compared funded work assignments with the center-based 
workforce needed to successfully complete those assignments within 
budget. The assignments determine the number and skill sets of FTE that 
are required, and by comparison to the total number and skill sets 
resident at the center, those that are not needed.
    As part of the analysis, it was recognized that a small level of 
unassigned FTE exists temporarily at all Centers as part of the normal 
turnover in projects and programs. For that reason, data was collected 
only for centers that have unassigned FTEs constituting five percent or 
more for fiscal years 2007 and/or 2008, i.e., the ones with the largest 
number of unassigned FTE. The four centers shown above meet that 
threshold, so their number of uncovered FTEs and the primary competency 
of each individual associated with those FTEs were identified.
    The principal technical competencies associated with the uncovered 
capacity at these Centers are identified below. Since all Centers have 
some administrative and administrative support skills associated with 
uncovered capacity, that set of skills is not individually listed with 
each Center. Also, the uncovered capacity included various management 
competencies at all Centers--such as technical work and team 
management, program/project management, and project work and team 
management. Accordingly, that set of competencies also is not 
individually listed with each Center.

Ames Research Center

        <bullet>  Engineering and science support

        <bullet>  Intelligent/Adaptive systems

        <bullet>  Mechanical systems

        <bullet>  Astronomy and astrophysics

        <bullet>  Astrobiology

        <bullet>  Human factors engineering

        <bullet>  Nanotechnology

        <bullet>  Computer systems & engineering

        <bullet>  Electrical and electronics systems

        <bullet>  Earth science applications research/Earth system 
        modeling/Earth atmosphere

        <bullet>  Cell & molecular biology; biomedical research

Glenn Research Center

        <bullet>  Engineering and Science Support

        <bullet>  Software Engineering/Computer Systems & Engineering

        <bullet>  Power Generation-Photovoltaics/Power--Energy Storage/
        Power Systems

Langley Research Center

        <bullet>  Engineering and science support

        <bullet>  Earth Atmosphere

        <bullet>  Electrical and electronic systems/electromagnetics

        <bullet>  Simulation/Flight research systems

        <bullet>  Mechanical systems

        <bullet>  Mission Execution

        <bullet>  Aerothermodynamics/aerodynamics

        <bullet>  Computer systems and engineering

Goddard Space Flight Center

        <bullet>  Engineering and science support

        <bullet>  Facilities engineering and management

        <bullet>  Systems engineering

        <bullet>  Optical systems

        <bullet>  Electrical and electronics system

        <bullet>  Electro-mechanical systems/Micro-electromechanical 
        systems

        <bullet>  Mechanical systems

        <bullet>  Remote sensing technologies

        <bullet>  Astronomy

    The skill needs of the Agency have changed because of the 
significant change in the program content of the Agency. This resulted 
in changes to work and workforce requirements which in turn creates a 
diminished need for skills in certain technical areas and an increased 
need for skills in other areas. More specifically, the changes came 
because of cancellation of the Space Launch Initiative, redirection of 
funding for exploration research and technology development to the crew 
exploration vehicle, redirection of funding for biological and physical 
research to the crew exploration vehicle, reduction in funding for the 
aeronautics program, restructuring of the science program, and 
redirection of funding from multiple programs to the Space Shuttle to 
enable continued flights through program end.

Enclosure

                       NAPA Study Task Statement

              (In Response to Question #5 from Mr. Udall)

Revised Task 3--Civil Service and Contractor Workforce

    NASA has a widely dispersed in-house workforce supported by a large 
number of government contractors. NASA requires a flexible workforce 
that can be reshaped to respond to changing mission objectives, program 
redirection, and budget imperatives. Taking advantage of knowledge of 
innovations and successes that have been implemented in other federal 
or non-federal organizations, the Academy shall review and make 
recommendations for workforce strategies and policies, taking into 
account 1) the monitoring and evaluation of contractors, 2) the 
determination of what skills NASA needs to retain in its civil service 
workforce, 3) use of non-permanent appointments to provide a flexible 
civil service workforce. Specific actions in support this task will 
include:

        <bullet>  Identify and review the relevant body of government, 
        private sector and academic literature on the issue.

        <bullet>  Identify and interview those in NASA, in Congress, in 
        OPM and OMB, and stakeholder groups who have insights and 
        opinions on issues related to this Task.

        <bullet>  Identify thought leaders, as well as public and 
        private organizations, that have a track record of successful 
        practices relevant to the issues of this Task.

        <bullet>  Provide advice on effective ways to monitor and 
        measure workforce composition, capabilities and dynamics as an 
        aspect of a strong, healthy NASA Center, e.g., skills balance, 
        contractor to civil service balance, alignment of workforce 
        with mission, structure of workforce to accomplish the work to 
        be done and similar issues.

        <bullet>  Review current NASA internal guidelines and practices 
        related to dividing work between civil service and contractor 
        elements.

        <bullet>  Review the parts of the recent Systems Engineering 
        and Institutional Transition Team (SEITT) report that are 
        relevant to the issue.

        <bullet>  Develop recommendations for revising NASA guidelines 
        and practices related to dividing work between civil service 
        and contractor elements.

        <bullet>  Develop one or several methodologies for planning and 
        assessing the civil service and contractor mix.

        <bullet>  Recommend revisions in NASA guidelines and practices 
        regarding use of non-permanent civil service appointments (an 
        extension of work done in Phase I).

        <bullet>  Develop recommendations for addressing these 
        considerations in NASA workforce planning.

        <bullet>  Develop recommendations for changing workforce 
        acquisition, development and management processes to transition 
        to a more flexible workforce.

    This Task is to be completed within seven to nine months of the 
start date, and the Academy is to deliver to NASA an oral report of 
findings, analyses and recommendations for managing the civil service 
and contractor workforce mix. Within two weeks thereafter, the Academy 
will provide a draft written report. NASA will comment on that draft 
within three weeks, and the Academy will publish its written report 
within four weeks of receiving NASA's input.
                   Answers to Post-Hearing Questions
Responses by Lee Stone, Legislative Representative, International 
        Federation of Professional and Technical Engineers

Questions submitted by Chairman Ken Calvert

Q1.  In your written testimony you recommend rejecting NASA's efforts 
at full-cost accounting and suggest that those efforts have created the 
``uncovered capacity'' problem. You state that NASA has ``converted 
over to a full-cost recovery system that allows distant program 
managers to siphon salary and facilities money away from the Field 
Centers.''

Q1a.  What distinguishes full-cost recovery from a full-cost 
accounting?

A1a. Full-cost accounting is a process by which an Agency accounts for 
(i.e., records data documenting) how it has spent its money. This 
should be completely independent of how NASA manages its money, 
facilities, or workforce, or how it makes spending decisions. 
Unfortunately, NASA implemented a form of full-cost recovery that 
dramatically changed how it manages its funds and assigns work, and did 
so in a way that ironically further decreases the fidelity of NASA's 
actual accounting of its expenditures to Congress and the American 
people.
    Administrator Griffin himself described in detail the difference 
between full-cost accounting and full-cost recovery at an All-Hands 
meeting on December 6, 2005.

         ``. . .(T)he frustration I've experienced over full-cost 
        accounting is not with full-cost accounting. That is merely a 
        way of knowing where your money went. . .. Full-cost accounting 
        and full-cost recovery are not the same thing. . .. (I)n our 
        wish to demonstrate blind obedience by following full-cost 
        accounting, we confused it with full-cost recovery. Now I've 
        backed off of some of that and I promised you that I would and 
        I have established what we are calling a capital asset 
        management account to manage those assets, which are broader 
        than a given program. . .. (C)ore support for these is 
        available from the institution like as in the old days of R&PM 
        accounting, but again that was too far in one direction. Full-
        cost accounting with everything having a project charge number 
        is too far in the other direction. We also need to price our 
        assets such that program managers both within and outside NASA 
        want to use those facilities. You know, pricing our assets such 
        that Boeing goes to the Netherlands to do wind tunnel testing 
        is really kind of stupid. In fact it's not kind of stupid, it 
        is stupid. . .. (W)e are going to stop doing some stupid things 
        and maybe do an experiment and do other new stupid things, but 
        at least we would stop doing some of the things which were 
        clearly damaging us. . .. Full-cost accounting is not the 
        problem. Full-cost accounting is just a way of saying I know 
        what I spent my money on. Who is going to object to that? Ok, 
        it's a policy toward cost recovery that needs to actually be 
        thought through as opposed to simply, you know, cookie-cutter 
        one-size-fits-all.''

                                                         Administrator 
                                Michael Griffin
                                                         12/6/05

    IFPTE couldn't agree more (see IFPTE recommendation #3 in our 
testimony). However, although the Administrator laments above how the 
``stupid'' misapplication of full-cost accounting has harmed NASA's 
facilities infrastructure and lauds a new plan to cover facilities 
infrastructure through centralized non-programmatic institutional 
funding, he did not address the completely analogous threat to NASA's 
intellectual infrastructure from the same misapplication of full-cost 
recovery. Indeed, just as Dr. Griffin pointed out above, if inefficient 
management and institutional costs coupled with a mandate for full-cost 
recovery cause NASA to price its intellectual assets (i.e., FTEs) such 
that NASA program managers choose to cut corners on manpower 
assignments or simply to abolish key projects when there is under-
utilized internal expertise capable of performing valuable work, [or, 
in the case of external programs, they simply refuse to pay for NASA 
labor], that's not kind of stupid. That is stupid. Until full-cost 
accounting stops being undermined by the inappropriate application of 
full-cost recovery, the crucial data needed to identify and correct 
this and other financial and workforce problems will remain beyond our 
reach.

1.  Harmful full-cost recovery workforce policies implemented under the 
        guise of full-cost accounting
    Dr. Griffin's predecessor terminated the age-old method of 
providing Civil Service salaries to Centers directly related to their 
complement. Instead, centers are now only provided with a fixed amount 
of civil-service salary money by programmatic fiat for all rank-and-
file employees, but can raise somewhat arbitrary amounts of salary 
money by center management fiat to add to a center G&A account that can 
expand to meet any emerging management salary needs. In other words, 
scientist, engineers, and technicians were suddenly uncovered by the a 
priori decision to withhold salary money (not because of any 
requirement of full-cost accounting or any technical reason), yet there 
has always been enough money to hire yet another personal ``special'' 
assistant for a Center Director.
    Instead of having program managers assign projects/tasks to Centers 
and allowing the work to be assigned by local experienced supervisors 
who have direct knowledge of the expertise residing in his/her 
workgroup and who can properly gauge both the specific skills needed 
for the task as well as the manpower needed to perform a particular 
technical task within a specified timeline, the manpower budget is 
arbitrarily assigned by distant program managers with little or no 
supervisory experience, little or no specific knowledge of the detailed 
expertise and experience available in the actual employees working at 
each Center, and little or no sensitivity to the long-term health of a 
Center's core intellectual capabilities. As one might expect, these 
senior program managers could, did, and continue to set arbitrary 
workforce caps that limit the coverage of center employees. 
Furthermore, this top-down budgetary decision making is beholden to 
internal and external political constraints and thus often unresponsive 
to technical drivers. This problem has nothing to do with full-cost 
accounting; it is simply a top-down policy decision to create serious 
pressure to downsize the civil-service workforce at targeted Centers by 
shrinking the apparent demand for technical employees through arbitrary 
labor quotas. This has ``worked'' in that it is indeed driving away 
employees from NASA; this is failing because it is destroying morale, 
is driving away some of NASA's best current talent, and is scaring away 
future talent.
    The new work assignment policy has been particularly harmful to 
NASA Science, Aeronautics, and Technology Development programs, which 
have traditionally understood that the Agency's smartest people are 
rank-and-file employees and that the best way to foster creative and 
productive research and development is through a largely self-generated 
bottom-up process (with peer-review and appropriate top-down oversight 
as is done at the National Institutes of Health, for example). This 
well proven bottom-up Principal Investigator model, which has allowed 
NASA Science to flourish in the past and which has allowed NASA to 
compete for the best and brightest young scientific minds, has been 
replaced by a top-down autocratic model, whereby employees have fewer 
and fewer opportunities to write competitive grant proposals and are 
instead expected to wait by the phone for orders (and FTEs) from 
bureaucrats telling them what to do next. This new Soviet-style 
workforce-management model driven by full-cost recovery of civil-
servant salary is killing morale, stymieing creativity and 
entrepreneurship across the Agency, and is seriously harming NASA's 
intellectual infrastructure just as it was harming our facilities 
infrastructure before the establishment of the Shared Capabilities 
Asset Program. IFPTE recommends that a similar account be established 
to preserve NASA's most important asset, its highly skilled and 
uniquely experienced employees (IFPTE Recommendation #3).
    Finally, full-cost recovery has also undermined NASA's line 
management and made program management all powerful. In a properly 
balanced matrixed management system, line management would control FTE 
dollars and program management would control WYE and other procurement 
dollars. This would make both jobs meaningful and would drive 
cooperation. Full-cost recovery has instead fostered a bitter conflict 
between line and program management and is driving desperate benevolent 
efforts by line managers to protect intellectual capabilities and to 
remain relevant, even if this means using ``creative'' accounting 
practices.

2.  Improper accounting of work under NASA's faux ``full-cost'' policy
    Rather than making NASA's financial and workforce accounting more 
transparent, which was the intent of congressional direction, full-cost 
recovery has fostered the emergence of even more Byzantine and opaque 
accounting practices (often times inconsistent across Centers). Whether 
performing workforce or financial accounting, rather than honestly 
measuring ``actuals'' and comparing them with ``projecteds'' in order 
to re-evaluate what actually happened and correct current planning 
deficiencies for the next budget cycle, management merely uses whatever 
accounting means necessary to make reported ``actuals'' match the 
``projected'' numbers, irrespective of what actually happened. That 
way, the plan was perfect by design and no learning can or does occur. 
The lack of corrective feedback is particularly damaging because 
significant errors made during the initial conversion to ``full-cost'' 
remain perpetually uncorrected. The management culture of making the 
books look like they want them to without regard to the reality on the 
ground is also at the core of why the Agency has consistently failed to 
pass a clean financial audit.
    Some specifics:

        a.  A center is often given a certain number of FTEs but is 
        asked to deliver work to schedules that required more than that 
        number. If the Center or employee balks, programs can move FTEs 
        elsewhere so employees all across the Agency are being 
        pressured to work unremunerated overtime or are being assisted 
        by ``uncovered'' employees or employees covered by other 
        programs in order to meet milestones. If the milestone slips, 
        nothing is done to analyze the root cause. If the milestone is 
        met because of the hidden work, then the original low-balling 
        of manpower is reinforced. The official manpower planning that 
        assigns FTEs to perform work is budget driven and is completely 
        detached from the technical work planning needed to get the 
        work done. This problem harms both ``rich'' and ``poor'' 
        Centers alike as ``covered'' employees find themselves under 
        undue pressure to perform more than one FTE worth of work. The 
        hours officially logged to a project by employees have little 
        to do with the actual work performed: Work is performed for 
        programs by ``uncovereds'' or employees covered by other 
        programs; this work is NOT logged to the program that benefits 
        from the work. Conversely, some large programs are 
        systematically covering employees that are actually supporting 
        other activities. The net effect is that manpower accounting 
        for each program is consistent with the manpower plan for that 
        program but not with the actual work performed. In sum, 
        performed work is not being properly accounted for, which makes 
        it impossible to assess whether initial manpower estimates were 
        correct and to take appropriate corrective action either up or 
        down. This process makes program managers look like they are 
        meeting their metrics but it is simply generating false metrics 
        to do so. The key problem with NASA's Workforce Strategy is 
        that these false metrics are being used to identify uncovered 
        and motivate RIFs.

        b.  Employees are often assigned work but not given an account 
        to charge it to. For example, employees working on the Smart 
        Buyer program (a program to anticipate bids for CEV development 
        in order to support the procurement process) were accorded 
        Group Achievement awards but many were not afforded the 
        opportunity to charge to that Program. In other words, award-
        winning work was performed for free at least as far as full-
        cost accounting is concerned. We can therefore RIF these 
        employees next year and apparently suffer absolutely no impact 
        because, as far as the accounting is concerned, these award-
        winning employees don't exist and are not performing the award-
        winning work. A similar problem exists with Mishap 
        Investigation Boards, where employees provide expertise and 
        work that is not recorded under that Investigation. In sum, 
        actual work is often not being accounted for, which again makes 
        it impossible to determine what any program actually costs (the 
        primary goal of full-cost accounting).

        c.  Training and administrative work by non-administrative 
        staff is not accounted for. Technical and support employees are 
        required to take generic training (e.g., IT security), to 
        attend branch/division/directorate/center all-hands meetings, 
        to fill out surveys, to reconcile credit cards and do other 
        financial accounting, to fill out time cards and travel 
        vouchers, and to perform other work assigned by their line 
        management; this work is charged to unsuspecting programs [or 
        to G&A (if uncovered)]. This completely violates the primary 
        tenet of full-cost accounting as it improperly burdens programs 
        with non-programmatic activities and makes it impossible to 
        track how much of its manpower efforts are being devoted to 
        training or diverted to cover administrative activities 
        (contrary to popular myth, many of these are not statutorily 
        mandated). In sum, one of the reasons that NASA can arbitrarily 
        increase the administrative burdens on its employees is that 
        the work time required to meet these burdens is not accounted 
        for, in direct violation of full-cost accounting. The cost to 
        the Agency of All-Hands meetings, surveys, etc.. . .is simply 
        not calculated so doubling or tripling them has no impact on 
        the reported manpower metrics even though it is clearly 
        reducing actual programmatic productivity.

        d.  Managers are improperly charging their FTEs to programs in 
        order to lower reported center G&A costs. Although some lower-
        level managers do indeed perform some bone fide technical work 
        for programs (and this time should indeed be charged to the 
        appropriate program), full-cost accounting should account for 
        management time as G&A. Some Centers are allowing their senior 
        managers to charge their time to programs merely for 
        supervising employees working on a program, which is doubly 
        harmful as it improperly burdens a program with charges that 
        are not specific to that program and deprives real engineers 
        and scientists from the stolen FTEs, thereby increasing the 
        uncovered while also making management look falsely efficient. 
        Since IFPTE's testimony in June, a move has been initiated by 
        HQ to stop this practice and we applaud this. Another way true 
        administrative costs are being underestimated is when 
        ``uncovered'' employees perform critical administrative work, 
        which is charged to a ``transition'' account indicating that 
        they are uncovered capacity when they are actually performing 
        valuable G&A activities. One of the most important benefits of 
        full-cost accounting is that it can tell you how much NASA 
        management is costing the Agency; unfortunately, because of the 
        above mis-accounting of work, the actual full-cost of NASA 
        management (both programmatic and line) remain unknown. Thus, 
        management inefficiencies cannot be properly identified and 
        addressed in workforce planning.

        e.  No FTEs are provided for advance planning, proposals, or 
        even successful grants and cooperative agreements. The hallmark 
        of a cutting edge research and technology institution is the 
        quality of its technical staff. That quality is maintained by 
        the continuous engagement of technical staff in vigorous 
        intellectual interactions and collaborations with academia and 
        the private sector through grants and Space Act agreements and 
        by attending conferences. As NASA's internal R&D funds 
        decrease, NASA should be encouraging its scientists to bring in 
        funds from other Agencies by responding to external calls for 
        proposals as has been done by NASA's most productive scientists 
        and engineers for years. Under full-cost recovery, however, 
        there is no way to receive NASA salary funds for working on 
        grant or program proposals or even for working on successful 
        external grants which bring both direct tangible benefits and 
        indirect prestige and credibility to the Agency. Furthermore, 
        external funding institutions (e.g., NIH, NSF) have not been 
        asked to adapt to the new internal NASA funding environment 
        and/or cannot afford to pay ``full-cost'' for the inflated FTEs 
        that NASA charges, so there is little chance to recoup one's 
        salary externally even with a successful external grant funding 
        critically valuable work for the Agency and the Nation (e.g., 
        NIH funding of radiation research). Efforts to have NASA 
        affirmatively cover the salary portion of such innovative, 
        competitive, entrepreneurial research have not succeeded. 
        Although Dr. Griffin understands that recovering partial-cost 
        for facilities is smarter than nothing as the basis for the 
        current plan to save NASA's valuable facilities (see quote 
        above), he remains unwilling to seek only partial recovery of 
        civil servant salary from outside funding institutions in order 
        to save NASA's world-class Space, Earth, Life and Microgravity 
        scientists. Under the current misapplication of full-cost 
        accounting, many of our best and brightest scientists are 
        ``uncovered'' even when their research is funded. Feeling 
        insulted and betrayed, much of our scientific talent is leaving 
        or is considering doing so, when only a few years ago that 
        would have been unimaginable. This is not good for NASA's long-
        term health or for the Nation. We propose that NASA's Science, 
        Aeronautics, and Technology budgets be increased to reverse 
        this trend before it gathers momentum so that NASA can retain 
        its world-class scientists and research engineers (IFPTE 
        recommendation #5).

Q1b.  Please explain what steps NASA must take to implement a complete 
full-cost accounting system that addresses these concerns.

A1b. NASA should simply initiate a workforce accounting system that 
records the actual work performed (IFPTE recommendation #4). When in 
doubt, try the truth.
    There should be a Work Breakdown System (WBS) number not only for 
all programs/projects (as is done currently) but also for all other 
assigned activities (training, administrative work performed by 
technical/support staff, etc.. . .) with sufficient granularity to 
allow for meaningful future planning. All WBSs must be accessible from 
all Centers so that employees at Center X assigned to work on program 
run at Center Y can easily charge his/her time, as assigned and 
performed, without the hassle of transferring funds from one Center to 
another. Employees should be assigned work by their local line 
management (in response to task requests by program managers). 
Employees should then accurately record the hours they take to perform 
all tasks to the WBSs provided for each of their assigned tasks. If 
management assigns a task on Friday afternoon to be delivered Monday 
morning, then the employee should charge the time for all of the work 
they performed evenings and weekends even if it becomes overtime. 
Managers can make sure that employees are performing their assigned 
tasks but they cannot arbitrarily reject and rewrite the recorded hours 
in the employee's time sheet unless they have compelling evidence that 
the hours were recorded inaccurately. Employees should report hours 
spent attending management meetings or performing routine accounting 
activities under the appropriate administrative WBS, should report all 
generic training under a training WBS, etc. Principal Investigators on 
approved externally funded grants should also receive a WBS, whether or 
not their salary is reimbursed, to properly record the work hours 
devoted to that task. IFPTE is simply advocating for truth in NASA's 
accounting practices so that if employees are spending too much time 
doing A and too little doing B, management, Congress, and the American 
people will know it and can then try to do something about it next time 
around. Most importantly, this is the only way Congress can find out 
what a program's labor costs really were. Time cards should be 
considered data sets to be filled out by employees who have the only 
first-hand knowledge of the data (their work hours). Management should 
not be allowed to alter workforce data to come out ``correctly'' based 
on an a priori workforce spending plan.

Q1c.  Do you think that the current accounting system has improved 
NASA's understanding of the degree to which its employees are fully 
paid for by its programs?

A1c. Regrettably not. Because of the systematic misrepresentations of 
actual work performed to meet projected manpower plans (as outline 
above), NASA is hopelessly lost as far as identifying the true labor 
costs associated with any program or other activity. Until the Agency 
undertakes radical reforms that reject its current top-down ``make it 
so'' accounting culture and implements a bottom-up, honest, data-driven 
accounting process like the one proposed in the response to Question 1b 
above, Congress cannot trust NASA's workforce numbers. Many of NASA 
management's similarly flawed financial accounting practices have been 
identified by outside auditors and therefore are in the process of 
being corrected. NASA should be compelled to subject its workforce 
accounting policies and practices to a thorough audit by an outside 
auditor so that the weaknesses at the root of IFPTE's concerns can be 
addressed and rectified.

Questions submitted by Representative Mark Udall

Q1.  How responsive is NASA's Workforce Strategy to the reporting 
requirements contained in the NASA Authorization Act of 2005?

A1. NASA management has shown a consistent pattern of providing only 
pro forma, content-deficient responses to congressional mandates for 
information about workforce planning.
    In a letter to General Counsel Wholley, Dr. Paul Davis and I 
described in detail how NASA's recent Workforce Strategy failed to 
provide the specific information required as per the NASA Authorization 
Act of 2005. The Strategy is statutorily required to describe, at a 
minimum--

         (A) any categories of employees NASA intends to reduce, the 
        expected size and timing of those reductions, the methods NASA 
        intends to use to make the reductions, and the reasons NASA no 
        longer needs those employees;

         (B) any categories of employees NASA intends to increase, the 
        expected size and timing of those increases, the methods NASA 
        intends to use to recruit the additional employees, and the 
        reasons NASA needs those employees;

         (C) the steps NASA will use to retain needed employees; and

         (D) the budget assumptions of the strategy, which for fiscal 
        years 2007 and 2008 shall be consistent with the authorizations 
        provided in title II of this Act, and any expected additional 
        costs or savings from the strategy by fiscal year.

    But unfortunately, it simply does not provide the above information 
nor does it abide by the above-required budgetary assumptions. Our 
letter describes the deficiencies in detail (see Appendix E of our 
testimony).
    We received no reply from General Wholley in response to our 
enumerated legal concern that NASA management was not in compliance 
with the Authorization Act. Perhaps it would be useful for the House 
Science Committee to compel a response? From our reading of the Act, 
Congress simply asked NASA to provide the obvious information that 
would be needed to support intelligent long-term workforce planning in 
support of the Vision for Space Exploration. Unfortunately, without 
aggressive and sustained congressional follow-up, NASA will likely 
continue to provide mediocre documents that hamper congressional 
oversight.
    It is important to note that NASA still appears unprepared to 
release the requested information. In a NASA All-Hands in June 2006, 
NASA's Administrator and Associate Administrator for Exploration 
announced the assignment of Exploration projects to each of the Centers 
as part of the 10 healthy Centers plan. However, two months after the 
Strategy was delivered to Congress, they explicitly stated that they 
still had not determined the full extent of the Exploration's workforce 
needs, nor how the Center's newly assigned roles would impact workforce 
``coverage.'' It is hard to justify continuing NASA's ongoing 
downsizing in the face of the admitted uncertainty NASA upper-level 
management has about the demand side of the workforce issue.
    It is also important to point out that the superficiality of the 
Workforce Strategy is not an isolated incident but part of a series of 
evasive and uninformative workforce planning documents provided to 
Congress in recent years. In response to the NASA Flexibility Act of 
2004, NASA provided a Workforce Plan in April 2004 and then a revision 
in 2005. These documents also did not have the information required by 
Congress (in this case, under the Flexibility Act). On June 5th 2005, 
Dr. Wes Darbro, President of the NASA Council of IFPTE locals, provided 
IFPTE's comments on the proposed revised Workforce Plan and 
specifically informed NASA Human Resources of our legal concern that 
the Workforce Plan was not in compliance with the Flexibility Act:

         In HR's responses to IFPTE's queries, it clearly considers its 
        responsibility to IFPTE as a simple ``consultation'' as defined 
        in the Federal Service Labor-Management Relations Statute. This 
        approach fails to recognize the legal fact that the Flexibility 
        Act compels NASA management to release specific information to 
        NASA's Unions (as well as Congress) in order to establish the 
        rationale for NASA's determination of each ``critical need'' 
        (and not simply the new list as would typically be required by 
        the Labor Statute). As such, Congress has greatly expanded 
        IFPTE's consultation rights in this particular matter beyond 
        our standard consultation rights, and HR must adjust its 
        interaction with us accordingly. Our basic concern with Section 
        I continues to be that it fails to fully comply with the 
        Flexibility Act because it does not adhere to the details of  
        9802--Planning, notification, and reporting requirements. Most 
        importantly, the Workforce Plan does not include an adequate 
        ``description of each critical need of the Administration and 
        the criteria used in the identification of that need.'' We 
        brought this and other related issues up last year in our 
        initial ``consultation,'' but HR did not adequately address our 
        concerns. Although the readability of the revised Section I is 
        improved over last year's, our explicit request for the 
        ``criteria'' used to determine which competencies are critical 
        needs went largely unheeded. Instead, the Plan merely asserts 
        that there were criteria and provides a description of the 
        sequence of events that contributed to the decision making. The 
        Flexibility Act demands more; it clearly states that the 
        criteria themselves used in the identification of critical 
        needs must be provided in the Plan.

         A second major compliance issue is the fact that, in January, 
        NASA authorized and offered buyouts to many employees whose 
        primary competency is on the current Critical Needs list (e.g., 
        dozens of Human Factors experts were offered a buyout and many 
        took it). This troubling action shows disdain for NASA's 
        constitutional obligation not to mislead Congress. It is not 
        right for NASA to tell Congress officially that it needs 
        special authority to recruit new and retain current employees 
        in certain areas, while using other authorities to push these 
        employees out the door to achieve short-term financial 
        objectives. This clearly violates the spirit if not the letter 
        of the Flexibility Act and, whether deliberate or not, clearly 
        misleads those Congressional committees responsible for NASA 
        oversight.

    We urge Congress to insist that NASA Human Resources provide more 
thoughtful and thorough responses to congressional requests for 
workforce information and, in particular, to ask NASA to provide a 
revised Workforce Strategy that is fully compliant with the NASA 
Authorization Act of 2005. Proper oversight and policy-making cannot be 
made without accurate and complete information.

Q2.  How do we balance the rights and capabilities of the current 
workforce against the need to bring younger scientists and engineers 
into the Agency? How would you recommend NASA address the problem?

A2. We believe the premise of any conflict between the older and 
younger generations of NASA scientists and engineers is false. Indeed, 
as former Administrator O'Keefe argued when requesting the NASA 
Flexibility Act, NASA needs to retain its aging technical workforce as 
it also hires the next generation so that the former can mentor the 
latter and provide for the effective transfer of institutional 
knowledge and experience from the Apollo and Shuttle generations to the 
Vision generation that will bring us back to the moon and on to Mars. 
This is even more true today as a new generation of engineers and 
scientists has been asked to go back to the future and re-enact Apollo 
for its first return to the Moon.
    As far addressing the issue of NASA's aging workforce and the need 
to recruit a new generation of employees, we believe the answer is two-
fold:

        <bullet>  Categorically reject layoffs and start talking about 
        how the Vision will provide sustained growth and career 
        stability to the next generation of NASA employees so that we 
        may attract our fair share of the engineering and science 
        graduates of the world's elite institutions (IFPTE 
        recommendation #1). Start hiring young talent now. Reinstate a 
        vigorous National Research Council postdoctoral program and 
        other internship programs to attract fresh-out talented 
        graduates into the Agency for a trial run, then hire the best 
        of them as permanent tenured civil servants with the promise of 
        a career as rewarding as anything academia or the private 
        sector can possibly offer. The above philosophy has the added 
        benefit of showing younger Americans that there is a good 
        reason to get a degree in Engineering, Math, or Science; NASA 
        is hiring and wants you to help America understand and protect 
        our home planet, explore our solar system and the Universe, and 
        send people to Mars and back.

        <bullet>  The law entitles NASA's older employees to fair and 
        equal treatment but, more importantly, these employees have 
        earned our respect and gratitude for their service to the 
        Nation and should not be treated badly simply because of a turn 
        in the political winds (as has been the case for the last two 
        years). Any concern about the age distribution of NASA's 
        employees will take care of itself through natural attrition 
        over the next five years together with the aggressive hiring of 
        new talent as proposed above. Given, however, that there is a 
        small population of employees who would like to leave the 
        Agency now, but are staying on merely to increase their 
        retirement benefits, NASA should offer enhanced buyouts and 
        early outs comparable to those offered by the private sector to 
        encourage those who want to leave to do so sooner (IFPTE 
        recommendation #2). This approach is not only more ethical and 
        respectful to both our older and younger employees than any 
        possible RIF scenario; it is extremely cost-effective with 
        costs recouped within about two years. NASA could solve its 
        entire so-called ``uncovered capacity problem'' quickly and 
        painlessly if it offered a year's salary as a separation 
        incentive (the high-tech industry standard). Any RIF process 
        will take about a year, will cost millions to implement, will 
        embitter much of the workforce, and will trigger costly and 
        protracted litigation, so the wisdom of an enhanced buyout 
        approach becomes even more obvious, not to mention the morale 
        and productivity advantages.

                   Answers to Post-Hearing Questions

Responses by David C. Black, President, Universities Space Research 
        Association

Questions submitted by Chairman Ken Calvert

Q1.  The interim report from your National Research Council committee 
suggests that NASA should ``work with the DOD to initiate training 
programs'' or participate in Department of Defense programs. Can you 
elaborate on which training programs have particular relevance to NASA? 
Are there factors unique to NASA that a training program should take 
into account?

A1. The Air Force has a program through the Air Force Institute of 
Technology to send people for system engineering training. In addition, 
some of the commands have set up their own programs. The Space Missile 
Command in Los Angeles has a program with Caltech in system engineering 
and Space Command in Colorado Springs has an arrangement with the 
University of Colorado at Colorado Springs. These are all space 
oriented (primarily Air Force oriented) system engineering programs.
    These programs serve both as models of the types of programs that 
NASA could set up, and/or make their use of existing NASA training 
programs more effective. The challenges facing NASA center primarily on 
systems engineering, with emphasis on culture change. NASA staff has a 
strong sense of ``not invented here,'' and are therefore prone to not 
looking at lessons learned either from their own organization, or 
organizations external to the Agency.
    One of the major challenges for NASA, in my personal view, will be 
to find ways to remake itself. It has become very top-heavy from a 
bureaucratic perspective, as much given to process as results. There 
are committees that had a real purpose at one time, but whose purpose 
now is less obvious, yet they persist and add to the management 
overhead.
    The other thing that I believe NASA must do is seek training 
programs that allow their young people to actually do something with 
hardware. There are few places in the Agency where the NASA engineering 
staff has had actual experience in building something substantive, 
particularly in the human space flight programs.

Questions submitted by Representative Mark Udall

Q1.  In your testimony, you state that the decision on how much work to 
carry out in-house versus contracting out is ``one of the more 
critical, if not the most critical, decisions that NASA must make.''

Q1a.  What criteria should be used in deciding the best course of 
action?

A1a. The NRC Committee has not yet finalized its views on this topic. 
We have concluded that NASA does not have the expertise in-house 
currently to meet the various requirements of implementing the Vision 
for Space Exploration. This would suggest, in my personal view, that 
NASA should move forward cautiously on any major procurements until it 
either has the requisite skills in-house, or it is able to tap into the 
skills external to NASA to frame properly the requirements for major 
procurements. Conversations that I have had with members of both teams 
involved in the recent CEV procurement indicate that the teams felt 
that many aspects of the RFP for that procurement were vague and/or 
poorly stated. This will have cost and schedule ramifications as the 
requirements are sharpened after the contract is awarded.

Q1b.  What do you think of ``Ten Healthy Centers'' as a guiding 
principle for NASA's workforce strategy? Do you agree with it?

A1b. This also is a topic upon which the NRC Committee has not 
finalized its findings. My personal view is that any attempt to 
optimize NASA's ability to accomplish the Vision in an environment of 
strongly constrained funding that is based upon a ``Ten Healthy 
Centers'' approach is flawed. While such an approach may be politically 
expedient, it is generally not an efficient use of limited resources, 
creates unnecessary interface and overhead problems, and as such is not 
in the best interests of either the Vision or the taxpayers who should 
be viewed as the ultimate shareholders in the enterprise.

Q1c.  If NASA were to decide to simply retain the core of people 
necessary to be ``smart buyers,'' what is your estimate of how large 
that remaining NASA workforce would be?

A1c. The NRC Committee is considering this issue, but has not reached a 
consensus at this time. Given my personal view noted above, the issue 
here is not one of retention of people, but addition of people with the 
right technical skills in order for the Agency to become a ``smart 
buyer.'' I would not hazard a quantitative estimate at this time of how 
big the NASA workforce would/should be if it eliminated positions that 
were not essential for the Agency to be a ``smart buyer'' on all 
aspects of its business. There are areas in my view where NASA is 
currently employing staff whose jobs are arguably not needed to 
implement the Vision.

Q2.  The NRC Committee's interim report states that NASA is becoming 
aware that it has an age-distribution problem in its workforce, but 
that ``the committee saw no indication that the Agency has begun to act 
on this concern.'' How serious is the age-distribution problem, and 
what would the NRC committee recommend be done?

A2. This is an issue that the NRC Committee has discussed extensively. 
I would beg the Chairman and Ranking Member's indulgence on this until 
our final report is available, as we have not yet finalized our finding 
and recommendation on this important point. I would remark that there 
are several means by which the age-distribution can be altered over 
time. The $64,000 question in my mind is ``Is there a unique age-
distribution that fits the Agency, and if so, what is it?'' Also, 
should one view the workforce question solely from an agency 
perspective, or from the broader perspective that includes the 
aerospace and university communities as well? This topic is rich with 
potential for major policy implications.

Q3.  The NRC report states that ``The Committee concludes that the 
ability to recruit and strategically retain the needed workforce will 
depend fundamentally on the perception of long-term stability of the 
Vision for Space Exploration and a sustainable national consensus on 
NASA's mission.'' Given that the current Administration has failed for 
the last two years to propose budgets consistent with the requirements 
levied on NASA, and given that there is likely to be a review of the 
priority to be given to President Bush's exploration initiative after a 
new Presidential Administration come to power in 2009, how should NASA 
proceed to address its workforce issues in such an environment?

A3. My personal perspective on this issue is that the Agency should 
take no steps that would be either cause potential serious long-range 
damage to the Nation's civilian space program, or that cannot be 
remedied on a time scale short compared to a President's nominal term 
of office. As NASA is an element of the Administrative branch of 
government, the NASA Administrator may not have sufficient flexibility 
to avoid taking the kind of steps mentioned above. In that case, it 
seems to me to be unavoidable that the Legislative branch of government 
must be willing to provide the necessary steerage to keep the Agency 
moving forward in directions that best resonate with the will of the 
people and the best economic interests of the country.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


  Statement of the American Institute of Aeronautics and Astronautics,
                        Public Policy Committee

    The American Institute of Aeronautics and Astronautics (AIAA) is 
pleased to provide this written testimony for the House Science 
Committee Hearing on the proposed NASA Workforce Strategy. A flexible, 
vibrant, secure and appropriately skilled NASA work force for executing 
exploration programs as proposed in the President's Vision for Space 
Exploration is critical to the Vision's ultimate success. The AIAA has 
reviewed the proposed Strategy document, and would like to make four 
key points.

1.  A healthy and sustainable NASA workforce benefits the larger 
aerospace enterprise

    A healthy NASA workforce, armed with appropriate skills and secure 
in its future, provides better oversight for technical system 
procurement and program management. This results in better performing 
systems, better ability to meet schedule, more productive interactions 
with other stakeholders in the aerospace enterprise, and more efficient 
use of taxpayer dollars. Even in the Department of Defense, where 
procuring complex space systems has been a prime job for several 
decades, experts are concerned about current government workforce 
competencies. The May 2003 Final Report of the Defense Science Board 
(DSB) Task Force on Acquisition of National Security Space Programs, 
chaired by Tom Young, stated ``government capabilities to lead and 
manage the space acquisition process have seriously eroded.'' An 
organization like NASA, which has been an operational entity for much 
of recent history and which has less background and experience in 
development programs, should reasonably expect even greater challenges 
as it shifts its focus to a development organization and retrains its 
employees.

2.  A healthy aerospace enterprise also benefits the NASA workforce

    In so much as NASA draws employees from among experienced 
candidates already working in the larger aerospace enterprise, a 
healthy aerospace enterprise will benefit the NASA workforce. A healthy 
aerospace enterprise provides a motivated, skilled, and experienced 
workforce pool from which NASA can draw employees. A healthy aerospace 
enterprise also provides employment opportunities for NASA employees 
who desire or need to leave the Agency, but still wish to work in the 
industry.

3.  The proposed strategy is a good start

    The issue of workforce planning is an important one for NASA, and 
the proposed strategy is a good start. Implementation of the strategy, 
however, is likely to pose unanticipated challenges. Enterprises 
undergoing significant change typically encounter resistance and 
retrenchment across the ranks, which can derail even the strongest of 
change efforts.
    Given the immediate concerns of uncovered capacity facing NASA, it 
is understandable that the strategy is focused largely internal to 
NASA. One area where the workforce strategy could be improved is in 
links to capabilities and human resources outside NASA. Other agencies 
have Fellowship programs, which bring in professionals from industry to 
spend a short tenure at an agency and become more familiar with its 
work and challenges.

4.  Workforce strategy has far-ranging impacts on program 
(implementation) schedule, cost, risk, performance, and degree of in-
house work performed

    The proposed workforce strategy lays out ambitious goals for 
transitioning NASA from an operations-focused organization to a 
development-focused organization. It is important to recognize that 
workforce issues are inextricably linked to overall program 
implementation and acquisition strategy. The degree of in-house versus 
outsourced work, as well as the amount and kind of training required to 
transition the NASA workforce, influence the acquisition strategy to 
implement the Vision for Space Exploration. It is arguable whether NASA 
can both shift the focus of its organization and keep a large share of 
the work in-house, while also adhering to the current somewhat 
ambitious desires of policy-makers for CEV and CLV cost, schedule, 
performance and safety.
    AIAA advances the state of aerospace science, engineering, and 
technological leadership. Headquartered in suburban Washington, D.C., 
the Institute serves over 35,000 members in 65 regional sections and 79 
countries. AIAA membership is drawn from all levels of industry, 
academia, private research organizations, and government. For more 
information, visit www.aiaa.org.

</pre></body></html>
